<html>
<title> - LESSONS FROM THE LAX SHOOTING: PREPARING FOR AND RESPONDING TO EMERGENCIES AT AIRPORTS</title>
<body><pre>[House Hearing, 113 Congress]
[From the U.S. Government Publishing Office]






                     LESSONS FROM THE LAX SHOOTING

=======================================================================

                                HEARING

                               before the

                            SUBCOMMITTEE ON
                        TRANSPORTATION SECURITY

                                 of the

                     COMMITTEE ON HOMELAND SECURITY
                        HOUSE OF REPRESENTATIVES

                    ONE HUNDRED THIRTEENTH CONGRESS

                             SECOND SESSION

                               __________

                       MARCH 28 and MAY 29, 2014

                               __________

                           Serial No. 113-59

                               __________

       Printed for the use of the Committee on Homeland Security
                                     
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



                                     

      Available via the World Wide Web: http://www.gpo.gov/fdsys/
                               __________
                               
                           U.S. GOVERNMENT PRINTING OFFICE 

88-559 PDF                     WASHINGTON : 2014 
-----------------------------------------------------------------------
  For sale by the Superintendent of Documents, U.S. Government Printing 
  Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
         DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
                          Washington, DC 20402-0001                            
                               






                               
                               

                     COMMITTEE ON HOMELAND SECURITY

                   Michael T. McCaul, Texas, Chairman
Lamar Smith, Texas                   Bennie G. Thompson, Mississippi
Peter T. King, New York              Loretta Sanchez, California
Mike Rogers, Alabama                 Sheila Jackson Lee, Texas
Paul C. Broun, Georgia               Yvette D. Clarke, New York
Candice S. Miller, Michigan, Vice    Brian Higgins, New York
    Chair                            Cedric L. Richmond, Louisiana
Patrick Meehan, Pennsylvania         William R. Keating, Massachusetts
Jeff Duncan, South Carolina          Ron Barber, Arizona
Tom Marino, Pennsylvania             Dondald M. Payne, Jr., New Jersey
Jason Chaffetz, Utah                 Beto O'Rourke, Texas
Steven M. Palazzo, Mississippi       Tulsi Gabbard, Hawaii *
Lou Barletta, Pennsylvania           Filemon Vela, Texas
Richard Hudson, North Carolina       Steven A. Horsford, Nevada*
Steve Daines, Montana                Eric Swalwell, California
Susan W. Brooks, Indiana
Scott Perry, Pennsylvania
Mark Sanford, South Carolina
Vacancy
                   Brendan P. Shields, Staff Director
          Michael Geffroy, Deputy Staff Director/Chief Counsel
                    Michael S. Twinchek, Chief Clerk
                I. Lanier Avant, Minority Staff Director
                                 ------                                

                SUBCOMMITTEE ON TRANSPORTATION SECURITY

                Richard Hudson, North Carolina, Chairman
Mike Rogers, Alabama, Vice Chair     Cedric L. Richmond, Louisiana
Candice S. Miller, Michigan          Sheila Jackson Lee, Texas
Susan W. Brooks, Indiana             Eric Swalwell, California
Mark Sanford, South Carolina         Bennie G. Thompson, Mississippi 
Michael T. McCaul, Texas (ex             (ex officio)
    officio)
               Amanda Parikh, Subcommittee Staff Director
                    Dennis Terry, Subcommittee Clerk
         Brian Turbyfill, Minority Subcommittee Staff Director

* Resignation of Ms. Tulsi Gabbard of Hawaii and Mr. Steven A. 
    Horsford of Nevada as Members of the Committee on Homeland 
    Security as of April 3, 2014.
    
    
    
    
    
    
    
    
    
    
    
    
    
    
                            C O N T E N T S

                              ----------                              
                                                                   Page

                               Statements

                             MARCH 28, 2014

The Honorable Richard Hudson, a Representative in Congress From 
  the State of North Carolina, and Chairman, Subcommittee on 
  Transportation Security:
  Oral Statement.................................................     1
  Prepared Statement.............................................     3
The Honorable Cedric L. Richmond, a Representative in Congress 
  From the State of Louisiana, and Ranking Member, Subcommittee 
  on Transportation Security:
  Prepared Statement.............................................     8
The Honorable Michael T. McCaul, a Representative in Congress 
  From the State of Texas, and Chairman, Committee on Homeland 
  Security:
  Oral Statement.................................................     5
  Prepared Statement.............................................     7
The Honorable Bennie G. Thompson, a Representative in Congress 
  From the State of Mississippi, and Ranking Member, Committee on 
  Homeland Security:
  Oral Statement.................................................     3
  Prepared Statement.............................................     5
The Honorable Sheila Jackson Lee, a Representative in Congress 
  From the State of Texas:
  Oral Statement.................................................     8
  Prepared Statement.............................................    10

                               Witnesses

Mr. John S. Pistole, Administrator, Transportation Security 
  Administration, Arlington, Virginia:
  Oral Statement.................................................    12
  Prepared Statement.............................................    13
Mr. Patrick M. Gannon, Chief of Airport Police, Los Angeles World 
  Airports, Los Angeles, California:
  Oral Statement.................................................    17
  Joint Prepared Statement.......................................    19
Ms. Gina Marie Lindsey, Executive Director, Los Angeles World 
  Airports, Los Angeles, California:
  Oral Statement.................................................    22
  Joint Prepared Statement.......................................    19
Mr. J. David Cox, Sr., National President, American Federation of 
  Government Employees, Washington, DC:
  Oral Statement.................................................    24
  Prepared Statement.............................................    25

                             For The Record

The Honorable Maxine Waters, a Representative in Congress From 
  the State of California:
  Letter From Hon. Maxine Waters.................................    38

                                Appendix

Questions From Chairman Michael T. McCaul for John S. Pistole....    45
Questions From Ranking Member Bennie G. Thompson for John S. 
  Pistole........................................................    46

                              MAY 29, 2014

The Honorable Richard Hudson, a Representative in Congress From 
  the State of North Carolina, and Chairman, Subcommittee on 
  Transportation Security........................................    49
The Honorable Cedric L. Richmond, a Representative in Congress 
  From the State of Louisiana, and Ranking Member, Subcommittee 
  on Transportation Security:
  Oral Statement.................................................    50
  Prepared Statement.............................................    56
The Honorable Bennie G. Thompson, a Representative in Congress 
  From the State of Mississippi, and Ranking Member, Committee on 
  Homeland Security:
  Prepared Statement.............................................    57

                               Witnesses

Mr. Frank Capello, Director of Security, Fort Lauderdale-
  Hollywood International Airport:
  Oral Statement.................................................    58
  Prepared Statement.............................................    60
Mr. Michael J. Landguth, President and Chief Executive Officer, 
  Raleigh-Durham Airport Authority, Raleigh-Durham International 
  Airport:
  Oral Statement.................................................    62
  Prepared Statement.............................................    64
Mr. Kevin Murphy, President, Airport Law Enforcement Agencies 
  Network:
  Oral Statement.................................................    66
  Prepared Statement.............................................    68
Mr. Marshall McClain, President, Los Angeles Airport Peace 
  Officers Association:
  Oral Statement.................................................    69
  Prepared Statement.............................................    71

                             For The Record

The Honorable Cedric L. Richmond, a Representative in Congress 
  From the State of Louisiana, and Ranking Member, Subcommittee 
  on Transportation Security:
  Articles.......................................................    52

 
    LESSONS FROM THE LAX SHOOTING: PREPARING FOR AND RESPONDING TO 
                        EMERGENCIES AT AIRPORTS

                              ----------                              


                         Friday, March 28, 2014

             U.S. House of Representatives,
           Subcommittee on Transportation Security,
                            Committee on Homeland Security,
                                                   Los Angeles, CA.
    The subcommittee met, pursuant to call, at 1:04 p.m., at 
the Los Angeles Airport, Clifton A. Moore Administration 
Building, Samuel Greenberg Board Room, 1 World Way, Los 
Angeles, California, Hon. Richard Hudson [Chairman of the 
subcommittee] presiding.
    Present: Representatives Hudson, McCaul, Jackson Lee, and 
Thompson.
    Also Present: Representatives Waters and Brownley.
    Mr. Hudson. The subcommittee is meeting today to examine 
the Transportation Security Administration's preparation for 
and response to emergencies at airports. Before we begin, I 
want to welcome all the witnesses and extend my thanks for 
participating in today's hearing. I appreciate the effort taken 
on behalf of those involved to have this important field 
hearing.
    This is an official Congressional hearing as opposed to a 
town hall meeting, and as such we must abide by certain rules 
of the Committee on Homeland Security and of the House of 
Representatives. I kindly wish to remind our guests today that 
demonstrations from the audience, including applause and verbal 
outbursts, as well as the use of signs or placards are a 
violation of the rules of the House of Representatives. Also, 
photography and cameras are limited to accredited press only. 
It is important that we respect the decorum and rules of the 
committee.
    I now recognize myself for an opening statement.
    I would like to thank our witnesses for their participation 
in this hearing and their commitment to aviation security. I 
also want to acknowledge the sacrifice of TSA Officer 
Hernandez, who lost his life here on November 1, 2013. It is my 
sincere hope that this hearing not only reminds us of the 
horrible events of that day, but also motivates us to make 
changes that will improve our ability to detect and deter 
potential threats and respond to future emergencies. I believe 
we owe it to Mr. Hernandez and all those impacted by the 
shooting to examine the facts and shed light on the details and 
the time line of this incident in an open setting. That alone 
is the purpose of today's hearing.
    The shooting that occurred here at LAX exposed significant 
weaknesses in the ability of Federal and local personnel to 
communicate and coordinate during an emergency, weaknesses that 
I expect that exist in other airports across the country. 
Perhaps these weaknesses stem from resource constraints, or 
clashes between agencies, or a belief that an incident like 
this is unlikely. It is certainly easier to push emergency 
planning and exercises off to sometime in the distant future 
rather than making them a top priority for today when you have 
so many other competing demands for time and resources. Having 
said that, I think most of my colleagues will agree that 13 
years after 9/11, these types of flaws cannot be tolerated 
regardless of the reasons. Based on the reports completed by 
the Los Angeles World Airports and TSA, it appears there is 
widespread agreement on this.
    According to Los Angeles World Airports, the response and 
recovery efforts that followed the November 1 shooting lasted 
roughly 30 hours. The shooting affected over 1,500 flights and 
171,000 passengers. Among the findings in its report, LAWA 
highlighted significant coordination and communication 
challenges among local first responders. I agree with LAWA's 
assertion that airport security needs to become more risk-
based, emergency communications need to be more streamlined, 
and there must be a unified incident command set up immediately 
after an event like this.
    While the report provided details on certain aspects of the 
response, LAWA's report conspicuously excludes any mention of 
where the two officers assigned to Terminal 3 were at the time 
the first shots rang out and what impact, if any, this may or 
may not have had. I believe the location of these officers is 
crucial to understanding the viability of a flexible response 
to screen checkpoints, especially when you combine it with the 
lack of interoperable radio communications that we know exists. 
If we do not have law enforcement officers stationed at 
heavily-trafficked screening checkpoints or ticket counters, we 
should at least have confidence that we know exactly when the 
first officers will be there to respond to an active shooter or 
to an emergency. I look forward to discussing this issue in 
greater detail today.
    In addition to LAWA's report, we have had the benefit of 
reviewing TSA's recent report, which highlights several 
recommended actions, including mandatory active-shooter 
training for screeners, improved communication systems, and 
enhanced law enforcement presence at checkpoints and ticket 
counters during peak travel times. The bottom line is TSA 
cannot do it alone. It must rely on its local law enforcement 
partners in an event like this.
    Before I conclude my remarks, I would like to remind 
Members that we are on a very tight schedule here today with 
folks flying out at various times this afternoon. So I will be 
enforcing the 5-minute rule for all Members so that we are 
hopefully able to get through two full rounds of questions. My 
intention is to hold a second hearing in Washington to follow 
up on this hearing to look more broadly at what lessons we can 
learn once we put the facts on the record here today and how 
they can be applied to airports Nation-wide. I welcome all 
Members to attend that hearing as well.
    [The statement of Chairman Hudson follows:]
                  Statement of Chairman Richard Hudson
                             March 28, 2014
    I would like to thank our witnesses for their participation in this 
hearing, and their commitment to aviation security.
    I also want to acknowledge the sacrifice of TSA Officer Hernandez 
who lost his life here on November 1, 2013. It is my sincere hope that 
this hearing not only reminds us of the horrible events of that day but 
also motivates us to make changes that will improve our ability to 
detect and deter potential threats, and respond to future emergencies. 
I believe we owe it to Mr. Hernandez and all of those impacted by the 
shooting to examine the facts and shed light on the details and time 
line of this incident in an open setting. That alone is the purpose of 
today's hearing.
    The shooting that occurred here at LAX exposed significant 
weaknesses in the ability of Federal and local personnel to communicate 
and coordinate during an emergency--weaknesses that I suspect exist in 
many other airports across the country. Perhaps these weaknesses stem 
from resources constraints, or clashes between agencies, or a belief 
that an incident like this is unlikely. It is certainly easier to push 
emergency planning and exercises off to some time in the distant future 
rather than making them a top priority for today.
    Having said that, I think most of my colleagues will agree that 13 
years after 
9/11, these types of flaws cannot be tolerated, regardless of the 
reasons. Based on the reports completed by Los Angeles World Airports 
and TSA, it appears there is widespread agreement on this.
    According to Los Angeles World Airports, the response and recovery 
efforts that followed the November 1 shooting lasted roughly 30 hours. 
The shooting affected over 1,500 flights and 171,000 passengers. Among 
the findings in its report, LAWA highlights significant coordination 
and communication challenges among local first responders. I agree with 
LAWA's assertions that airport security needs to become more risk-
based, emergency communications need to be more streamlined, and there 
must be a unified incident command set-up immediately after an event 
like this.
    While the report provided details on certain aspects of the 
response, LAWA's report conspicuously excludes any mention whatsoever 
of where the two officers assigned to Terminal 3 were at the time the 
first shots rang out, and what impact, if any, this may or may not have 
had. I believe the location of these officers is crucial to 
understanding the viability of a flexible response to screening 
checkpoints, especially when you combine it with the lack of 
interoperable radio communications that we know exists.
    If we do not have law enforcement officers stationed at heavily-
trafficked screening checkpoints or ticket counters, we should at least 
have confidence that we know exactly when the first officers will be 
there to respond to an active shooter or other emergency. I look 
forward to discussing this issue in greater detail today.
    In addition to LAWA's report, we have had the benefit of reviewing 
TSA's recent report, which highlights several recommended actions, 
including mandatory active-shooter training for screeners, improved 
communications systems, and enhanced law enforcement officer presence 
at checkpoints and ticket counters during peak travel times. The bottom 
line is TSA cannot do it alone, and must rely on its local law 
enforcement partners in an event like this.
    Before I conclude my remarks, I would like to remind Members that 
we are on a tight schedule, with folks flying out at varying times this 
afternoon. I will be enforcing the 5-minute rule for all Members so 
that hopefully we are able to get through two full rounds of 
questioning.
    My intention is to hold a second hearing in Washington to look more 
broadly at how the lessons we discuss here today can or cannot be 
applied to airports Nation-wide, and I welcome all Members to attend 
that hearing as well.

    Mr. Hudson. I now recognize the Ranking Member of the full 
committee, Mr. Thompson, for any statement he may have.
    Mr. Thompson. Thank you, Mr. Chairman, and thank you for 
holding this important field hearing today. At the outset, I 
would like to acknowledge executive director Lindsey and Chief 
Gannon of the Los Angeles World Airports for their hospitality. 
Your willingness to aid the committee in its oversight by 
hosting the hearing and accommodating our Members' request to 
tour the site of this tragic shooting of November 1, 2013 is 
appreciated.
    To Administrator Pistole, thank you for appearing before 
the subcommittee to discuss TSA's findings in the wake of the 
shooting and planned reforms to mitigate any similar incident 
in the future. We place the security of our aviation sector in 
the hands of the men and women of the Transportation Security 
Administration every day. Those on the front lines, the 
transportation security officers, deserve to know that we are 
doing everything within our power to see that they themselves 
are secure when performing the critical job of screening 
passengers. I am pleased that the national president of the 
American Federation of Government Employees, J. David Cox, is 
appearing before the subcommittee today to give voice to the 
transportation security officer workforce.
    As has been well documented, on November 1, 2013, an armed 
gunman entered Terminal 3 of Los Angeles International Airport 
and opened first on Transportation Security Officer Hernandez. 
The gunman then proceeded through the terminal targeting other 
TSA employees, shooting and injuring Transportation Security 
Officers Grigsby and Speer. Thanks to the bravery of the police 
officers on duty, the gunman was ultimately taken down and 
prevented from causing further harm.
    While some may wish to point fingers and assign blame for 
this horrific incident, I believe doing so would be 
counterproductive. All of our energies should be directed 
toward not only learning from the incident, but also 
implementing needed reforms. Frequently we speak of lessons 
learned from a tragedy, but fail to implement the reforms 
necessary to prevent those lessons from having to be learned 
again.
    For instance, after 9/11 we identified that communication 
between and amongst first responders was an area that needed 
major reforms. Despite knowing this and having spent $13 
billion to correct the problem, a review of the report the 
airport released last week reveals that more than a decade 
after 9/11, the police and fire department at this critical 
airport could not communicate effectively during an emergency. 
The tools Transportation Security Officers have been trained on 
in the event of an emergency did not work.
    The state of affairs is unacceptable. Our police, 
firefighters, Transportation Security Officers, and emergency 
medical personnel, along with the American public, deserve 
better. Had the shooter at LAX on November 1 been intent on 
firing upon passengers rather than targeting TSA personnel, 
untold lives could have been lost. In addition to the 
communication issue, I have concerns regarding the training 
Transportation Security Officers receive for active-shooter 
scenarios. I look forward to hearing from Administrator Pistole 
on how he intends to ensure all TSOs are trained to respond to 
an active-shooter scenario in a manner relevant to their work 
environment.
    Before yielding back, Mr. Chairman, I would like to 
acknowledge Representative Waters, who represents the district 
the airport is in, and Representative Brownley, for their 
participation in the hearing today. I also, Mr. Chairman, ask 
unanimous consent that Representative Waters and Brownley be 
allowed to sit and question the witnesses at the hearing today. 
With that, Mr. Chairman, I yield back the balance of my time.
    [The statement of Ranking Member Thompson follows:]
             Statement of Ranking Member Bennie G. Thompson
                             March 28, 2014
    At the outset, I would like acknowledge executive director Lindsey 
and Chief Gannon of Los Angeles World Airports for their hospitality.
    Your willingness to aid the committee in its oversight by hosting 
the hearing and accommodating our Members' request to tour the site of 
the tragic shooting of November 1, 2013, is appreciated.
    To Administrator Pistole, thank you for appearing before the 
subcommittee to discuss TSA's findings in the wake of the shooting and 
planned reforms to mitigate any similar incident in the future.
    We place the security of our aviation sector in the hands of the 
men and women of the Transportation Security Administration every day.
    Those on the front lines, the Transportation Security Officers, 
deserve to know that we are doing everything within our power to see 
that they themselves are secure when performing the critical job of 
screening passengers.
    I am pleased that the national president of the American Federation 
of Government Employees, J. David Cox, is appearing before the 
subcommittee today to give voice to the Transportation Security Officer 
workforce.
    As has been well documented, on November 1, 2013, an armed gunman 
entered Terminal 3 of Los Angeles International Airport and opened fire 
on Transportation Security Officer Hernandez.
    The gunman then proceeded through the Terminal, targeting other TSA 
employees, shooting and injuring Transportation Security Officers 
Grigsby and Speer.
    Thanks to the bravery of the police officers on duty, the gunman 
was ultimately taken down and prevented from causing further harm.
    While some may wish to point fingers and assign blame for this 
horrific incident, I believe doing so would prove counterproductive.
    All of our energy should be directed toward not only learning from 
the incident, but also implementing needed reforms.
    Frequently, we speak of the lessons learned from a tragedy, but 
fail to implement the reforms necessary to prevent those lessons from 
having to be learned again.
    For instance, after 9/11 we identified that communications between 
and amongst first responders was an area in need of major reforms.
    Despite knowing this, and having spent $13 billion to correct the 
problem, a review of the report the airport released last week reveals 
that, more than a decade after 9/11, the police and fire departments at 
this critical airport could not communicate effectively during an 
emergency.
    The tools Transportation Security Officers have been trained to use 
in the event of an emergency did not work.
    This state of affairs is unacceptable.
    Our police, fire fighters, Transportation Security Officers, and 
emergency medical personnel, along with the American public, deserve 
better.
    Had the shooter at LAX on November 1 been intent on firing upon 
passengers rather than targeting TSA personnel, untold lives could have 
been lost.
    In addition to the communications issues, I have concerns regarding 
the training Transportation Security Officers receive for active-
shooter scenarios.
    I look forward to hearing from Administrator Pistole on how he 
intends to ensure all TSOs are trained to respond to an active-shooter 
scenario in a manner relevant to their work environment.

    Mr. Hudson. I thank the gentleman, and without objection, 
we welcome Ms. Waters and Ms. Brownley.
    At this time, the Chairman now recognizes the Chairman of 
the full committee, the gentleman from Texas, Mr. McCaul, for 
any statement he may have.
    Chairman McCaul. Thank you, Chairman Hudson. I would like 
to first offer my sincere condolences to Officer Hernandez's 
wife, Ana, who we met with briefly before this hearing. I also 
want to recognize the TSA Officers Grigsby and Speer. From what 
I have seen, you are true heroes what you did that day, and we 
appreciate your service.
    I want to thank the Chairman for his leadership on this 
issue. I also want to thank the Los Angeles World Airport for 
hosting us and Chief Gannon who gave us a tour of the terminal 
this morning. John Pistole, TSA, and Ms. Lindsey, thank you for 
hosting us and giving us the briefings this morning. They were 
very informative and very insightful.
    It is critical that agencies responsible for protecting our 
airports are doing all that they can to keep passengers and 
employees safe. I believe this hearing is an important 
opportunity to examine lessons learned from the shooting, what 
went well and what did not, and how we should apply those 
lessons learned to other airports as we move forward.
    Unfortunately, we live in a very dangerous world. Events 
like the one that happened here are difficult, if not 
impossible, to prevent. But what we can do is improve our 
ability to detect the threats before someone starts shooting, 
or detonates a bomb, or hops a fence, or takes advantage of any 
security loophole or vulnerability that we have failed to close 
for one reason or another. As Chairman of the Committee on 
Homeland Security, I know how committed our law enforcement 
officers are and our Transportation Security Officers are day 
in and day out to stay ahead of any potential threat.
    Yet the tragedy that the world watched unfold at this 
airport could very likely happen again at another airport in 
the future, so we need to be prepared for that wherever and 
whenever it may happen. There are valuable lessons to be 
learned here today by this incident, but first we need to 
dissect exactly what happened.
    Among the shortcomings in the response to the shooting, we 
know that all relevant agencies did not join together in the 
unified command structure until 45 minutes after the shooting 
occurred. Even then the Los Angeles Fire Department did not 
join the unified command. This, along with a lack of, in some 
cases, interoperable communications, made the job of executing 
an effective response more difficult.
    What is perhaps most concerning about the problems 
identified after the incident is that if the gunman had been 
shooting randomly rather than targeting TSA, we would have seen 
much greater loss of life. Dozens if not hundreds of people 
could have been killed within the 4\1/2\ minutes it took 
officers to detain the gunman.
    Also on the day of the shooting, airport police were 
operating vehicle checkpoints and stopping certain vehicles to 
check for anything suspicious. Yet as the airport's report 
points out, it is possible the shooter actually went through 
one of these checkpoints and the officers were not able to 
detect or deter him.
    There is no such thing as 100 percent security, but this 
situation reminds us that we cannot become complacent. We need 
to constantly stay ahead of potential threats with proven 
tactics and techniques. There are some parallels to what 
happened at the Washington Navy Yard just a month before this 
incident occurred.
    But I do want to close on a very positive note. I think 
what we saw today with Ms. Lindsey, and Chief Gannon, and John 
Pistole, not only prior to the shooting, but what was done at 
the time of the shooting to stop the shooter, to stop more 
bloodshed. The heroes that day, as I pointed out, are TSO 
Officers, and, Chief, the great work that you did. I must say I 
walked away very impressed with how this incident was handled 
by all the relevant agencies, but also the way they have looked 
in a self-critical way to examine what can be done better. I 
think that is what it is all about, how can we do a better job 
so we can prevent this from happening again.
    I must say I am very, very proud of the Los Angeles airport 
police, Ms. Lindsey, your efforts with the airport, and, Mr. 
Pistole, what you've done with TSA to make this place a safer 
airport. With that, Mr. Chairman, I yield back.
    [The statement of Chairman McCaul follows:]
                Statement of Chairman Michael T. McCaul
                             March 28, 2014
    Thank you, Chairman Hudson. I would like to offer my sincere 
condolences to Mr. Hernandez's wife, Ana, as well as TSA Officers 
Grigsby and Speer, who are all here with us today, and all the victims 
of the shooting.
    I want to commend you, Mr. Chairman, for your leadership of this 
subcommittee and for ensuring that we never forget what happened at 
this extremely busy airport on November 1, 2013. I would also like to 
thank Los Angeles World Airports for hosting us, and welcome all of our 
witnesses.
    It is critical that the agencies responsible for protecting our 
airports are doing all that they can to keep passengers and employees 
safe. I believe this hearing is an important opportunity to examine 
lessons learned from the shooting, what went well and what didn't, and 
how we should apply those lessons to other airports as we move forward.
    We live in a very dangerous world. Unfortunately, events like the 
one that happened here are difficult, if not impossible, to prevent. 
But what we can do is improve our ability to detect the threats before 
someone starts shooting, or detonates a bomb, or hops a fence, or takes 
advantage of any security loophole or vulnerability that we have failed 
to close for one reason or another.
    As Chairman of the Committee on Homeland Security, I know how 
committed our law enforcement officers are, day in and day out, to 
staying ahead of any potential threat. And yet, the tragedy that the 
world watched unfold at this airport could very likely happen again at 
another airport in the future. So we need to be prepared for that, 
wherever and whenever it may happen. There are valuable lessons to be 
learned by the incident that occurred here, but first we need to 
dissect exactly what happened.
    Among the shortcomings in the response to the shooting, we know 
that all relevant agencies did not join together in a Unified Command 
structure until 45 minutes after the shooting occurred. Even then, the 
Los Angeles Fire Department did not join the Unified Command. This 
mistake, along with a lack of interoperable communications, made the 
job of executing an effective response much more difficult.
    What is perhaps most concerning about the problems identified after 
the incident is that if the gunman had been shooting randomly, rather 
than targeting TSA, we would have seen a much greater loss of life; 
dozens if not hundreds of people could have been killed within the 4\1/
2\ minutes it took officers to detain the gunman.
    Also, on the day of the shooting, airport police were operating 
vehicle checkpoints and stopping certain vehicles to check for anything 
suspicious. Yet, as the airport's report points out, it is possible the 
shooter actually went through one of the vehicle checkpoints and 
officers did not deter or detect him before he entered Terminal 3 with 
an assault rifle and began firing.
    There is no such thing as 100% security, but this situation reminds 
us that we cannot become complacent, and we need to constantly stay 
ahead of potential threats with proven tactics and techniques. There 
are some parallels to what happened at the Washington Navy Yard just a 
month-and-a-half before this incident occurred, including that the Navy 
Yard shooter was able to get through a vehicle checkpoint undeterred 
and undetected.
    I look forward to examining the results of the reviews conducted by 
the airport operator and TSA Administrator Pistole. I believe we can 
draw lessons from this tragedy that can help strengthen our emergency 
response capabilities at airports Nation-wide.

    Mr. Hudson. I thank the gentleman. The Chairman now 
recognizes the gentlewoman from Texas, Ms. Jackson Lee, for any 
statement she may have.
    Ms. Jackson Lee. Thank you very much, Mr. Chairman. Might I 
add my appreciation to you, Mr. Richmond, and also to the 
Chairman and Ranking Member of the full Committee on Homeland 
Security. I also want to acknowledge my colleagues, 
Congresswoman Waters, who has with great honor served this 
community and shown great compassion for these issues, and to 
congratulate Congresswoman Brownley for her leadership on very 
important legislation that I hope will be passed and that the 
President will sign.
    I thank all of you for coming to this hearing, and 
particularly the witnesses: Mr. Pistole for his service to this 
Nation, Ms. Lindsey for your guidance of this great airport, 
and along with your colleague, Chief Gannon, who eloquently 
presented the case today of November 2013. Mr. Cox, thank you 
so very much for standing very strong and tall for first 
responders in the name of TSO Officers.
    Today we will learn what we can to prevent or to mitigate a 
similar incident in the future. At the onset, I would like to 
acknowledge that the Ranking Member of the subcommittee, our 
friend and colleague, Mr. Richmond of Louisiana, could not 
attend the hearing today, although he wanted to very much. He 
has requested that I express his regret, which I will do, and 
asked that I sit in his place during the hearing today. At this 
time, I ask unanimous consent that Ranking Member Richmond's 
prepared statement be inserted in the record.
    Mr. Hudson. Without objection, so ordered.
    [The statement of Ranking Member Richmond follows:]
             Statement of Ranking Member Cedric L. Richmond
                             March 28, 2014
    I would like to acknowledge Administrator Pistole for his service 
and leadership in the wake of the tragic shooting at Los Angeles 
International Airport on November 1, 2013. I would also like to thank 
Los Angeles World Airports for hosting the subcommittee, so that we may 
gain a greater insight into precisely what happened on that tragic day.
    Los Angeles World Airports should be commended for conducting a 
thorough and thoughtful review of the shooting.
    The report released last week uncovered several flaws as well as 
viable solutions that can be implemented to ensure that similar future 
events are mitigated or deterred altogether. It is my hope and 
expectation that other airports around the Nation will review the 
report and learn from it.
    Having said that, Los Angeles World Airports cannot implement all 
of the reforms necessary without assistance from local and Federal 
partners such as the Los Angeles Police Department, Los Angeles Fire 
Department, and the Transportation Security Administration.
    Undoubtedly, Federal funds and resources will be required to ensure 
all of the needed reforms are implemented. That places the onus on 
Congress to provide the funding needed to make planned reforms a 
reality.
    I would like to thank national president Cox for testifying before 
the subcommittee today. He brings the vital element of the perspective 
of Transportation Security Officers, the front-line workforce in the 
fight to protect our aviation system and those targeted by the shooter 
last November.
    To Gerardo Hernandez's wife and family, please accept our sincerest 
condolences on your loss. Officer Hernandez was the first TSA employee 
to be killed in the line of duty. His service and sacrifice will not be 
forgotten. To the other Transportation Security Officers injured during 
the shooting, Mr. Grigsby and Mr. Speer, we thank you for your bravery 
and continued service to our Nation.
    Transportation Security Officers across the country perform the 
often thankless task of screening 1.8 million passengers every day. All 
too often, they are the target of unwarranted criticism by both Members 
of Congress and the media. Much of the criticism arises from these 
dedicated public servants simply following the mandated standard 
operating procedures handed down from headquarters. I would encourage 
all of us to keep that in mind the next time we travel through an 
airport.

    Ms. Jackson Lee. Again, I thank all of the witnesses for 
appearing before the subcommittee today. A special thanks, as I 
already said, to Executive Director Lindsey and Chief Gannon 
for hosting us, and again to Administrator Pistole and national 
president Cox, our friend and a friend to working men and 
women, for traveling to appear before this subcommittee.
    Today we have the honor and privilege of having Officer 
Hernandez's wife present with us today. As we chatted about her 
wonderful children, I thought it was important to acknowledge 
all of the TSO Officers, including Mr. Grigsby and Mr. Speer. 
Let it be very clear that you serve in this Nation's defense, 
and that TSO Officers across America are first responders, and 
they are serving to protect our National security. Mrs. 
Hernandez, as I said, your husband fell in the line of duty 
serving his Nation, and we are grateful to all of you for your 
sacrifice and your willingness to sacrifice, saddened that it 
has occurred, but we thank you for your presence here today.
    Today's hearing focuses on an issue that I have closely 
observed during my time in Congress and as a Member of the 
Homeland Security Committee; that is, the safety and security 
of our aviation system and airports. For years I served as 
either the Chair or Ranking Member of this subcommittee and 
worked to enhance aviation security and the security of our 
critical infrastructure. Indeed, I was the principal author of 
the last Transportation Security Administration Authorization 
Act to pass the House of Representatives, and I would hope that 
we would soon have an opportunity to look at that again for the 
many changes that we may need to include.
    Understanding the importance of training for Transportation 
Security Officers, that legislation contained a section focused 
on the establishment of a centralized training facility for the 
workforce. I look forward to hearing from Administrator Pistole 
today on how he intends to train the entire Transportation 
Security Officer workforce on active-shooter scenarios in a 
setting resembling their workplace environment, a crucial 
element to the many TSO Officers across America.
    Today's hearing also focuses on a topic of great interest 
to me in light of a similar incident having occurred, as I 
mentioned earlier today, in Houston, Texas. Last May, a man 
entered Houston-Bush Intercontinental Airport, sat in the 
departure area for over an hour without being confronted, and 
subsequently fired shots into the ceiling near a ticketing 
area. Thankfully no passengers or airport personnel were 
injured in that incident. The shooter ultimately took his own 
life. As an additional point, it was a TSO Officer that first 
acknowledged or thought that there was something suspicious 
about this individual. Ultimately, this TSO Officer confronted 
the individual, and the Department of Homeland Security law 
enforcement agent came out from another direction and was part 
of the overcoming of the individual, even though he had begun 
to look as if he was going to take his own life.
    Taken together, the shootings at LAX and Houston-Bush 
Intercontinental Airport show that airports are target-rich 
environments as unfortunate as that may seem, whether it is the 
airplane, whether it is the area where passengers are, or 
whether or not it is in the open space and secure areas that 
TSO Officers are manning. Knowing that, it is incumbent upon us 
to implement recommendations and modify policies where 
appropriate that will make the airport environment more secure 
for passengers, airport personnel, and Transportation Security 
Officers. Undoubtedly, doing so will require resources and 
support from State, local, and Federal authorities.
    When an incident occurs that prompts a response from 
multiple law enforcement agencies, our communications systems 
are only as good as their weakest link. Our challenge today is 
to make the weakest link as strong as possible. It does no good 
for Los Angeles World Airports to invest in new radios and 
communications systems if the surrounding jurisdictions fail to 
do so.
    Mr. Chairman, I look forward to listening to the testimony, 
and I will submit the rest of my statement into the record.
    [The statement of Hon. Jackson Lee follows:]
                  Statement of Hon. Sheila Jackson Lee
                             March 28, 2014
    Thank you, Mr. Chairman, and thank you for convening this important 
hearing to discuss the tragic shooting at Los Angeles International 
Airport that occurred on November 1, 2013.
    Today, we will learn what can be done to prevent or mitigate a 
similar incident in the future. At the outset, I would like to 
acknowledge that the Ranking Member of the subcommittee, Mr. Richmond 
of Louisiana, could not attend the hearing today. He has requested that 
I express his regret for his absence and asked that I sit in his place 
during the hearing today.
    At this time, I ask unanimous consent that Ranking Member 
Richmond's prepared statement be inserted in the record.
    Thank you to all of the witnesses appearing before the subcommittee 
today. A special thanks to Executive Director Lindsay and Chief Gannon 
for hosting us and to Administrator Pistole and national president Cox 
for traveling to appear before the subcommittee.
    To the victims of the shooting, including Officer Hernandez's wife 
and family, I thank you for your sacrifice and service.
    Today's hearing focuses on an issue I have closely observed during 
my time in Congress. That is, the safety and security of our aviation 
system and airports.
    For years, I served as either the Chair or Ranking Member of this 
subcommittee and worked to enhance aviation security and the security 
of our critical infrastructure. Indeed, I was the principal author of 
the last Transportation Security Administration Authorization Act to 
pass the House of Representatives. Understanding the importance of 
training for Transportation Security Officers, that legislation 
contained a section focused on the establishment of a centralized 
training facility for the workforce.
    I look forward to hearing from Administrator Pistole today on how 
he intends to train the entire Transportation Security Officer 
workforce on active-shooter scenarios in a setting resembling their 
workplace environment.
    Today's hearing also focuses on a topic of great interest to me in 
light of a similar incident having occurred in Houston. Last May, a man 
entered Houston Bush Intercontinental Airport, sat in the departure 
area for over an hour without being confronted and subsequently fired 
gunshots into the ceiling near a ticketing area. Thankfully, no 
passengers or airport personnel were injured in that incident. The 
shooter ultimately took his own life when confronted by a Department of 
Homeland Security law enforcement agent.
    Taken together, the shootings at LAX and Houston Bush 
Intercontinental Airport show that airports are target-rich 
environments, as unfortunate as that may be.
    Knowing that, it is incumbent upon us to implement recommendations 
and modify policies where appropriate that will make the airport 
environment more secure for passengers, airport personnel, and 
Transportation Security Officers. Undoubtedly, doing so will require 
resources and support from State, local, and Federal authorities. When 
an incident occurs that prompts a response from multiple law 
enforcement agencies, our communications systems are only as good as 
their weakest link.
    Our challenge is making the weakest link as strong as possible. It 
does no good for Los Angeles World Airports to invest millions in new 
radios and communications systems if the surrounding jurisdictions fail 
to do so.
    I look forward to hearing from Executive Director Lindsey and Chief 
Gannon on how the airport intends to address the communications 
challenges outlined in the report the airport released last week.
    Transportation Security Officers work diligently, screening some 
1.8 million passengers per day, in furtherance of keeping our aviation 
system secure.
    They deserve to know that when they pick up an emergency phone 
line, it will work. They deserve to know that the panic button they 
have been instructed to press when an incident occurs will work and 
prompt a response from local law enforcement. And they deserve to know 
that they have our strong support and will work tirelessly to ensure 
they have the training and resources needed to perform their job 
effectively.
    I look forward to hearing from national president Cox on what we 
can do for Transportation Security Officers to make them more effective 
and secure.
    With that Mr. Chairman, I yield back the balance of my time.

    Mr. Hudson. I thank the gentlelady. Other Members are 
reminded that you may submit written statements for the record.
    We are pleased now to introduce our distinguished panel of 
witnesses here with us today. First, we have the Honorable John 
Pistole, who has been the administrator of the Transportation 
Security Administration of the Department of Homeland Security 
since 2010. As TSA administrator, he oversees and manages 
approximately 60,000 employees, the security operations of more 
than 450 Federalized airports throughout the United States, the 
Federal Air Marshal Service, and the security for highways, 
railroads, mass transit systems, and pipelines.
    Ms. Gina Marie Lindsey was appointed executive director of 
Los Angeles World Airport in June 2007. She has over 20 years' 
experience in airport management. Ms. Lindsey briefly served as 
managing director for the Seattle-Tacoma International Airport 
and director of aviation for Anchorage International Airport. 
We thank you for hosting us here today.
    Next, Mr. Patrick Gannon was appointed to the position of 
chief of airport police for Los Angeles World Airport in 
November 2012. As chief of airport police, Mr. Gannon leads 
over 1,100 police officers, security officers, and civilian 
staff protecting LAX and other nearby airports, and ensures 
compliance with TSA mandates, airport rules and regulations, 
and international, Federal, State, and local laws. Chief Gannon 
retired from the Los Angeles Police Department in 2012 after 34 
years of service.
    Finally, J. David Cox is the national president of the 
American Federation of Government Employees, the largest 
Federal employee union representing 650,000 Federal and D.C. 
Government workers Nation-wide and overseas. I would also point 
out significantly that Mr. Cox is from the 8th District of 
North Carolina, from Kannapolis originally, so he is my 
constituent. So I always want to make note of that.
    I thank all the witnesses for being here today. The 
witnesses' full written statements will appear in the record. 
The Chairman recognizes Administrator Pistole to testify first.

       STATEMENT OF HON. JOHN S. PISTOLE, ADMINISTRATOR, 
  TRANSPORTATION SECURITY ADMINISTRATION, ARLINGTON, VIRGINIA

    Mr. Pistole. Well, thank you, Chairman Hudson and Chairman 
McCaul, Ranking Member Thompson, Ranking Member Jackson Lee, 
Congresswomen Waters and Brownley, for holding this field 
hearing today on this important topic. I appreciate the 
opportunity to appear before you with these other distinguished 
witnesses.
    The events of November 1 demonstrated the bravery of our 
front-line workforce as well as their commitment to TSA's 
mission of protecting that Nation's transportation system. In 
the immediate aftermath of the incident, TSA took a number of 
actions which I would like to outline in my oral statement, 
including assembling a crisis action team to advise me and to 
ensure communication and engagement with the workforce and 
stakeholders regarding the event.
    I called for a comprehensive review of TSA policies, 
procedures, and training to identify improvements to the safety 
and security for TSA employees, and, by extension, the 
traveling public after meeting with the family of Officer 
Hernandez. Thank you for recognizing Ana and for recognizing 
Officers Grigsby and Speer. The day after the shooting I met 
with them.
    I then had our senior leadership team to take the following 
steps. First, we communicated with our workforce with what we 
knew and then with frequent updates. Second, I convened a 
meeting of external stakeholders where I requested inputs for 
actions the agency could take or consider to improve officer 
safety and security. Third, I directed an internal team to 
assess options and to make recommendations. Fourth, I 
redirected a number of our visible intermodal protection and 
response, or VIPR, teams from their surface transportation 
missions to LAX and other high-profile airports to serve as a 
deterrent to a shooter.
    From these reviews and assessments, we received hundreds of 
ideas and have implemented over a dozen of them. Now, employees 
from all levels of TSA contributed ideas through what we call 
our Idea Factory and in over 100 town halls that I and other 
senior leadership team members have convened. We continue to 
welcome stakeholder and workforce feedback as we remain engaged 
in advancing further recommendations.
    In that regard, I want to recognize the immediate and on-
going engagement our senior leadership team here at LAX, headed 
by Federal Security Director Darby LaJoye and his team, has had 
with our over 2,100 employees here at LAX, obviously the 
largest contingent of TSA employees of any airport in the 
country. Thank every TSA employee, particularly here at LAX in 
Terminal 3, for their resiliency and their dedication to the 
mission. I also want to thank LAWA, particularly Executive 
Director Gina Marie Lindsey, and to the LAWA police and Chief 
Pat Gannon for their strong partnership prior to November 1 and 
since that day.
    The LAX shooting raised a number of issues about the 
training we provide to our TSA employees, and while they have 
received a number of types of training, active-shooter scenario 
training was not a primary focus. Since November 1, I have 
mandated all TSA employees receive this training. I am pleased 
to report that over 98 percent of our over 60,000 employees 
have completed this training.
    In support of further efforts to reinforce emergency 
procedures, we have incorporated a reminder in our shift briefs 
regarding evacuation routes and rendezvous points identified in 
the local mitigation plan. As part of our review, we studied 
how officers notify law enforcement of an emergency most 
effectively and determined that we need to do two things: No. 
1, regularly test existing alarms, and, No. 2, acquire and 
install many more alarms in airports around the country. 
Interoperability of communications between TSA and, in fact, 
most Federal agencies and State and local authorities continues 
to be a challenge Nation-wide, but some progress is being made.
    We also directed Federal security directors to ensure all 
TSA-owned wireless devices are pre-programmed with their local 
emergency numbers and provide employees with their numbers to 
allow them to voluntarily program them into their personal 
devices. In addition, as a best practice, we are recommending 
airports link duress alarms and CCTV systems to ensure that 
when a duress alarm is received, a pre-determined set of CCTV 
views would be programmed to automatically focus on the 
location of the alarm.
    After carefully studying the presence of law enforcement at 
checkpoints with extensive input from stakeholders, TSA is also 
taking the following actions, including incorporating maximum 
response times in their airport security programs and then 
recommending standards for an increased law enforcement 
presence at high airport locations, such as peak travel times 
at checkpoints and ticket counters to provide a visible 
deterrent and quicker response times.
    In conclusion, the senseless shooting of Officer Hernandez 
and three others once again reminds us of the dangerous world 
in which we live. The shooting has served as a catalyst for TSA 
to assess its existing safety and security policies, 
technologies, and partnerships. We know there is no 100 percent 
guarantee in preventing terrorists and others from doing bad 
things, yet we believe based on the extensive input we have 
received, the actions I have outlined today provide a measured 
approach to mitigate risk without trying to eliminate it.
    Thank you for the opportunity to testify today.
    [The prepared statement of Mr. Pistole follows:]
                 Prepared Statement of John S. Pistole
                             March 28, 2014
    Good afternoon Chairman Hudson, Ranking Member Richmond, and other 
Members of the committee. I appreciate the opportunity to appear before 
you today.
    On November 1, 2013, Gerardo Hernandez, a 39-year-old 
Transportation Security Officer (TSO), was shot and killed while 
stationed at a Los Angeles International Airport (LAX) Transportation 
Security Administration (TSA) checkpoint. Officer Hernandez had worked 
for TSA since 2010 and was a well-liked and respected employee. He 
leaves behind a wife and two children.
    Behavior Detection Officer (BDO) Tony Grigsby, Security Training 
Instructor (STI) James Speer, and a passenger were also wounded in the 
shooting. Both BDO Grigsby and STI Speer stayed at the checkpoint to 
assist an elderly passenger, placing themselves in harm's way.
    The events of November 1 demonstrated the bravery of our front-line 
workforce as well as their commitment to TSA's mission of protecting 
the Nation's transportation systems in order to ensure freedom of 
movement for people and commerce. The incident also highlighted the 
excellence of our security partners. We are thankful for the 
exceptional work of the Los Angeles World Airports Police Department, 
whose officers quickly responded to the scene and apprehended the 
alleged shooter. We are also thankful for our partners at the Federal 
Bureau of Investigation and the U.S. Attorney's Office, who continue to 
investigate and prosecute the crime, and for the continued support from 
this committee and others for Officer Hernandez's loved ones, his 
fellow officers at LAX, and our agency as a whole.
    In the immediate aftermath of the incident, I took a number of 
actions, including assembling a crisis action team to advise me and to 
ensure appropriate communication with the work force regarding the 
event. We sent a situational report to all employees the day of the 
shooting advising them of the details known at the time. TSA increased 
the visibility of uniformed officers in and around checkpoints by 
deploying Visible Intermodal Prevention and Response (VIPR) teams to 
the aviation sector and by ensuring that State and local airport law 
enforcement agencies provided an enhanced deployment of uniformed 
officers in and around checkpoints.
    I also called for a comprehensive review of TSA policies, 
procedures, and training to identify possible improvements to safety 
and security for TSA employees serving to protect the public at our 
Nation's airports. TSA convened a team of subject-matter experts from 
across the agency, and we engaged stakeholders and our workforce to 
elicit recommendations and feedback. I would like to summarize our 
stakeholder and workforce outreach, and then outline the results of the 
review in the following areas: (1) Training, communications, and 
employee support; (2) emergency response equipment and technology; and 
(3) law enforcement officer (LEO) presence at and response to 
checkpoints.
                  stakeholder and workforce engagement
    After meeting with the family of Officer Hernandez and our two 
wounded officers the day after the shooting, one of my first actions 
was to convene stakeholder meetings at TSA Headquarters on November 7, 
2013 and January 8, 2014, which included representatives from law 
enforcement agencies and associations, labor groups and industry 
associations, and other Federal, State, and local agencies. At these 
meetings, I requested recommendations for actions the agency could take 
as well as initial feedback on various ideas under consideration. TSA 
afforded stakeholders an additional opportunity to provide feedback 
through written comments to be provided within 30 days of the second 
meeting. I considered these comments in my decision-making process and 
development of supplemental proposals.
    I likewise sought the input of TSA employees, through both town 
hall meetings and the Idea Factory.\1\ I have also communicated 
regularly with the workforce on the status of the security review via 
written and video messages as well as shift briefs, emphasizing that 
every possible effort to ensure officer safety is being considered and 
implemented, if feasible and appropriate, and encouraging workforce 
input. Employees from all levels of the organization contributed ideas, 
including Federal Security Directors (FSDs), TSOs, staff from Training 
and Coordination Centers, security inspectors, and Headquarters 
employees. The ideas generated by employees were presented to 
leadership and a number of them were endorsed. TSA continues to welcome 
stakeholder and workforce feedback as we remain engaged in advancing 
further recommendations.
---------------------------------------------------------------------------
    \1\ The Idea Factory is a web-based tool designed to enable 
innovation and collaboration within the agency by soliciting employee 
feedback on TSA policies. The Idea Factory has led to the 
implementation of more than 40 innovative ideas, including changes to 
Standard Operating Procedures and new initiatives that have improved 
job satisfaction, increased retention, and improved the quality of work 
life. To date, there are almost 9,000 ideas on the site and more than 
25,000 employees have visited the site.
---------------------------------------------------------------------------
             training, communications, and employee support
    The incident at LAX has raised concerns about the adequacy of 
training for TSA employees responding to an active-shooter scenario. 
Employees at TSA regularly receive an array of security and educational 
training activities. However, historically, active-shooting scenario 
training was not a primary focus, but was available to employees 
through two optional on-line courses. As recommended through the Idea 
Factory, TSA mandated this training on December 19, 2013, with a 
required completion date for all employees of March 31, 2014.
    Industry stakeholders further emphasized the importance of active-
shooter training and exercises through feedback provided at the 
stakeholder meetings. In addition to the training course, TSA has 
mandated active-shooter exercises for all TSA employees on at least an 
annual basis. As a further enhancement, TSA established a working group 
to develop a facilitator guide that will assist field Assistant FSDs 
for Law Enforcement in providing best practices and templates for local 
airport active-shooter exercises.
    Feedback from law enforcement and industry stakeholders also 
emphasized the importance of training and preparation to minimize 
casualties and help direct law enforcement to the active shooter.
    TSA requires each airport to develop and implement an active-
shooter tactical response plan consistent with our National standard, 
which includes the designation of possible evacuation routes and 
establishment of rendezvous points. Following the shooting, we 
conducted a review of Active Shooter Mitigation Plans to ensure that 
all airports have active-shooter plans in place and that such plans are 
in compliance with a National model. We also swiftly reviewed the LAX 
plan and confirmed compliance with the National format.
    Based on feedback from law enforcement and industry stakeholders, 
TSA is recommending that airport operators conduct active-shooter 
training and exercises on a bi-annual basis to minimize casualties and 
help direct law enforcement to the active shooter.\2\ TSA also issued 
an Operations Directive requiring that all FSDs conduct mandatory 
evacuation drills twice a year. This Directive supplements the 
information shared by shift supervisors regarding evacuation procedures 
and ensures employees are trained on the active-shooter plan in place 
at their local airport.
---------------------------------------------------------------------------
    \2\ LAX had recently conducted an active-shooter exercise under 
their plan prior to the shooting.
---------------------------------------------------------------------------
    In support of further efforts to reinforce emergency procedures, we 
have incorporated a reminder in our weekly shift brief requiring 
supervisors to conduct briefings for employees regarding the evacuation 
routes and rendezvous points identified in the local mitigation plan. 
As such, supervisors brief all personnel at the beginning of each shift 
regarding the evacuation plan, emergency exits, and alarm protocol for 
their particular location.
    Finally, TSA is exploring options to provide the family of TSO 
Hernandez with additional benefits.
              emergency response equipment and technology
    As part of our review, TSA studied how officers can notify law 
enforcement of an emergency at a checkpoint most effectively.\3\ The 
security review determined that technological improvements to alert 
notification systems are needed in many airports to ensure that duress 
alarms are present at all screening locations, including at terminal 
lobbies. TSA conducted a survey of screening and other locations 
including X-ray lanes, private screening rooms, supervisor podiums, 
Known Crew Member lanes, exit lanes, and Explosive Detection System 
baggage screening areas in non-sterile spaces, which showed that 
several of these locations do not have alert notification capability.
---------------------------------------------------------------------------
    \3\ The primary means for providing notification of an emergency is 
via duress alarms.
---------------------------------------------------------------------------
    To close the gap identified by the survey, I approved the 
acquisition of additional alert notification capacity. TSA has begun 
the process of acquiring duress alarms for all airports. In addition, 
we will solicit and award delivery orders to a third-party systems 
integrator for the installation of duress alarms at all remaining 
airports, which will begin shortly after we award the contract.
    Although not all airports have extensive alert notification 
capabilities, for those airports that do, we conducted a survey of all 
existing duress alarms to determine if they were fully functional. 
Ninety-eight percent of the alarms were deemed fully functional, and we 
took corrective action to fix the remaining alarms. We then issued an 
Operations Directive requiring TSA employees to conduct a weekly test 
in coordination with airports to verify all alert notification systems 
are fully functional.
    We have also adopted guidance for FSDs to ensure all TSA-owned 
wireless devices are programmed with local airport emergency numbers 
and to provide employees with those numbers to allow them to 
voluntarily program them into personal devices. This guidance is in 
direct response to learning that calls made to 9-1-1 at airports in the 
event of an emergency may not be routed to the on-site police 
department.
    In addition, we are engaging airports to encourage linkage between 
duress alarms and closed-circuit television (CCTV) systems to ensure 
that when a duress alarm is received, a predetermined set of CCTV views 
would be programmed to automatically focus on the location of the 
alarm. Creating these linkages should greatly enhance the ability of 
the airport operator to have a real-time view of the area where a 
duress alarm is activated.
    law enforcement officer presence at and response to checkpoints
    After carefully studying the presence of law enforcement officers 
at checkpoints, TSA is taking the following actions, which reflect our 
intent to enhance the visibility of law enforcement while recognizing 
the financial burden that additional resource requirements would place 
upon our law enforcement partners, many of whom have faced budget cuts 
in recent years. We have valued the input of our workforce and the 
expertise of our stakeholders in determining an appropriate balance 
that enhances officer safety and security without mandating 
requirements that could affect our partners' ability to provide 
effective law enforcement throughout each airport.
    First, we are requiring all airports to incorporate maximum 
response times in their Airport Security Programs (ASPs). TSA will work 
with airports to determine the most appropriate maximum response time 
for their ASP. TSA conducted a review of all ASPs and concluded that 
while most airports were operating under ASPs which specified a maximum 
response time to checkpoints, 71 airports operating under flexible 
response agreements did not have any required response time stated in 
their ASP. We also identified differences in maximum response times 
resulting from discretionary determinations of need made at the local 
level. Although we considered imposing standardized maximum response 
times by category, we recognize the importance of allowing discretion 
in these determinations and are therefore not currently pursuing 
standardized maximum response times. Nonetheless, ensuring that all 
airports adopt clearly articulated maximum response times in their ASP 
is a priority, and our FSDs are working with airports to update their 
ASPs where necessary. Once updates are complete, TSA will monitor and 
enforce compliance with the new policy. These changes will address the 
gap identified in the agency's review while allowing local airport 
security directors flexibility in working with their airport operators.
    Second, I have directed TSA's VIPR teams to continue the surge in 
operations at passenger screening checkpoints to provide a visible 
deterrent in support of our TSOs. VIPR teams are authorized under 
statute to augment the security of any mode of transportation at any 
location within the United States and are typically composed of 
Federal, State, and local law enforcement and security assets and TSA 
personnel including Federal Air Marshals, Behavior Detection Officers, 
Transportation Security Officers, Transportation Security Specialists-
Explosives, Transportation Security Inspectors, and TSA-certified 
explosives detection canine teams.\4\ In the immediate aftermath of the 
incident, we deployed additional VIPR teams to airport checkpoints, 
reflecting our flexibility to rapidly redirect and deploy VIPR 
capabilities in response to changes in the threat profile. To 
accomplish this surge, VIPR deployments have been evenly split between 
surface and aviation transportation modes from their previous 
allocation of 70 percent in surface modes and 30 percent in aviation. 
This VIPR deployment strategy has garnered support among the TSA 
workforce and we will continue this shift to enhance VIPR presence at 
airports, subject to adjustments based on intelligence or special 
requirements.
---------------------------------------------------------------------------
    \4\ See the Implementing Recommendations of the 9/11 Commission Act 
of 2007, Pub. L. 110-53.
---------------------------------------------------------------------------
    Lastly, TSA is issuing recommended standards for increased law 
enforcement presence at high-traffic airport locations such as peak 
travel times at checkpoints and ticket counters to provide visible 
deterrence and quicker incident response times. By implementing these 
standards, airports would retain some flexibility for law enforcement 
response while providing enhanced law enforcement presence during peak 
travel times. We are strongly encouraging airports to adopt these 
measures and will work with all airports toward implementation. All 
airport operators remain obligated to comply with existing ASP, 
statutory, and regulatory requirements to provide a law enforcement 
response adequate to ensure the safety of passengers. In situations 
where there is an imminent threat, law enforcement must therefore 
respond accordingly. TSA also advised airport operators that we will 
ensure our employees utilize duress alarms only when they perceive 
imminent danger, with the expectation that airport security personnel 
will respond accordingly.
                               conclusion
    The tragic shooting of Officer Hernandez and injuries suffered by 
two other TSA employees and a passenger on November 1, 2013, were an 
extraordinary shock to the TSA community and the public. It remains 
difficult to comprehend the sudden loss of a dedicated public servant 
who was simply doing his job in support of the agency's transportation 
security mission. The actions we have undertaken thus far are aimed at 
seeking to prevent, to the greatest extent possible, a recurrence of 
this tragedy, while recognizing that the next attack may take a 
different form. In the wake of the LAX incident, we were given an 
opportunity to identify a better way forward in partnership with 
industry and law enforcement stakeholders and continued engagement with 
the workforce. We remain committed to delivering meaningful 
improvements to officer safety and security and to working 
collaboratively with our partners in this effort. Thank you for the 
opportunity to testify today. I will be happy to answer your questions.

    Mr. Hudson. Thank you, Administrator Pistole.
    The Chairman recognizes Chief Gannon now to testify.

 STATEMENT OF PATRICK M. GANNON, CHIEF OF AIRPORT POLICE, LOS 
        ANGELES WORLD AIRPORTS, LOS ANGELES, CALIFORNIA

    Chief Gannon. Mr. Chairman, Ranking Member Thompson, and 
Members of the committee, welcome to Los Angeles International 
Airport. I am Patrick Gannon, deputy executive director at Los 
Angeles World Airport for Law Enforcement and Homeland Security 
and chief of the Los Angeles Airport Police. Airport police is 
the primary law enforcement agency for Los Angeles World 
Airport with a staff of 1,100, of which approximately 525 are 
sworn, approximately 400 are security officers, and the rest 
are professional support staff.
    The Los Angeles Airport police is committed to on-going 
training. In fact, an active-shooting exercise was held 3 weeks 
prior to the November 1 shooting. During this 2-day training 
exercise, we trained over 350 airport police officers, Los 
Angeles police officers, and Los Angeles city firefighters to 
respond to an active shooter in an airport environment. We 
conducted this training in an old terminal at one of our 
airports. This training proved to be very helpful as we faced a 
gun-wielding man at Terminal 3.
    As you know, on November 1, 2013, the alleged shooter, Paul 
Ciancia, entered Terminal 3 on the departure level near a 
ticket counter. He walked to a nearby queuing line at the foot 
of an escalator leading up to the security checkpoint and gate 
area. At the bottom of the escalator was a TSA podium staffed 
by TSA Officer Gerardo Hernandez.
    At 9:20 a.m., Ciancia removed an assault rifle from his 
luggage and shot Officer Hernandez multiple times. He went up 
the escalator just a few steps, but then turned and came back 
down and shot Officer Hernandez once again. As the initial 
shots were fired, passengers ducked for cover. Within seconds, 
TSA Officers at the upper level checkpoint urged passengers to 
move away from where the shots were being fired. A number of 
TSA Officers acted heroically and put themselves in jeopardy to 
make sure passengers got out of the line of fire. I would like 
to specifically recognize TSA Officers Tony Grigsby and James 
Speer for their heroic and selfless actions as they put 
themselves in harm's way to protect passengers who were slow to 
exit the area.
    Ten seconds after the first shots were fired, a call came 
into airport police dispatch. The call was made by a TSA 
supervisor who was forced to run from the area and was unable 
to provide information about the shooting. Shortly thereafter, 
an airline contract service employee who was near Officer 
Hernandez used his cellular telephone to call airport police. 
Within a minute or so, airport police had a full description of 
the shooter and responded as quickly as possible.
    Following the initial shooting, Ciancia went up the 
escalator through the evacuated TSA screening area and into the 
terminal concourse apparently looking for other TSA Officers. 
Once again, he fired his assault-type weapon as people scurried 
for cover. This is approximately the point where he shot and 
wounded TSA Officers Grigsby and Speer and one additional 
passenger.
    Airport police officers quickly converged on Terminal 3 
from many different directions. As the officers arrived, they 
were directed towards Ciancia by a number of people in the 
terminal. The officers eventually confronted Ciancia in the 
terminal near gate 35 where an officer-involved shooting took 
place. Ciancia was stopped and taken into custody.
    The shooting of Officer Hernandez took place at 
approximately 9:20 a.m. One minute and 22 seconds later, our 
airport police dispatch center broadcasted the ``shots fired'' 
call in Terminal 3. At 9:25 a.m., airport police officers 
reported that the suspect was down near gate 35. Four minutes 
and eight seconds elapsed from the time that the news of the 
shooting was broadcast by our dispatch center until the time 
our officers reported the shooter was down in the terminal and 
in custody.
    There has been speculation that this event may have been 
prevented if an airport police officer was posted at the TSA 
screening checkpoint in Terminal 3. The facts are that a 
podium-based officer at the checkpoint would not have prevented 
this murder. Due to the layout of the checkpoint, the officer 
would not have been in a position to keep Ciancia from 
attacking Officer Hernandez. In certain circumstances I believe 
that a podium-based officer would be more vulnerable in a 
carefully-planned attack.
    Law enforcement has made considerable changes in the way it 
responds to active-shooter incidents. At Columbine High School, 
it was 46 minutes before law enforcement was able to make entry 
into that school. To respond and neutralize Ciancia within 4 
minutes and 8 seconds from the first call to when we had the 
shooter in custody, in my estimation, is remarkable. Even so, 
we continually look for ways to improve our response time. Even 
though we work each day to prevent violent acts at LAX, we can 
never guarantee that this will always happen. What we have 
learned from this incident is that when a violent attack 
occurs, speed and quickness, coupled with superior tactics, 
will be the key to saving lives.
    Thank you very much.
    [The joint prepared statement of Chief Gannon and Ms. 
Lindsey follows:]
   Joint Prepared Statement of Patrick Gannon and Gina Marie Lindsey
                             March 28, 2014
    Mr. Chairman, Ranking Member Thompson, and Members of the 
committee, welcome to Los Angeles International Airport. We appreciate 
your commitment and concern that we all share in ensuring that this 
airport is as safe and secure as we can make it.
    Los Angeles International Airport (LAX) is the largest origin and 
destination airport in the United States, serving 66.7 million 
passengers in its 9 passenger terminals. LAX has 95 passenger and cargo 
airlines that conducted 615,000 aircraft operations in 2013. LAX 
accommodated 70,000 vehicle trips per day and has 54,000 badged 
employees.
    November 1, 2013, was like any other busy Friday morning in 
Terminal 3 at LAX, until an act of violence by a lone gunman set off a 
sequence of events that would result in the murder of Transportation 
Security Officer Gerardo Hernandez and the wounding of two other TSA 
Officers and one passenger. Airport police quickly apprehended the 
suspect, but there was a significant travel disruption for tens of 
thousands of passengers. The airport returned to full normal operations 
approximately 30 hours later.
    In the past several months, Los Angeles World Airports (LAWA) has 
reviewed in detail every aspect of this incident at great length and 
presented a comprehensive after-action report to Mayor Eric Garcetti 
and the Los Angeles Board of Airport Commissioners with several key 
findings. This report is available for public review on the LAWA 
website. Immediate tactical response by airport police was swift, 
heroic, and well-executed. Collaboration with and support from response 
partners was effective. While the terminal and roadway recovery may 
have advanced faster, this had to be phased with the security need to 
clear all parts of the LAX campus (all nine terminals and eight parking 
garages) before attempting to reinstate operational recovery. Terminal 
3 was rapidly repaired and returned to service after the FBI released 
it Saturday morning, even while the investigation continued. Finally, 
LAX emergency management programs are maturing, and a number of areas 
for improvement were identified.
    In particular, the most significant challenges on November 1 
centered around mass notification and public communications, terminal 
evacuation and interim sheltering, customer care, and ability to 
mobilize the entire airport community in the response. LAX has already 
implemented a number of specific recommendations in the report and will 
be implementing others in the coming months.
  law enforcement and homeland security at los angeles international 
                                airport
    The primary law enforcement agency at LAX is the Los Angeles 
Airport Police. The antecedents of this organization go back to 
security officers first hired by the airport 64 years ago and became a 
full-fledged law enforcement agency in 1984. Airport police have a 
staff of 1,100, of which 525 are sworn, 400 are security officers, and 
the rest are professional administrative and support staff.
    Airport police officers have trained at various law enforcement 
academies since 1990 and have been using the Los Angeles Police Academy 
exclusively since 2006. Since 2006 we have had 200 officers graduate 
from the academy, many of them graduating with honors and leadership 
positions in their recruit classes. Airport police train alongside 
recruits for the Los Angeles Police Department and the Los Angeles Port 
Police. They receive the same training and learn about the same 
policies as the other two law enforcement agencies in the city. This 
ensures that the city is consistent in how it trains it officers and 
improves the interaction between these three law enforcement agencies.
    Airport police also participates in on-going training with agencies 
throughout the region. One of our largest joint training exercises was 
an active-shooter exercise held on the weekend of October 5 and 6 in 
2013. We worked 6 months to develop what we considered to be a 
realistic training exercise that would rival a real-world situation in 
an airport environment. We trained over 350 Airport Police Officers, 
Los Angeles Police Officers, and Los Angeles Firefighters in an 
environment which is very different from the other scenes of active-
shooter incidents such as the Aurora, Colorado movie theater shooting, 
Sandy Hook Elementary School, and the Washington Naval Yard shooting. 
We worked on numerous scenarios involving an active shooter in an 
effort to test and improve out tactics and to decrease our response 
time to such incidents.
    LAX is a unique environment from any other in the city of Los 
Angeles and it presents special challenges to law enforcement and 
security. In addition to maintaining a highly-visible presence through 
foot patrols and beats, airport police embrace a layered approach to 
security with an emphasis on strong partnerships, intelligence 
gathering, patrol missions/strategies, and plainclothes details. Daily 
enforcement strategies are aimed at hardening LAX as a target for 
terrorism as well as other crimes that occur in an urban environment. 
The goal of all officers in whatever assignment they work is to deter 
and stop criminal and terrorist acts. Unfortunately as airport police 
and other law enforcement agencies have discovered, you cannot always 
deter an attack by someone committed to an act of destruction such as 
the gunman we had here on November 1, 2013.
    Since 1968, there have been 817 terror incidents involving airports 
and airlines, over 50 in the United States. Nine of these were specific 
to United States airports of which 7 have targeted LAX. One of our 
concerns when we were pulling together our October training exercise 
was the shift from a Mumbai-type of incident with multiple attacks 
spread out through a metropolitan area to the most prevalent type of 
active-shooter incident experienced in the United States--the lone-wolf 
shooting. This involves a single individual with some sort of 
destructive intention who takes out their anger on a particular 
setting, be it a movie theater, elementary school, or other public 
place.
    We had to ask ourselves how we would handle such a situation in an 
airport environment. How would we respond most quickly and effectively 
once the shooting has started and stop it as soon as possible? We 
always have to look at a wide variety of risks at the airport, but we 
decided last year this was the type of risk for which we needed to 
prepare.
                            november 1, 2013
    The terminals at LAX are arranged in a counter-clockwise loop 
starting with Terminals 1, 2, and 3. At the far end of the loop is the 
Tom Bradley International Terminal. The Central Terminal Area then 
continues with Terminals 4, 5, 6, 7, and 8 at the bottom of the loop. 
Each terminal has three levels. The lower level is the arrival level 
where passengers pick up their bags and exit from the terminal upon 
deplaning from their flights. The second level is the ``departure'' 
level where passengers are normally dropped off in front of the 
terminals and then go inside for ticketing and bag check-in. The third 
level is where the airline gates are located in the ``secured area'' 
behind TSA screening checkpoints.
    On November 1, 2013, Mr. Paul Ciancia came to LAX in a vehicle 
driven by a friend and was dropped off on the ``upper'' or departure 
level of the airport as would a typical departing passenger. Mr. 
Ciancia walked through the door near the Virgin America ticketing 
counter at approximately 9:18 A.M. and proceeded to enter the queuing 
line for a TSA boarding pass check point, which was on the departure 
level at the foot of an escalator leading up to the security and gate 
area. Mr. Ciancia was dressed as a typical traveler. He had a roller 
bag with a second bag attached to the top of it, typical of the kind of 
bags people bring to airports and stow on the aircraft.
    At the end of the queuing line, at the bottom of the escalator, was 
a TSA podium staffed by TSA Officer Gerardo Hernandez. Mr. Hernandez 
was performing document checks for TSA, checking passengers for their 
ID and boarding passes. Officer Hernandez by all accounts was a jovial 
individual who enjoyed his experience as a TSA Officer, friendly to the 
passengers he was screening. From the video of the incident, we know he 
was talking to passengers he had just screened when the shooting 
occurred.
    At 9:20 A.M., Mr. Ciancia removed an assault rifle from his bag and 
shot Officer Hernandez from the back. He went up the escalator just a 
few steps but then came back down and shot Officer Hernandez multiple 
times once again.
    As the shots were fired, panic and chaos set in as expected, but 
very quickly the TSA Officers at the upper-level checkpoint and 
passengers began to evacuate people away from where the shots were 
being fired. Video of the incident shows heroic acts by TSA Officers 
who put themselves and their safety at jeopardy to make sure their 
passengers got out of the line of fire. The initial reaction to the 
shooting was people going to the floor. That was for just a moment 
before you can hear TSA Officers beginning to direct people in the 
correct direction, away from the shooting.
    Shortly after the incident occurred, the first call came into 
airport police dispatch. The first call was made from a dedicated line 
at the TSA checkpoint that went straight to the airport police dispatch 
center. The TSA supervisor tried to place a call but had to leave the 
area without being able to provide any additional information. An 
airline contract service employee near Officer Hernandez used his 
cellular telephone to call airport police. Within a minute or so, 
airport police had a full description of the incident so our officers 
could respond to the area as quickly as possible.
    Following the shooting Mr. Ciancia went up the escalator, through 
the evacuated TSA passenger screening checkpoint, and into the 
concourse looking for other TSA Officers. He shot and wounded two other 
TSA Officers and one civilian.
    In this time, airport police officers converged on Terminal 3 from 
many different directions. As the officers arrived, they were directed 
towards Mr. Ciancia by civilians in the terminal. The officers 
confronted Mr. Ciancia toward the end of the terminal near Gate 35 
where an officer-involved shooting took place. Mr. Ciancia was stopped 
at that moment and he was taken into custody.
    The shooting of Officer Hernandez took place at approximately 9:20 
A.M. At 9:21 A.M., our airport police dispatch center broadcast a 
``shots fired'' call for Terminal 3. At 9:25 A.M., Los Angeles Airport 
police officers reported the suspect was ``down'' at Gate 35. 4 minutes 
and 8 seconds elapsed from the time that news of the shooting was 
broadcast by our dispatch center to the time that our officers reported 
the shooter was ``down'' in the terminal. The actual elapsed time was 
actually shorter, considering that it took some time to safely approach 
the suspect, handcuff him, and for officers to render Ciancia's weapon 
safe.
    The impact of the law enforcement action on flight operations and 
the passengers at LAX was significant. Of the 1,550 flights scheduled 
for that day, airlines canceled 252 flights and diverted 86 flights to 
other airports, while 74 flights were delayed. Sixteen arriving flights 
were held on board for longer than 30 minutes, as gates were not 
available after ramp workers evacuated. With LAX effectively shut down, 
though, there were ripple effects throughout the air transportation 
system, with an estimated 1,500 flights impacted. As stated above, LAX, 
including Terminal 3, returned to full operations on November 2, 
approximately 30 hours after the shooting.
    At the time of the shooting, approximately 23,000 passengers were 
at the airport. Many in Terminals 1, 2, and 3 self-evacuated, while 
those in other terminals and on aircraft were sheltered in place. 
Approximately 3,500 passengers in Terminals 1, 2, and 3 evacuated to 
the airfield during the incident and were then bused to appropriate 
facilities. While some passengers left the airport area, others who 
were expecting to depart continued to arrive at the airport, adding to 
the congestion and traffic gridlock.
    LAX staff established 12 evacuation and shelter sites, and 
distributed 16,000 bottles of water. The Los Angeles County Mental 
Health Department, the Los Angeles City Department on Disabilities, and 
the Red Cross assisted with passenger accommodations. LAWA also made 
extensive use of the news media and social media website to communicate 
information to the traveling public.
                                analysis
    In an incident such as this, the most important factor is speed, 
how quickly first responders can get to the incident. The first 
responsibility for police officers is to stop the shooter. The 
responsibility of the EMS/Fire Department is to rescue victims as fast 
as they can. In this case, the speed with which airport police were 
able to stop this suspect and keep him from finding other TSA Officers 
to shoot was very, very fast. We do not, however ``rest on our 
laurels.'' Our intent, and what we are always trying to do, is to find 
how we could do better.
    The suspect was stopped due to the bravery of the officers that 
went into that terminal knowing there was an active shooter with some 
sort of an assault weapon, the superior tactics they used, and the 
speed with which they responded. Some have suggested that events may 
have transpired differently had there been a police officer posted at 
the checkpoint. When one officer is facing a suspect with an assault 
rifle, there is no guarantee of success--take on someone with an 
assault weapon one on one, you may lose more times than you win. 
Success is much more likely when officers come together as a team in a 
tactical formation to attack the problem, because the threat posed by 
the suspect or suspects is met with an equal amount of threat. Even 
though the officers who responded to the call did not have police 
rifles or semi-automatic weapons, their tactics and their proficiency 
in the way they worked together to flank the suspect and confuse him 
led to taking this suspect into custody. The key is to employ 
outstanding tactics and speed and coordination by several officers 
working as a team.
    Officer Hernandez, the first TSA Officer killed in the line of 
duty, made the ultimate sacrifice while working to protect his fellow 
citizens from violence aimed at the traveling public. In addition, 
there are other victims to remember. Brian Ludmer was a 29-year-old 
school teacher from Illinois who was shot and sustained a serious leg 
injury while standing near some TSA Officers. Two other victims are TSA 
Officers James Speer and Tony Grigsby, who deserve more credit than 
they received at the time of the incident for their bravery. There was 
an elderly citizen at the checkpoint who froze when the when the 
shooting occurred. For some reason, he did not react as fast as the 
others. In spite of the shooting, the two TSA Officers stayed in order 
to make sure that this individual got out safely. As they lagged behind 
trying to get him to safety, one was shot in the chest and the other 
one in the foot. Officers Speer and Grigsby are true heroes of this 
incident, having put themselves in jeopardy because it was the right 
thing to do.
    Even though the shooter was in custody, communications, traffic 
control, and tactical operations were still complicated. We did not 
know if there were other shooters. We did not know if there was a 
vehicle with a bomb or a secondary device placed in the airport area. 
LAX handles about 100,000 passengers leaving each day and another 
100,000 passengers arriving and 70,000 cars that go through in the 
central terminal area, and it is a massive undertaking to make sure 
that we keep people safe. It was necessary to shut down operations and 
we could only re-open when we were certain we were not putting anyone 
in harm's way.
    Another key success was the interagency teamwork. Multiple law 
enforcement agencies responded to this incident, not only the Los 
Angeles Police Department which had a number of officers located here. 
The Los Angeles County Sheriff's Department, the California Highway 
Patrol, and police departments of the cities of El Segundo and 
Hawthorne all responded, along with the Los Angeles City Fire 
Department. Teamwork and coordination worked, as did our incident 
command. It was at times chaotic and challenging, but there are lessons 
that will be learned from this as we look forward and see how to 
improve. Everyone that was there that day was there for the same 
purpose--to keep the airport safe and open it as soon as possible.
    Los Angeles International Airport will work on ways to improve 
communications, to ensure that employees at the airport are able to 
reach airport police dispatch as easily and quickly as possible in case 
of emergency. We will look to working with our regional partners for 
technology that can improve radio interoperability.
    Airport police will continue to train with the Los Angeles Fire 
Department to deal with active-shooter and similar situations. The Los 
Angeles Fire Department has trained 200 of its officers who handle 
calls in the LAX area on tactical emergency medical services. They are 
now trained in how to respond to a ``warm zone'' area to treat patients 
effectively while at the same time being sure they do not put 
themselves into danger. We want to make sure they have force protection 
as they provide medical treatment and will put our officers through the 
same training.
    Law enforcement has made considerable changes in the way it 
responds to active-shooter incidents since Columbine High School in 
1999. At Columbine it was 46 minutes before law enforcement went into 
that school. To get our time down to 4 minutes and 8 seconds from the 
first call to when we had the shooter in custody is remarkable. Even 
so, we continually look for ways to improve our response, but instead 
of improving by 10-minute increments, we are now trying to save 
seconds. We are fine-tuning our procedures and tactics so we can save 
those seconds and lives.
    As described briefly above, at the direction of the Los Angeles 
Board of Airport Commissioners, LAWA conducted an exhaustive 3\1/2\-
month review of the November 1 shooting and has published a 
comprehensive after-action report detailing the response and recovery 
efforts. The report assesses what happened, what could have been 
prevented, what response efforts worked well, and what areas of 
emergency management need improvement. The report also includes an 
improvement plan based on the recommendation drawn from lessons learned 
during the incident. In preparing this 83-page report, LAWA took a 
detailed look at every aspect of the incident and challenged ourselves 
to be better prepared for any future attacks or other disasters at our 
airports. The report is available on the LAWA website.

    Mr. Hudson. Thank you, Chief Gannon.
    The Chairman recognizes Ms. Lindsey to testify.

   STATEMENT OF GINA MARIE LINDSEY, EXECUTIVE DIRECTOR, LOS 
        ANGELES WORLD AIRPORTS, LOS ANGELES, CALIFORNIA

    Ms. Lindsey. Chairman Hudson, Chairman McCaul, Members of 
the committee, thank you very much for coming to Los Angeles 
International Airport and being willing to discuss the events 
of November 1. LAX is the largest origin destination airport in 
the United States serving 66.7 million passengers through 9 
different terminals. We host 95 passenger and cargo airlines 
that conducted 615,000 operations in 2013.
    November 1 was like any other busy Friday morning at 
Terminal 3 until an act of violence by a lone gunman set off a 
sequence of events of which you have heard a great deal. The 
suspect came to LAX in a vehicle driven by a friend and was 
dropped off on the departure level of the airport, just like 
many departing passengers.
    Mr. Ciancia was dressed as a typical traveler with luggage 
typically brought to the airports by passengers. Even after he 
was in custody, communications, traffic control, and tactical 
operations remained quite complicated. Airport police and their 
partner agencies did not know if there were other shooters. 
They did not know if there was a vehicle with a bomb or a 
secondary device placed in the airport area.
    Now, LAX handles about 200,000 passengers per day in its 
central terminal area, and it is a massive undertaking to make 
sure we keep everyone safe. As soon as dispatch was notified of 
the shooting, all landside airport access was shut down. We 
could only reopen once we were certain we were not putting 
anyone in harm's way. However, simultaneously, we were still 
accepting arriving flights, so the number of passengers in the 
terminals and ultimately held on board on aircraft continued to 
grow.
    While airport police quickly apprehended the suspect, 
significant travel disruption resulted for tens of thousands of 
passengers. At the time of the shooting, our best estimates are 
that there were 23,000 passengers in the terminals at LAX. 
Approximately 3,500 people in Terminals 1, 2, and 3 escaped 
onto the airfield and were then bused to appropriate holding 
facilities. That is the plan we have in place, and on that day 
it worked.
    Other passengers and workers in Terminals 1, 2, and 3 ran 
out to the central terminal roadway. Those in other terminals 
and on aircraft were sheltered in place. While some passengers 
left LAX, others who were still expecting to depart on flights 
continued to arrive at the airport, adding to the congestion 
and the traffic gridlock outside the central terminal area.
    Of the 1,550 flights scheduled for LAX that day, 1,212 
actually operated, although 74 of those were delayed. Airlines 
cancelled 252 flights and diverted 86 flights to other 
airports. Sixteen arriving flights were held on-board for 
longer than 30 minutes since gates were not available once ramp 
workers evacuated. With LAX effectively shut down, there were 
ripple effects throughout the National air transportation 
system that impacted an estimated additional 1,500 flights. 
Remarkably, the airport returned to full normal operations 30 
hours after the shooting on November 2.
    LAX established 12 evacuation and shelter sites and 
distributed 16,000 bottles of water. Several partner agencies 
assisted with passenger accommodations. LAWA also made 
extensive use of the news media websites and social media to 
communicate what information we had to the traveling public.
    In the past several months, LAWA has reviewed in detail 
every aspect of this incident and presented a comprehensive 
after-action report to Mayor Eric Garcetti and the Board of 
Airport Commissioners with several key findings. In preparing 
this 83-page report, we challenged ourselves to be better 
prepared for any future attacks or other disasters at our 
airports. The report assesses what happened, what could have 
been prevented, what response efforts worked well, and what 
areas of emergency management need to be improved. This report 
is available on LAWA's website.
    The most significant challenges on November 1 centered on 
mass notification and public communication, interim sheltering, 
customer care given the duration of the event, and the ability 
to mobilize an entire airport community in the response. LAX 
has already implemented a number of specific recommendations in 
the report, and we will be implementing others in the coming 
months.
    The report also concludes that the immediate tactical 
response by airport police was swift, heroic, and well-
executed. Collaboration with and support from response partners 
was effective. Terminal 3 was rapidly repaired and returned to 
service.
    We thank you for your attention to this matter and look 
forward to answering any questions.
    Mr. Hudson. Thank you, Ms. Lindsey.
    The Chairman now recognizes Mr. Cox to testify.

 STATEMENT OF J. DAVID COX, SR., NATIONAL PRESIDENT, AMERICAN 
       FEDERATION OF GOVERNMENT EMPLOYEES, WASHINGTON, DC

    Mr. Cox. Thank you, Mr. Chairman and Members of the 
committee. Thank you very much for the opportunity to testify, 
and what an honor it is to testify before a majority of the 
committee that has a southern drawl just like me. So, that is a 
very large honor today.
    [Laughter.]
    Mr. Cox. First, I would like to extend our deepest 
condolences to the family of Officer Hernandez, and our best 
wishes for the full recovery of Officers Grigsby and Speer.
    Since the attack here in LAX last November, AFGE has sought 
to understand how this tragedy happened and how others like it 
can be prevented in the future. Unarmed, unprotected, and 
exposed, TSA Officers at Terminal 3 checkpoint were easy 
targets for a man with an irrational hatred of TSA and our 
officers. The results of our analysis are laid out fully in our 
written statement. But today I will focus on our 
recommendations for improved security going forward.
    AFGE strongly believes TSA should create an armed 
transportation security law enforcement officer, TSLEO 
position, assigned to protect TSOs and passengers at airport 
checkpoints and other key locations. Deployment of duly trained 
and certified TSLEOs would establish a consistent standard of 
protection. This is not a call for the arming of TSA Officers. 
Rather, our proposal would establish a new law enforcement unit 
within TSA.
    As we have heard since November 1, current airport law 
enforcement operations have gaps and inconsistencies that leave 
TSOs and passengers vulnerable. Many airports have no armed law 
enforcement officers stationed at or in the airport. Even where 
they do, different decisions about tactics, staffing, and 
deployment have left many checkpoints without an armed law 
enforcement officer stationed there to provide security for our 
unarmed TSOs and passengers.
    Placing one or more armed TSLEOs at every checkpoint and at 
every key airport location will provide security improvements, 
including: Integration of the law enforcement function into TSA 
operations, creation of a visible deterrent to those with 
criminal intent as well as those who subject TSOs to verbal and 
physical assault, and provisions for the quickest possible 
response when an attack occurs.
    In the interest of time, Mr. Chairman, I will simply list 
our additional recommendations. TSA should establish raised 
protected installations at each checkpoint with bullet-proof 
glass to allow armed officers to better observe the area, 
detect a problem before it escalates, and create a visible 
deterrent for those who might be planning an attack. TSA should 
continue to deploy TSOs the new armed TSLEOs to monitor exit 
lanes.
    TSA must ensure close coordination between airport and 
local first responders. The lack of coordination across such 
agencies at LAX on November 1 made a horrific situation even 
worse as emergency medical attention for our wounded officers 
was delayed. AFGE strongly encourages TSA to implement the 
recommendations in the November 2013 GAO report on scientific 
research and enhanced training to better identify threats to 
aviation security. We believe that that will increase the 
likelihood that a BDO will be at the right place at the right 
time to detect and deter a potential attacker, like the LAX 
shooter.
    Finally, TSA must immediately provide active-shooter 
training to TSOs relevant to each airport, which includes 
interagency drills with other first responders. AFGE also 
applauds Representative Julia Brownley for introducing the 
Honoring Our Fallen TSA Officers Act, which would grant TSOs 
public safety officer status. Honoring public servants killed 
in the line of duty recognizes that a very small portion of the 
population volunteers to be put in harm's way to protect their 
country. H.R. 4022 should receive enthusiastic bipartisan 
support.
    We look forward to the same bipartisan support for the 
proposals we have made today. This concludes my statement, and 
I will be happy to answer any questions.
    [The prepared statement of Mr. Cox follows:]
                Prepared Statement of J. David Cox, Sr.
                             March 28, 2014
    Chairman McCaul, Chairman Hudson, Ranking Member Thompson, and 
Representatives Waters and Brownley: My name is J. David Cox, Sr., and 
I am the national president of the American Federation of Government 
Employees, AFL-CIO (AFGE). On behalf of the more than 670,000 Federal 
employees represented by AFGE, including approximately 45,000 
Transportation Security Officers (TSOs) at our Nation's airports, I 
thank you for the opportunity to testify today.
                                summary
    On behalf of AFGE, I first want to extend our deepest condolences 
to the family of our late bargaining unit member, Officer Gerardo 
Hernandez. His loss is felt profoundly by his union brothers and 
sisters at LAX and throughout the entire TSO workforce. Indeed, the 
Federal civil servants AFGE represents are fully aware that Officer 
Hernandez and his family have made the greatest of all sacrifices. 
Likewise, AFGE reiterates our best wishes for a full recovery to 
Behavioral Detection Officer (BDO) Tony Grigsby, Officer James Speer, 
and passenger Brian Ludmer.
    TSOs are tasked with keeping America's airline passengers safe, but 
the officers are often powerless in the face of danger. All too often, 
TSOs are verbally and physically assaulted while performing their 
duties, but prior to 2013 a TSA Officer had never been killed in the 
line of duty. In the wake of the LAX shooting, the risk of assaults and 
mass casualty attacks resulting in the death or injury of our officers 
is now known all too well. The internet and traditional media sources 
are replete with commentary from people who express hatred and 
vilification aimed at TSA and our officers every day, sometimes in the 
most horrific terms. TSA also has records of employees being physically 
and verbally assaulted while on duty at checkpoints and elsewhere. The 
agency must act; this known workplace hazard must be addressed.
    Since the attack on the TSA checkpoint at Terminal 3 of LAX, AFGE 
has sought to understand how this tragedy happened and how it can be 
prevented in the future. Sadly, the circumstances on November 1 left 
Officer Hernandez with little chance for his life. TSOs working at the 
checkpoint had but a moment to literally run for their lives while 
warning others. The TSO workforce has expressed to our union their 
continued anxiety about their safety, and who could blame them? 
Although these concerns heavily weigh on their minds, TSOs across the 
country continue to report for work every day and carry out their 
duties of protecting the flying public to the very best of their 
abilities.
    But unarmed, unprotected, and exposed, TSA Officers at the Terminal 
3 checkpoint were easy targets for a man with an irrational hatred of 
TSA and specifically TSA Officers. There was no law enforcement 
presence at the checkpoint to defend our officers from the gunman, in 
part because local law enforcement had recently decided to no longer 
station their officers at that location, opting for them to patrol the 
terminal and related facilities instead.
    AFGE applauds recent statements by TSA Administrator John Pistole 
that TSA seeks to ensure ``the best possible security for TSA 
employees'' and others in the airport. In light of this terrible 
tragedy, AFGE strongly believes the best response to enhance security 
for agency employees and the traveling public is to create an armed 
Transportation Security Law Enforcement Officer (TSLEO) position 
assigned to protect TSOs and passengers at airport checkpoints and 
other key locations. Deployment of TSLEOs would address problems made 
clear by the LAX shooting and establish a consistent standard of 
protection for vulnerable TSOs and passengers across the country. 
Establishment of a TSLEO position is a priority recommendation for 
AFGE, and we will discuss others in this testimony.
                               background
    Paul Anthony Ciancia has been charged on 11 Federal counts stemming 
from the November 1 shooting rampage at LAX including murder, attempted 
murder, and charges related to committing violence and using a firearm 
in an international airport. As a result of Ciancia's attack at the TSA 
checkpoint, multiple LAX terminals were evacuated, and LAX was closed 
for a period of time, disrupting air travel around the world.
    It is deeply troubling that we later learned that Ciancia carried 
with him a letter stating he had ``made the conscious decision to try 
to kill'' as many TSA employees as possible because in his words, he 
wanted to ``instill fear in your traitorous minds.'' Sadly, TSOs are 
not unfamiliar with these misguided, unwarranted expressions of 
suspicion and hatred aimed towards the workforce. The events of 
November 1 have deeply saddened and affected the morale of TSOs across 
the country. During our recent conference in Washington, DC, AFGE's TSO 
members expressed the anxiety they experience on the job along with 
frustration that some of their fellow Americans despise them solely 
because they carry out their duties as trained.
                the path to improved checkpoint security
    AFGE applauds Administrator Pistole for TSA's quick response 
following the tragic event in Los Angeles, and for opening up a process 
in which all stakeholders, including AFGE, can receive information and 
provide recommendations. AFGE's concerns should be understood as an 
effort to address issues leading to what the administrator has 
described as: ``the best possible security for TSA employees.'' AFGE 
shares a strong commitment to that goal. AFGE's recommendations follow:
1. TSA Must Fulfill Its Duty to Assure Safe and Healthful Working 
        Conditions for the TSO Workforce as Federal Employees
    In addition to its duty to protect the flying public, TSA also has 
the important obligation of protecting its workforce on the job. The 
Occupational Safety and Health Act contains provisions to assure safe 
and healthful working conditions for Federal employees. TSA adopted 
Occupational Safety and Health Administration (OSHA) Standards as 
minimum acceptable safety criteria for its workplaces. OSHA developed 
an enforcement policy with regard to workplace violence as early as 
1992 in a letter of interpretation that stated:

``In a workplace where the risk of violence and serious personal injury 
are significant enough to be recognized hazards, the general duty 
clause [specified by Section 5(a)(1) of the Occupational Safety and 
Health Act (OSH Act)] would require the employer to take feasible steps 
to minimize those risks. Failure of an employer to implement feasible 
means of abatement of these hazards could result in the finding of an 
OSH Act violation. (OSHA Std. Interp. 1900 (D.O.L.) 2006.)''

    Further, TSA policy tasks the agency with ``providing and 
maintaining safe and healthful working conditions for all TSA 
employees'' (TSA Management Directive No. 2400.2(6)(A)) and requires 
the agency to furnish ``a workplace that is free from recognized 
hazards that cause or are likely to cause death or serious physical 
harm.'' (TSA Management Directive No. 2400.1(6)(A)(2).)
    It has been largely overlooked that despite the imminent threat to 
their lives, many TSOs in Terminal 3 showed remarkable courage. 
Although unarmed, it was reported that TSOs ran through the terminal 
alerting passengers and airport staff of a live shooter and to take 
cover. BDO Grigsby told the press he was shot twice during the attack 
while helping an elderly passenger to safety. The actions of BDO 
Grigsby and numerous other unnamed TSOs reflects the patriotism and 
commitment to public service evident in the TSO workforce.
    The evident danger posed to the public during the LAX shooting and 
the heroic actions of TSOs clearly demonstrate that these officers meet 
the definition of ``public safety officer'' in every way. AFGE applauds 
Representative Julia Brownley (D-CA) for introducing H.R. 4026, the 
Honoring Our Fallen TSA Officers Act that would grant TSOs public 
safety officer status for duties that protect our Nation's 
transportation systems. The legislation recognizes that TSOs are the 
first line of defense against transportation terrorism and perform a 
very important public safety role for the country. On a personal note, 
when the Honoring Our Fallen TSA Officers Act becomes law, the family 
of fallen TSA Officer Hernandez will be eligible for the death benefits 
retroactively. Honoring those public servants who are killed in the 
line of duty recognizes that a very small portion of the population 
volunteers to be put in harm's way to protect their country. There is 
no reason H.R. 4026 should not have enthusiastic bipartisan support.
    The TSO workforce should not feel they are on their own when it 
comes to protecting themselves against violence from any member of the 
public. Our proposals reflect real-world solutions to address the 
potential for violence faced by our TSO members on a daily basis.
2. TSA Should Establish a Transportation Security Officer Law 
        Enforcement Position
    The TSA administrator currently has broad authority to implement 
changes that will better protect the TSO workforce and passengers at 
checkpoint. When the Aviation and Transportation Security Act of 2001 
(ATSA) transferred the security functions at United States airports to 
a Federal Government responsibility, the statute also imbued the TSA 
administrator with broad authority to assess and manage threats against 
air travel. For example, the administrator holds certain law 
enforcement powers, including the power to designate officers to carry 
firearms and make arrests, with or without warrants. The TSA 
administrator must use this authority to its greatest potential to 
enhance security and support its workforce.
    The U.S. military employs a strategy known as ``overwatch'' that 
was widely used during the recent conflicts in Iraq and Afghanistan 
that should be applied to TSA checkpoint security. Overwatch consists 
of armed officers deployed to a position overlooking an area where a 
unit of soldiers (often unarmed) are vulnerable to attack as they 
perform duties such as loading and unloading vehicles. The strategy 
provided great protection to the brave men and women defending our 
country and it will provide the same protection to TSOs and passengers.
    Erroll Southers, a former FBI agent who was chief of homeland 
security and intelligence at LAX from 2007 to 2010, said that if 
officers had still been stationed at the screening area on November 1, 
``that arguably would have put them in a position to know about the 
incident and respond to it in a much more reduced time span.'' AFGE 
shares that view and proposes that the TSA administrator exercise his 
statutory authority to establish a unit of Transportation Security Law 
Enforcement Officers (TSLEOs) within the agency. This force would 
ensure that the agency would have one or more armed, Federal law 
enforcement officers--duly trained and certified--at every airport 
checkpoint, and at other key locations.
    I want to clarify that our proposal does not call for, and has 
never called for the arming of all TSA Officers or even a portion of 
that workforce. Rather, our proposal contemplates a new law enforcement 
unit within TSA. Some qualified TSOs would likely bid for positions in 
this new unit. This law enforcement unit would ensure a consistent and 
uniform level of security across the Nation's airports. As we have 
learned in the months since the attack at LAX, current law enforcement 
operations leave our officers vulnerable to attack. This is not to 
fault any law enforcement agency, but rather to highlight the gaps and 
inconsistencies in law enforcement coverage from the point of view of 
our TSA Officers who work in the airports.
    Airports currently are permitted to make their own security plans 
for armed officers, as long as they follow basic guidelines and get 
their plans approved by the TSA. The current system leaves the security 
of our TSOs, the traveling public, and the airport checkpoints to a 
patchwork of hundreds of local police jurisdictions across the country. 
Hundreds of airports have no armed law enforcement officers stationed 
at or in the airport. Even where law enforcement is present inside the 
airport, different decisions about police tactics, staffing, and 
deployment have left many checkpoints, like LAX, without an armed law 
enforcement officer permanently stationed there to provide security for 
our unarmed TSOs.
    By contrast to the lack of consistent law enforcement support 
within TSA, the Social Security Administration (SSA), to take just one 
example, provides its employees with law enforcement support across its 
large network of offices. AFGE represents tens of thousands of 
employees at SSA, where an armed officer provides security at each of 
the over 1,400 Social Security Offices around the country. This law 
enforcement support was put in place based on the recommendation of 
labor-management partnership meetings between AFGE and the SSA 
executives in the wake of the bombing of the Alfred P. Murrah Federal 
Building in Oklahoma City in 1995. In that attack, 15 SSA employees 
were killed. Those officers remain in place, providing security for SSA 
employees and the Social Security recipients and beneficiaries who 
visit those offices.
    As recently as early 2013, Los Angeles Airport Police Department 
(LAXPD) officers were assigned to and stationed at each checkpoint at 
LAX. This changed in April 2013, however, when LAXPD made what has been 
described by the LAXPD Chief as a tactical decision in which their 
officers were no longer required to remain at a podium by the screening 
area. In an effort to make security plans less predictable, they are 
assigned to roam the terminal provided they can respond to an emergency 
at the screening station within 3 minutes. Some law enforcement experts 
dispute the effectiveness of that change in tactics. From AFGE's point 
of view, the harsh reality of the events on November 1 make clear that 
the change failed to protect TSOs and the public at LAX.
3. TSA Should Create Law Enforcement Positions to Protect TSA's Mission
    AFGE respectfully submits that the presence of armed TSLEOs would 
be the most effective way to deter and repel potential future attacks. 
Having one or more armed Federal law enforcement officers at every 
checkpoint, and at other key locations, will provide several 
improvements over the current system:
  <bullet> Nation-wide consistency in the protection of TSA 
        checkpoints, TSOs, and the millions of passengers, airline and 
        airport personnel who pass through those areas every year.
  <bullet> A law enforcement force that is integrated into TSA 
        operations, controlled and directed by TSA officials, but which 
        coordinates closely with local law enforcement to provide for 
        seamless operations across the country.
  <bullet> A visible and effective deterrent to people intent on mass 
        casualty attacks like the one in LAX, and to those passengers 
        who subject TSOs to daily verbal assaults and all-too-frequent 
        physical assaults.
  <bullet> The quickest possible response when an attack, large or 
        small, occurs in the checkpoint or in other key TSA work 
        locations.
    AFGE represents tens of thousands of Federal law enforcement 
officers at the Department of Homeland Security and the Department of 
Defense, and our union is well acquainted with the qualifications to 
become a LEO and their certifications and duties. The facts of the 
November 1 incident at LAX require immediate steps to establish these 
positions under the TSA administrator's existing authority. The 
addition of a TSA law enforcement unit will add a necessary layer of 
security in the airport that is, in most locations, not present today.
4. TSA Should Establish Protective Installations at Each Checkpoint
    In addition to the establishment of a new armed TSLEO position, 
AFGE advocates providing raised, protective installations at the 
checkpoints and other key locations. By installing raised podiums with 
bulletproof glass and other protective reinforcement, TSA can improve 
the law enforcement presence and response time in the event of future 
attacks.
    This type of installation, raised above floor level, will allow 
armed officers to better observe the area, detect a problem before it 
escalates into an attack and create a visible, armed deterrent for 
those who might be planning an attack. The installation would also 
serve as a base from which to launch an immediate law enforcement 
response to an attack.
    The reinforcement of the installations would provide a measure of 
protection in the event of attack by serving as a barricade for the 
officers and providing cover from which they can return fire or await 
the arrival of additional officers. Also, the visible presence of armed 
TSLEOs in the immediate area of the checkpoint will provide a deterrent 
for those seeking to breach the checkpoint or assault TSA personnel or 
passengers.
5. TSA Should Continue to Deploy TSOs to Monitor Exit Lanes
    Published reports have indicated that after the LAX shooter 
attacked Officer Hernandez, the shooter proceeded to walk through the 
exit lane and enter Terminal 3 where he continued to shoot additional 
victims. Even prior to the LAX attack there was considerable 
documentation, and long experience, that the exit lanes are vulnerable 
points of entry for potential security breaches, particularly those 
that are co-located at the TSA screening checkpoint. Despite this 
history, just last year TSA decided, with no Congressional review or 
authorization, to transfer the responsibility for exit lane monitoring 
to the airports and their various law enforcement resources. Although 
Congress blocked TSA from handing off the exit lanes at any additional 
airports, at some airports exit lane staffing remains the 
responsibility of the local authorities, not TSA.
    This transfer of exit lane duties has been strongly opposed by 
airports and AFGE for good reason. An exit lane breach can bring 
airport operations to a halt and strand tens of thousands of passengers 
across the country for hours. Such a breach can allow an active shooter 
or anyone seeking to create mass casualties access to what is often the 
part of the airport with the largest crowds: The air side of the 
terminal. Even before the attack at LAX, TSOs assigned to exit lane 
monitoring duties suffered assaults at the hands of passengers and 
others seeking to breach the exit lane.
    Exit lane monitoring should remain primarily a TSA responsibility 
in all airports, and that responsibility should be returned to TSA at 
airports where it was previously delegated to local authorities. In 
addition to the TSOs who have normally staffed the exit lanes in the 
past, the new TSLEOs we have proposed should be assigned to the exit 
lanes. This change will ensure the same consistent National security 
standards as at the checkpoint.
6. TSA Should Implement Necessary Changes to Improve the BDO Program
    AFGE has for years strongly supported the layered approach to 
security, and the risk-based security principles implemented by TSA. 
AFGE agrees with TSA and with broader law enforcement community that 
behavior detection programs are an important element of the overall 
security system that will keep commercial aviation safe. Although 
speculative, AFGE believes that the behavior of the LAX shooter would 
have been noticed by well-trained BDOs on patrol near the checkpoint 
and afforded them an opportunity to help prevent the shooting.
    AFGE recognizes the valid concerns stated in the November 2013 
Government Accountability Office report on the Screening of Passengers 
by Observation Techniques program and strongly encourages TSA to 
implement the recommended scientific research and enhanced training to 
better identify threats to aviation security. This will in turn 
increase the likelihood that a BDO will be in the right place at the 
right time to detect and deter a potential attacker like the LAX 
shooter.
7. TSA Must Ensure Close Coordination Between Airport and Local First 
        Responders
    While the Los Angeles World Airport's (LAWA) report on the November 
1 active-shooter incident represents a well-intentioned effort to 
identify and address security problems, AFGE found the report's 
conclusions and omissions disturbing. We cannot help but express our 
dismay at the lack of coordination across those agencies responsible 
for security at the airport. Officer Hernandez waited 33 minutes before 
he received medical attention. Over an hour passed before command posts 
were merged and a unified response coordinated. Emergency equipment 
such as the checkpoint ``panic button'' simply did not work. Even if 
the ``panic button'' had operated properly, TSOs did not have clear 
access to that device and checkpoint phones, and it is not clear those 
devices would have contacted directly local or airport law enforcement.
    In addition, the LAWA report does not discuss the impact of the 
redeployment of and removal from TSA checkpoints of local law 
enforcement, nor why two assigned officers were out of position when 
the shooting began. The issues leading to the failure of security must 
be openly acknowledged and addressed to ensure lessons are learned from 
the November 1 tragedy and applied to airports around the United 
States.
8. TSA Must Provide Immediate Active-Shooter Training for the TSO 
        Workforce
    Our members report that prior to the attack at LAX the only active-
shooter training available to them was a video providing instruction 
for an active-duty situation at an office building. Clearly an office 
building situation cannot compare to an active shooter at a checkpoint 
as TSOs and passengers are trapped in a small, enclosed area. AFGE 
calls upon TSA to establish and implement airport active-shooter 
training for all TSOs. As much as possible, TSA should coordinate with 
Federal, State, and local airport organizations to establish live 
shooter interagency drills. The LAX shooter had an animus against and 
was targeting TSA employees in his attack. TSOs are the unique targets 
and should have priority for training designed specifically for their 
protection. In addition, TSA must allow all TSOs time to receive the 
training. Our members complain that due to management staffing concerns 
that recently-hired TSOs are more likely to receive training than 
incumbent employees. This is unacceptable for certification and skills 
training and unthinkable for active-shooting training. The TSOs on duty 
at LAX on November 1 did the best they could to save their lives and 
those of the public. No TSO should ever be placed in that situation 
again in the future.
                               conclusion
    AFGE believes that improved security for the more than 45,000 
Transportation Security Officers represented by our union is essential 
for improved public safety. TSOs should receive recognition and respect 
for performing important job duties that are not always safe. We 
strongly urge that AFGE's recommendations be implemented. We look 
forward to participating in additional dialogue about implementation of 
the changes that we have recommended. This concludes my statement. I 
will be happy to respond to any questions.
                         Statutory Authorities
(p) Law enforcement powers.
  (1) In general.--The Under Secretary may designate an employee of the 
        Transportation Security Administration or other Federal agency 
        to serve as a law enforcement officer.
  (2) Powers.--While engaged in official duties of the Administration 
        as required to fulfill the responsibilities under this section, 
        a law enforcement officer designated under paragraph (1) may--
        --
    (A) carry a firearm;
    (B) make an arrest without a warrant for any offense against the 
        United States committed in the presence of the officer, or for 
        any felony cognizable under the laws of the United States if 
        the officer has probable cause to believe that the person to be 
        arrested has committed or is committing the felony; and
    (C) seek and execute warrants for arrest or seizure of evidence 
        issued under the authority of the United States upon probable 
        cause that a violation has been committed.
  (3) Guidelines on exercise of authority.--The authority provided by 
        this subsection shall be exercised in accordance with 
        guidelines prescribed by the Under Secretary, in consultation 
        with the Attorney General of the United States, and shall 
        include adherence to the Attorney General's policy on use of 
        deadly force.
  (4) Revocation or suspension of authority.--The powers authorized by 
        this subsection may be rescinded or suspended should the 
        Attorney General determine that the Under Secretary has not 
        complied with the guidelines prescribed in paragraph (3) and 
        conveys the determination in writing to the Secretary of 
        Transportation and the Under Secretary.
                       ATSA, 49 U.S.C.A.  44901
(h) Deployment of armed personnel.
  (1) In general.--The Under Secretary shall order the deployment of 
        law enforcement personnel authorized to carry firearms at each 
        airport security screening location to ensure passenger safety 
        and National security.
  (2) Minimum requirements.--Except at airports required to enter into 
        agreements under subsection (c), the Under Secretary shall 
        order the deployment of at least 1 law enforcement officer at 
        each airport security screening location. At the 100 largest 
        airports in the United States, in terms of annual passenger 
        enplanements for the most recent calendar year for which data 
        are available, the Under Secretary shall order the deployment 
        of additional law enforcement personnel at airport security 
        screening locations if the Under Secretary determines that the 
        additional deployment is necessary to ensure passenger safety 
        and national security.
                     ATSA, 49 U.S.C.A.  44901 NOTE
              deadline for deployment of federal screeners
    Pub. L. 107-71, Title I,  110(c), Nov. 19, 2001, 115 Stat. 616, 
provided that:

``(1) In general.--Not later than 1 year after the date of enactment of 
this Act [Nov. 19, 2001], the Under Secretary of Transportation for 
Security shall deploy at all airports in the United States where 
screening is required under section 44901 of title 49, United States 
Code, a sufficient number of Federal screeners, Federal Security 
Managers, Federal security personnel, and Federal law enforcement 
officers to conduct the screening of all passengers and property under 
section 44901 of such title at such airports.
``(2) Certification to Congress.--Not later than 1 year after the date 
of enactment of this Act [Nov. 19, 2001], the Under Secretary shall 
transmit to Congress a certification that the requirement of paragraph 
(1) has been met.''

    Mr. Hudson. Thank you, Mr. Cox. I now recognize myself for 
5 minutes to ask questions.
    Chief Gannon, I would like to start with you, sir. Let me 
say first that I agree with you that 4 minutes and 8 seconds is 
quite a remarkable amount of time that elapsed from the time 
you received the call until your officers took down the 
shooter. So, I just want to acknowledge the heroes, the 
officers, that serve under you and the work that they did, and 
the preparation that you led in this sense. I think everyone 
recognizes their actions on that day were extraordinary, if not 
heroic.
    Chief Gannon. Thank you. We are very proud of them.
    Mr. Hudson. One of the issues that we have heard different 
information about was the location of the two officers in 
Terminal 3 that day. I would just ask so we can get it on the 
record to be clear, exactly where were the two officers that 
day?
    Chief Gannon. One officer was using the restroom in an 
adjacent terminal, and the other officer was out on the 
airfield, which is part of his responsibilities.
    Mr. Hudson. You know, my interest is not to try to play 
gotcha with any particular officer, but just to try to 
understand the policies. The officer who was in the restroom, 
was there a policy that an officer operates under when you are 
taking a break that you notify someone that Jeff is going to 
cover your area, or was it standard operation just to quickly 
take that break and then get back on----
    Chief Gannon. Well, yes, we have a policy, and, yes, that 
policy is to ensure that we have coverage in that terminal. But 
for a restroom break? I do not hold somebody to making that 
kind of determination. I expect people to be able to use the 
restroom and get quickly back to where they are, so I do not 
have a particular problem with that.
    I have throughout my entire airport or our entire airport 
and through each of the terminals, we have a tremendous 
responsibility throughout those, whether it is in the departure 
level, or at the arrival level in the baggage claim areas, or 
out on the airfield. There are a lot of different 
responsibilities that our officers have, and there are a number 
of people along the way that were there to protect. But they 
are only one layer of security here at the airport, so a lot of 
focus has been on those two officers. But they are not the only 
officers that were working that day, nor are they the only ones 
who had responsibilities to that terminal.
    Mr. Hudson. Well, explain that a little bit if you could 
briefly. What are some of the layers that day that would have 
overlapped with Terminal 3?
    Chief Gannon. Well, in addition to the officers that we 
have assigned to terminals each day, we also have motor 
officers. We also have bike officers that were working that 
particular day. We have officers on foot beats throughout the 
terminals. We have officers that respond on mopeds. I have 
supervisors that are actively working and police cars, and we 
have roving patrol units that were working in the central 
terminal area that day. So the response to a shooter or to any 
incident that occurs in an airport is the responsibility of a 
number of different officers, not just the officers that work 
in that terminal each day.
    Mr. Hudson. Great. Thank you, Chief Gannon. Administrator 
Pistole, your testimony stated that TSA is recommending airport 
operators conduct active-shooter training. As I think was 
pointed out, LAX had just done such an exercise 3 weeks prior, 
and I think that contributed to the performance of the officers 
of TSA, as well as law enforcement that day in November. But 
are you working in coordination when you do these trainings 
with the local law enforcement at the airports? Could you maybe 
explain how that works?
    Mr. Pistole. Yes, Chairman. So there are actually two 
aspects to the active-shooter training. One is for all TSA 
employees, not just TSOs, but all TSA employees around the 
country and internationally around the world to make sure that 
they know what to do in the event that an active shooting takes 
place at their place of work. So that is the one aspect.
    As you know, there are three different types of training. 
One is basically an on-line course which 98 percent of our 
employees have completed. The other is a tabletop exercise, 
which is often done more in conjunction with airport operators 
and police, and then the tactical training, which is done. The 
training that was done 3 weeks before actually combined all 
three, and so I commend LAWA and the police in terms of doing 
that because it probably did save lives from the standpoint of 
people knowing what to do to escape. We can call it an 
``evacuation,'' but as I think as some people heard earlier, it 
is as much an escape as it is evacuation to know to get out of 
harm's way.
    So, that training is on-going based on and in concert with 
airport authorities and police. We are requiring that now to be 
done at least semi-annually at all 447 airports around the 
country.
    Mr. Hudson. I appreciate that. Since I am going to hold 
everyone else to their 5 minutes, rather than ask a question 
with 13 seconds left, I am going to now yield to the Ranking 
Member of the full committee for questions you may have. Mr. 
Thompson.
    Mr. Thompson. Thank you very much. Chief Gannon, simply 
put, how would the response to an active-shooter situation 
differ today at LAX compared to what happened November 1?
    Chief Gannon. Well, I think that the response to the actual 
incident itself and to the shooting, it is tough to be faster, 
quicker than we did on that particular day. Part of the 
difficulties that we had on that day was coordinating all of 
the resources that responded to the airport. That was one 
challenge that we had, and making sure that we understood 
exactly where they were being put to work and building out an 
effective incident command to be able to deal with those. The 
other issue is prevention. We have spent a lot of time 
wondering if we could prevent this incident. Given the case of 
Paul Ciancia, he was not on anybody's radar screen. I do not 
think that we could have prevented this in that regard.
    But there are ways in which we can educate our employees, 
educate people within the airport to be better partners with us 
and to be more observant as to what is going on that maybe 
behavior exhibited by Mr. Ciancia could have been identified 
and then acted upon before he had an opportunity to shoot. I do 
not think in this particular case it was, but we have put 
together a community- and policing-based approach to assigning 
officers to specific terminals to build relationships with 
people so that we get better information out of our employees.
    Mr. Thompson. Well, I guess my point I am trying to get at 
is you have identified coordination as something that would be 
different now than before. Now, based on what we have been told 
during our visit here, it is still very difficult for the LAWA 
police to talk to the sheriff's department, to talk to the 
LAPD. What are you doing or, Ms. Lindsey, what are you doing to 
affect that interoperability issue that still exists?
    Chief Gannon. Well, it still exists here. It exists 
throughout southern California and throughout the Los Angeles 
area. The county is responsible for putting an interoperability 
plan. They have a program called LA-RICS that is in 
development. We have developed our communications systems to be 
compatible with LA-RICS, but that is some time off.
    In the mean time, what we have done on the short-term, for 
example, with fire and with LAPD, the units especially that 
worked the fire stations associated with this airport or LAPD 
officers that are on campus or close, is that we provide them 
with a radio which they can monitor for us and which we can 
monitor their frequencies. We do have frequencies that we can 
talk to LAPD on our frequencies, so we do have interoperability 
to some degree, but not to the extent that I think we need in a 
major incident.
    Mr. Thompson. Ms. Lindsey.
    Ms. Lindsey. I think the only thing I would add is that we 
are encouraging LA-RICS to take the steps that they need to 
take because we have already implemented the technology that 
they are ultimately going to implement, so there really is not 
a whole lot more than encouraging them to take the steps they 
need to take that we can do from the airport perspective.
    Mr. Thompson. Mr. Cox, an active-shooter situation is a 
difficult scenario. What are you recommending for a situation 
like this for the minimal kinds of training TSOs should have in 
that situation?
    Mr. Cox. No. 1, there has to be an opportunity for the TSOs 
to take the training, and remember their jobs are very 
demanding. If people are lined up to get into the airports, it 
is hard for them to take time to get the training. So, No. 1, 
the time to do it, the training, to understand what to do, how 
to get to the alarms, that they are handy, having more radios, 
that it would be permissible to use their own cell phone to 
call for help, to get help immediately, how to evacuate 
themselves, passengers, where to go for a safe harbor-type 
things.
    Each airport is a little bit different as we all 
understand. They are built differently. But the training and, 
again, the freeing-up of the officer to have the time to do the 
training. That happens in every organization in the Government 
and the private sector where we struggle to get the time to do 
it.
    Mr. Thompson. Thank you. Yield back.
    Mr. Hudson. Thank the gentleman. The Chairman now 
recognizes the Chairman of the full committee, the gentleman 
from Texas, Mr. McCaul, for any questions he may have.
    Chairman McCaul. Thank you, Mr. Chairman. Let me just first 
take the opportunity to say thank you to our TSA Officers out 
there who I think day in and day out under very difficult 
circumstances protect the traveling public from threats, 
whether it be lone gunmen or terrorists. We certainly 
appreciate the work you do. I know you do not always hear that, 
but I wanted you to hear that from the Chairman.
    Chief, I look at threats, risks, and vulnerabilities. Now, 
this airport has been under threats really since 9/11. It is a 
target, and it was certainly on that day. When I look at what 
was the weak point as I analyze this particular fact pattern, 
it seems to me that once someone goes through the proper 
screening, a weapon is going to be detected and picked up. So 
having the police, you know, beyond that screening, post-
screening, it is helpful, but it seems to me the real 
vulnerability is before that process in the perimeter, if you 
will, before they go through their screening. Also in this 
case, the exit where the shooter actually went through the exit 
to get into the terminal and, I believe, to push threats out. 
You want to push that threat out before he gets in. So what are 
your lessons learned in that regard when you look at what 
happened that day?
    Chief Gannon. Well, I absolutely agree with you. I think 
that the threat for this airport starts on Century Boulevard at 
the entrance to the airport and extends through the curb area 
and the drop-off and into the terminals themselves, and up to 
the screening checkpoint is where our greatest threat occurs. 
So, our emphasis should be in those particular areas. That is 
consistent with the strategy that we have put together. That 
was consistent with the way in which last May when we moved 
from that podium assignment where we had officers sitting or 
standing at a podium behind the screening and to move them up 
front with that in mind to reduce the threat there.
    There are a number of challenges at any of our airports, 
and there are a number of issues that involve crime and other 
things that we have to address each and every day. But I also 
feel that it is important that we protect everybody in this 
airport environment to the best of our ability.
    Chairman McCaul. Now, as Mr. Cox talked about, you know, 
putting a police officer in front of each screening checkpoint 
would probably be ideal. Obviously resources are an issue. 
However, are there ways to be agile, flexible to keep the 
threat guessing? I think if you had one person always in one 
place, they are able to predict better in terms of, you know, 
the threat at that particular juncture. So in other words, the 
flexibility and agility, do you think that is important to sort 
of move these assets around at the airport?
    Chief Gannon. I absolutely think so. I think if you are 
predictable, then you are vulnerable, and that is why I do not 
think we should be as predictable. You know, to our best 
knowledge, anybody who is going to cause an issue here and take 
a violent act at this airport is probably going to watch and 
look and pay attention to how we do our jobs each and every 
day.
    Chairman McCaul. Let me just, because my time is going to 
run out, just say to apprehend the suspect under 5 minutes is 
pretty extraordinary. I do think we can always do better. I 
think had he not just been targeting TSA, we could have seen a 
lot more bloodshed that day.
    Administrator Pistole, when you look at resources, and we 
always have to look at that, as you well know, you know, in the 
Bush Intercontinental Airport, it was a CBP Officer or, I 
believe, an ICE Officer that actually responded. CBP in 
Terminal 3 were there. You have the VIPR teams that we saw 
today. You have a lot of assets around there. You have the 
police. You have got CBP Officers, ICE that can respond that 
are armed and trained unlike the TSOs. Can you speak to that in 
terms of bringing those resources together to prevent this kind 
of threat from happening?
    Mr. Pistole. Yes. Thank you, Chairman. There are a number 
of challenges and opportunities, as you indicated, with the 
multiple layers of security that could be brought to bear. One 
of the challenges is to know how to integrate those different 
resources. So, as Chief Gannon mentioned, it is one thing to 
have the airport police doing random patrols and having that 
unpredictable aspect of things along with coordinating with our 
VIPR teams, which, of course, is another layer of security 
there.
    When we start introducing other components, for example, 
DHS, ICE, CBP, who have primary responsibilities elsewhere, 
then it becomes a question of what are we diverting them from 
in terms of their responsibilities and addressing what risk and 
what threat. So we do try to balance risk, threat, 
vulnerability, consequence, as you mention, that formula for 
assessing risk, to make informed judgments.
    You mentioned about if we did have a special cadre of armed 
TSOs. I have several concerns about that which I can go into 
later, but introducing more guns into the checkpoint on a fixed 
basis I do not think is a solution.
    Chairman McCaul. I tend to agree with that. I see my time 
has expired. Thank you.
    Mr. Hudson. Thank the gentleman. The Chairman now 
recognizes the gentlewoman from Texas, Ms. Jackson Lee, for any 
questions she may have.
    Ms. Jackson Lee. Thank you very much. Let me just refresh 
the witnesses' memory. I started out by indicating that TSA 
Officers are in the service of their country and in the service 
of protecting the National security of this Nation. I think 
that as we proceed with this hearing, it is a very key element 
collaborating with local law enforcement. Chief Gannon, I again 
want to go on the record and say 4-and-some-seconds minutes was 
a remarkable effort, and we thank you again very much.
    Mr. Pistole, in that direct thought of National security, 
you in 2013 did a vulnerability assessment of LAX with 
Transportation Security and the Federal Bureau of 
Investigation. In my opening remarks, I alluded to the fact 
that TSA and TSO Officers should have the ability to pick up an 
emergency phone line and it should work. They deserve to know 
that a panic button, when they have been instructed to press it 
when an incident occurs, will work and prompt a response from 
local law enforcement. In an active-shooting situation that is 
crucial.
    So, my question is whether the vulnerability assessment 
that was done in November 2013 took into account the 
communication between first responders. I think we have raised 
that question. But then on the other hand, the ability of the 
Transportation Security Officers to call for assistance in the 
event of an incident at a checkpoint, which I think is crucial.
    Mr. Pistole. Yes. Thank you, Congresswoman. Actually the 
most recent joint vulnerability assessment was just in February 
2014, so just very recently following the shooting in November, 
and it was part of a previously-scheduled one. So, one of the 
things we look at with the FBI and the Airport Authority and 
the airport police is the communication, not necessarily in 
terms of interoperability of radio systems because there are a 
number of challenges to that both from a budget, a number of 
different aspects. Does the airport police want to have TSA 
Officers on their radio channels and communications just like--
--
    Ms. Jackson Lee. Mr. Pistole, I want to ask two other 
questions, so if you can summarize your response.
    Mr. Pistole. So the bottom line is they looked at a number 
of things, including communications. We do not look at 
communications, say, between first responders, between LA fire, 
LA police, LA sheriff, and LAWA. That is not part of the joint 
vulnerability assessment.
    Ms. Jackson Lee. So can we add to that now the ability of a 
TSO Officer to have an immediate response based upon whatever 
is present for them to make that call?
    Mr. Pistole. Yes. The question we do look at or the issue 
we do look at is, do TSA Officers have the ability to 
communicate directly with airport police? And the answer to 
that is yes, as the supervisory TSO did on November 1, 10 
seconds after the first shot was fired.
    Ms. Jackson Lee. But that was a red phone?
    Mr. Pistole. That was a red phone.
    Ms. Jackson Lee. So, I think my point is we want to make 
sure that all that is operable from our perspective in the 
Federal Government.
    Mr. Pistole. Right, and LAWA found that that was not 
operable, so they have taken actions to correct that.
    Ms. Jackson Lee. Yes, let me quickly, is it, in your mind, 
very important for there to be a Federal TSO professional 
organization as opposed to privatization? Does this really 
point out how important that is?
    Mr. Pistole. Well, yes. I believe that TSA is a Federal 
workforce----
    Ms. Jackson Lee. But that it is important to be under the 
Federal auspices as opposed to privatization.
    Mr. Pistole. It is, but we also recognize Congress' mandate 
to have privatized screening.
    Ms. Jackson Lee. Some of us disagree with that. Thank you. 
Let me ask Mr. Cox about the importance of a trained 
professional TSO organization as opposed to privatization. Then 
might you comment very briefly on what you think is important 
about a separate law enforcement entity to TSO.
    Mr. Cox. No. 1, I think the American people had the outcry 
that they wanted the Federal Government to operate the 
screening at airports after 9/11, and since that time TSA has 
done a fantastic job in protecting the flying public. I clearly 
believe that that needs to be a function of Government, and 
they are doing an excellent job. Part of it with having a law 
enforcement function in TSA, I commend the work of the police 
department here at the Los Angeles Airport. They did a 
fantastic job.
    Ms. Jackson Lee. Yes, they did.
    Mr. Cox. Very, very brave officers that ran right into the 
situation. But at the same token, TSA, they need law 
enforcement there. My good friend and colleague sitting beside 
me would not be looking to the Phoenix police department to 
provide the security for his officers. He wants to do that.
    There needs to be some type of law enforcement inside of 
TSA to provide security at that checkpoint. There are still 
very large airport parking lots, all of those type things that 
have to be managed in an airport operation, and which we need 
the local law enforcement and the airport law enforcement to 
handle. But those checkpoints in TSA, it was one of ours that 
did not get to go home to his family.
    Ms. Jackson Lee. Thank you very much. Mr. Chairman, I yield 
back. Thank you very much.
    Mr. Hudson. Thank the gentlelady. The Chairman now 
recognizes----
    Ms. Jackson Lee. I apologize for having to depart at this 
time. Thank you.
    Mr. Hudson. Well, thank you for participating in this 
hearing. Thank you for your leadership.
    Ms. Jackson Lee. Thank you.
    Mr. Hudson. The Chairman now recognizes the gentlewoman 
from California, our host, if that is appropriate. We are in 
your Congressional district, so we appreciate you joining us. 
Ms. Waters, we now recognize you for any questions you may 
have.
    Ms. Waters. Thank you very much, and I certainly appreciate 
your being here. I would like to thank Homeland Security 
Committee Chairman Michael McCaul, Ranking Member Bennie 
Thompson, Transportation Security Subcommittee Chairman Richard 
Hudson, and Congresswoman Sheila Jackson Lee, who is sitting in 
for Ranking Member Cedric Richmond, for organizing this field 
hearing in my district entitled ``Lessons From the LAX 
Shooting: Preparing for and Responding to Emergencies at 
Airports.''
    I want to begin by joining with my colleagues to honor the 
life and service of Gerardo Hernandez, the Transportation 
Security Officer who was killed in the line of duty during the 
active-shooting incident on November 1, and I offer my deepest 
condolences to his family and friends. I also honor all of the 
TSOs, LAX police officers, and other first responders who 
risked their lives to stabilize the situation and protect the 
public on that tragic day.
    This hearing follows the release of two reports on the 
November 1 incident, one by the Los Angeles World Airports and 
the other by the Transportation Security Administration, and I 
am concerned about some of what was revealed in those reports. 
But I am not worried because those things that were revealed, 
whether it is the red telephone, or the panic buttons, or even 
the interoperability, are things that can be fixed. I think 
that Ms. Lindsey and Chief Gannon have already talked about a 
quick response to those kinds of things. They have the 
resources to do it, and they certainly will do it.
    I would like to just spend a moment, if I may, to talk 
about the need for a consistent law enforcement presence at TSA 
passenger screening checkpoints, such as the one where Officer 
Hernandez was killed. Now, let me just say this. I know that 
there are differences of opinion about this. What I am anxious 
to hear today and in the near future is that the discussion 
will continue. There may be things that can be tried. There may 
be alternatives. But what I do not wish to do is to simply have 
the issue put to rest at this time because I am concerned that 
there may be a better mousetrap. I am not sure.
    Following the shooting incident, I discussed airport 
security issues with leaders of the American Alliance of 
Airport Police Officers. Following our discussion, I wrote a 
letter to TSA Administrator John Pistole in which I recommended 
that law enforcement officers be stationed within 300 feet of 
TSA passenger screening checkpoints. I have a copy of that 
letter with me today, and with the committee's consent, I will 
include it in the hearing record.
    [The information follows:]
                     Letter From Hon. Maxine Waters
                                 December 19, 2013.
The Honorable John Pistole,
Administrator, Transportation Security Administration (TSA), TSA-5 
        Administrator, 601 South 12th Street, Arlington, VA 20598.
    Dear Administrator Pistole: I write you today to express the 
importance of having law enforcement officers stationed within 300 feet 
of TSA passenger screening checkpoints and the need for airport police 
to have access to all airport security cameras.
    It is my understanding that these two security recommendations were 
included in a September 2012 letter to you signed by Mr. Marshall 
McClain, President of the Los Angeles Airport Peace Officers 
Association (LAAPOA). In the aftermath of the tragic shooting incident 
at Los Angeles International Airport (LAX), I am deeply concerned that 
these issues have yet to be addressed by TSA. I expressed the 
importance of implementing these security recommendations in my 
statement during the House Homeland Security Committee Subcommittee on 
Transportation Security hearing entitled ``TSA's SPOT Program and 
Initial Lessons from the LAX Shooting,'' on November 14, 2013. I 
believe that these recommendations will play a vital role in ensuring 
that all travelers and airport employees are safe in our Nation's 
airports.
    As the Member of Congress who represents LAX, the safety and 
security of all of the people who work in and pass through LAX is of 
paramount importance to me. Following the tragic shooting incident at 
the airport, I met with representatives from the American Alliance of 
Airport Police Officers (AAAPO), including the Presidents of LAAPOA and 
the police associations of the Port Authority of New York and New 
Jersey (JFK, LaGuardia, and Newark airports) and Baltimore-Washington 
Intemational (BWI) airport, to discuss suggestions for addressing 
serious security gaps in our Nation's airport system. We all agreed 
that requiring a law enforcement officer to be located within 300 feet 
of a TSA passenger screening checkpoint and requiring airport police to 
have access to all airport security cameras are sensible and cost-
effective steps that will significantly enhance the security of all 
major airports across the Nation.
    In this regard, I urge you to immediately revisit and reevaluate 
the proposals put forth by the AAAPO in their letter to you dated 
September 28, 2012, which I have enclosed for your reference.
    Thank you for your time and attention to this matter. I look 
forward to your response.
            Sincerely,
                                             Maxine Waters,
                                                Member of Congress.
Appendix.--Letter From the American Alliance of Airport Police Officers
                                September 28, 2012.
The Honorable John Pistole,
Administrator, Transportation Security Administration, TSA-1 
        Administrator, 601 South 12th Street, Arlington, VA 20598.
    Dear Administrator Pistole: Thank you again for taking time this 
week to visit with our group to discuss our mutual goals of airport 
safety and security.
    As a follow-up to our discussion, please find below the five major 
issue areas we discussed with specific examples and proposed solutions:
TSA and Airport Police Screening Point Breach/Incident Protocol--
        Immediate Notification
    Issue.--When security breaches and/or incidents occur in TSA 
screening areas, TSA agents are attempting to investigate and/or self-
correct breaches, exposing the travelling public to risk, delaying 
investigatory actions, and causing unnecessary travel disruptions.
    Example.--In January 2012, two pipes which resembled pipe bombs 
were removed from a traveler's bag at LaGuardia Airport and set aside 
in a common area, prompting a security scare that was not reported to 
airport police until 6 hours later. See http://www.nypost.com/p/news/
local/queens/bomb_botch_at_lag_cNNAisTre- 0rBixGKlehknI.
    Proposed Solution.--TSA must be required to immediately notify 
airport police of security breaches and/or incidents at passenger 
checkpoints. Standard operating procedures must be prescribed between 
TSA and airport police when dealing with security breaches and/or 
incidents at passenger and baggage checkpoints.
Real-Time Airport Police Access to Closed Circuit Security Cameras
    Issue.--Most airports do not have a coordinated airport-wide closed 
circuit security camera system. Instead, TSA, airport management, 
tenants, vendors, and others own and operate camera systems without a 
common repository. Most importantly, there is no requirement that 
stakeholders provide airport police with a camera feed should a crime 
or incident occur. In all breaches, real-time access to video is 
essential to airport police containing and assessing situations. The 
absence of a standardization that requires that airport police must be 
provided real-time access to any camera system on airport property has 
led to unnecessary disruptions and numerous incidents when perpetrators 
have eluded detainment.
    Example.--At Newark Airport in August 2012, traces of explosives 
were identified on the hands of a woman at the TSA screening point. TSA 
did not follow protocol and detain her for secondary screening nor did 
they immediately contact airport police when they realized their 
serious error. A half-hour after the incident when airport police were 
notified, TSA could not even identify which of the three screening 
areas within the terminal was the breach area. As a result, the 
terminal was shut down for approximately 3 hours, delaying travel and 
inconveniencing thousands of passengers. See http://www.myfoxny.com/
story/19199785/security-breach-at-newark-airport#ixzz22mr44BK7.
    Proposed Solution.--Any entity with security cameras at Category X 
airports must provide a real-time feed to the airport police's primary 
video surveillance system. Each entity is responsible for the cost of 
providing the feed.
LEO Podium Positions/Screening Rule--300 Feet of Screening Area
    Issue.--Current statute requires that a law enforcement officer 
(LEO) ``be able to provide prompt responsiveness to problems occurring 
at the screening points.'' The definition of ``prompt'' has been 
interpreted broadly.
    Example.--At large New York City area airports, an officer must 
respond to ``problems'' at screening checkpoints within 5 minutes; a 
feat virtually impossible if an officer is charged with patrolling the 
entire terminal area and is performing other police functions. We share 
the concern you expressed about officer responses to TSA. The 
implementation of a 300-foot rule would address this matter and ensure 
a LEO is immediately prepared to answer TSA calls.
    Proposed Solution.--A uniform standard should be applied to all 
Category X airports which would require a LEO within 300 feet of the 
passenger screening area.
Mandatory Screening for All Airport Employees and Armed TSA
    Issue.--At various airports, prior to DHS permitting TSA to wear 
metal badges, all TSA employees were screened with other airport 
employees and passengers who enter the airport. TSA asserts that since 
they now wear metal badges that will set off screening alarms, they 
should be exempt from screening procedures. As a result, all TSA 
employees at LAX and any item they carry or have on their body (i.e. 
backpacks, purses, etc.) bypass the screening checkpoint.
    Example.--At LAX, all airport employees must go through the TSA 
screening checkpoint except TSA, armed on-duty law enforcement 
officers, and Federal Flight Deck Officers (who also carry weapons). 
This issue is of great concern considering TSA agents have the 
potential of bringing prohibited, dangerous and/or illegal items with 
them to work. Similarly, at JFK, airport employees are permitted to 
enter the airport via a rudimentary metal turnstile that is located 
immediately off the tarmac without passing through TSA screening. 
Again, these airports are among the most vulnerable to terrorist 
attacks in this country. In addition, two TSA agents are armed at LAX. 
They are: Don McMullen, assistant Federal security director for TSA/Law 
Enforcement Division at LAX and a task force officer on the FBI's Joint 
Terrorism Task Force, and John Lingram, TSA assistant special agent in 
charge at LAX and a former Federal air marshal.
    Proposed Solution.--Policy should revert to pre-badge protocol 
which required TSA employees go through the TSA screening checkpoint 
before entering secure areas of the airport.
TSA Mission Creep/Definitive LEO and TSA Roles
    Issue.--TSA agents are charged with screening every passenger and 
bag boarding commercial aircrafts. TSA agents are not law enforcement 
officers and are not trained nor equipped to perform police work. 
Airport police officers are vetted, attend an academy, and continually 
receive criminal policing, hijacking, and terrorist training. They are 
not screeners and do not seek to perform TSA-specific duties. TSA has 
expanded the scope of their authority beyond screening areas to more 
traditional ``police'' work without clear lines of delineation with 
airport police, jeopardizing public safety, contributing to a break in 
chain-of-command, and delaying timely law enforcement responses. This 
``mission creep'' threatens the security of the airport.
    Example.--TSA's Behavior Detection Officer (BDO) program, which is 
designed to detect threat behavior patterns, has received almost 
universal criticism for its cost, lack of effectiveness, and racial 
profiling claims. Our officers have become frustrated with the program 
as BDO's have not produced a viable terrorist threat at any of our 
airports, yet many police hours have been expended in dealing with BDO 
claims to no avail. See http://www.nytimes.com/2012/08/12/us/racial-
profiling-at-boston-airport-officials-say.html?pagewanted=all and 
http://www.gao.gov/assets/310/304510.pdf.
    Proposed Solution.--TSA employees who are not trained as Federal 
law enforcement officers should be restricted to conducting passenger 
and bag screening and agents should have no jurisdiction beyond 
passenger and baggage screening checkpoints. A pilot program should be 
conducted at two or three Category X airports to test the feasibility 
of only airport police, who have the foundational LEO training, 
knowledge of the specific airport environment, and ability to make 
arrests, to perform behavior detection activities in order to determine 
the efficiency, effectiveness, and cost comparisons between airport 
police BDO and TSA BDO programs.
    The members of the American Alliance of Airport Police Officers 
have a long and productive history and respected relationships with 
numerous Federal partners including the FBI, Customs, and airplane-
based Federal Air Marshals. The key to the success of our mutual 
efforts is that each participant has clear definitions of 
responsibilities. The only Federal entity with which our officers 
experience constant tension is with TSA non-law enforcement operations. 
It is important that we address the underlying issues and adjust our 
interactions to serve our mutual mission of keeping airports safe.
    In this vein, we hope you will thoroughly review and advance our 
recommendations. As we discussed, all airports are not created equally. 
Our airports are among the most-trafficked and terrorist-targeted in 
the country and world. The rank-and-file officers we represent are 
fully committed to our mission and we seek to have a productive and 
more defined relationship with TSA to accomplish this goal. The 
implementation of these five initiatives would promote these efforts.
    We look forward to your responses and to working with you, House 
Homeland Security Chairman Peter King, and others to address these 
important concerns.
            Sincerely,
                                      Mr. Marshall McClain,
         President, Los Angeles Airport Peace Officers Association.
                                         Mr. Paul Nunziato,
            President, Port Authority Police Benevolent Assoc. Inc.

    Ms. Waters. I was pleased to learn that TSA was responsive 
to the concerns that I raised and addressed this issue in its 
report. Specifically, TSA issued recommended standards calling 
for an increased presence of law enforcement officers at high-
traffic locations within the airport, such as peak travel 
times, and checkpoints, and ticket counters. However, TSA still 
does not require that law enforcement officers be consistently 
present at these checkpoints, even during aforementioned peak 
travel times.
    The LAWA report, on the other hand, does not address this 
issue at all. LAWA implements a flexible response approach to 
security, which allows police officers to roam around the 
airport, but does not specifically require them to be present 
at the passenger screening checkpoints. The fixed-post approach 
by contrast requires a police officer to be stationed at each 
passenger screening checkpoint. Airports and local police 
departments that support the flexible-response approach have 
argued that this approach provides visibility of police 
officers throughout the airport, and less predictability for 
those who are intent on doing harm.
    I realize that a consistent law enforcement presence at TSA 
screening checkpoints is a controversial issue. However, I 
would argue that the fixed-post and flexible-response methods 
are not mutually exclusive. A major airport, like LAX, can have 
police officers at every screening checkpoint and still have 
additional officers patrolling the airport. If the United 
States Capitol complex where we work in Washington, DC can have 
police officers stationed at security checkpoints as well 
additional officers patrolling the vicinity, then I think it is 
possible for LAX.
    Some airports and local police departments have also argued 
that stationing a police officer at every screening checkpoint 
is just too expensive, but I do not accept that particular 
argument. I do not want to compromise airport security in order 
to save money by paying for fewer police officers. Regardless 
of which local, State, or Federal agency is responsible for 
stationing officers at TSA screening checkpoints, a consistent 
law enforcement presence at these checkpoints is critical.
    I, therefore, look forward to a frank discussion regarding 
TSA checkpoint security today and in the future. However, I 
firmly believe that we should not adjourn without at least 
continuing to address this issue, and I want to thank Chief 
Gannon for his perspective on this. He gave me a new insight 
about predictability and the fact that if it is known that 
there is an officer at the checkpoint, they become easy 
targets. I appreciate that.
    I want to thank Mr. Cox because you gave us another way to 
look at this. You talked about how this possibly could be done. 
That is why I think it is so important to continue the 
discussion because I think we can be creative, and we can try 
things. I think there is no reason why we cannot take several 
ideas, try them out, see what works best. But I do not want to 
give up on this discussion.
    I thank you for allowing me to be here today, and I thank 
all of you for the wonderful tour that you gave us today. It 
certainly gave us a better insight. This is an important 
facility. LAX is the economic engine of this area, all of the 
South Bay and my district. I appreciate you. I appreciate all 
of the tremendous responsibility that you have. I want to be 
part of the solution, not part of the problem. Thank you very 
much.
    Mr. Hudson. I thank the gentlelady. Now I recognize the 
gentlelady from California, Ms. Brownley.
    Ms. Brownley. Thank you, Mr. Chairman, and I want to thank 
you, and Chairman McCaul, and Ranking Member Thompson for 
having this important hearing here today. As someone who 
travels every week, as my colleague, Ms. Waters, and I both do, 
to and from LAX, I have to say I feel very, very safe. But as 
Chairman McCaul mentioned, we cannot be complacent, and I think 
this incident informs us on changes we need to make to improve 
all of our security.
    I want to thank Chief Gannon and all of the men and women 
who serve with you to protect us here at LAX, and to Mr. 
Pistole, and all of the TSA Officers who work very, very hard 
every single day, and who put their protection or put our 
protection over theirs every single day to ensure our safety. I 
have to state that with serving, I believe, over 200,000 people 
every single day here at LAX, it is like a major public event 
that takes place every single day.
    So I want to thank all of the witnesses who are here today 
and their willingness to answer our questions. Hopefully the 
very tragic death of Transportation Security Officer Gerardo 
Hernandez and the wounding of other TSA employees and a 
passenger at LAX on November 1 will never, ever happen again. 
But it is incumbent on all of us to work together to identify 
possible improvements to safety and security for TSA employees 
and our traveling public.
    However, the shooting also raised another serious issue, 
and one that I believe we must address. As you know, current 
law does not provide TSA Officers with death benefits like 
those offered to firefighters, police officers, FBI agents, or 
State troopers. I am just naming a few of the law enforcement 
personnel who all receive death benefits. That is why I have 
introduced the Honoring Our Fallen TSA Officers Act, which 
seeks to remedy this inequity.
    My bill would amend Federal law to provide for the 
eligibility of a TSA employee to receive public safety 
officers' death benefits. As we have learned today, and the two 
TSA Officers who are here with us today, Officers Grigsby and 
Speer, and all the TSA employees who demonstrate courage and 
bravery every single day in hopes of never having another 
November 1 incident. God forbid that an incident like this ever 
happens again as well as the husband of Ms. Hernandez, who is 
with us today. But if another TSA Officer ever dies in the line 
of duty, I believe that these benefits are critically important 
to their families.
    So with that, I wanted to ask Mr. Pistole, having served in 
the FBI and now with TSA, what is your opinion on whether TSO 
or TSA Officers should be afforded the same benefits as the 
Federal partners that help to secure this country every single 
day?
    Mr. Pistole. Well, first, Congresswoman, let me thank you 
for initiating the bill to recognize TSA employees as public 
safety officers to receive that benefit. Obviously it would be 
a tremendous benefit to TSA overall, particular to the 
Hernandez family, in this instance. You're right, hopefully 
would never be needed again, but I greatly appreciate your 
initiation and support of that, and would hope that that would 
come to fruition retroactively obviously, and then be proactive 
in terms of any future losses. Tremendous appreciation and 
support. On behalf of all the men and women of TSA, thank you.
    Ms. Brownley. Well, thank you very much. You know, I 
certainly would appreciate it if you and the organization 
could, and I know you have taken a look at the bill. But if you 
could take a deeper look at the bill and provide any feedback 
as we move forward with it, I would appreciate it very, very 
much.
    I see that my time has almost expired, so I will yield 
back, Mr. Chairman.
    Mr. Hudson. Thank the gentlelady. I would like to recognize 
the Chairman of the full committee for any closing statement 
you may have, Mr. McCaul.
    Chairman McCaul. Thank you, Mr. Chairman. Let me just say 
again to Ana, our thoughts and prayers are with you. I know we 
can never undo what has been done, but we want to make you 
whole again as much as we possibly can. We are determined to 
help you.
    To Administrator Pistole, thanks for the fine job that you 
do and your officers do under very, as I said, difficult 
circumstances, particularly in this case. Chief Gannon, the 
response time of your officers responding to the threat in less 
than 5 minutes is to be commended.
    Finally, Ms. Lindsey, I did not get to ask you a question, 
but I did want to close by commending you as well for the model 
that you have created of cooperation in your command center. I 
think it is important that the general public be aware of what 
you have done even before this incident, but more so after, 
pulling together the relevant agencies to work together to 
better prevent threats like this from happening. Again, very 
similar to a joint terrorism task force mode where you bring 
all the relevant players into the same room with video 
equipment so that God forbid something like this happens again, 
we will be able to respond very quickly and protect the 
traveling public.
    So with that, I will just close by saying, Mr. Chairman, 
thank you for your leadership in holding this hearing. To 
Maxine Waters, thanks for hosting us in your fine district. You 
are a very lucky woman. The weather is very nice here.
    [Laughter.]
    Chairman McCaul. It is a little bit better than Washington, 
DC right now.
    Ms. Waters. Yes.
    Chairman McCaul. Again, Mr. Chairman, thanks for your 
leadership.
    Mr. Hudson. Thank you, Mr. Chairman. I thank our witnesses 
for your testimony and the Members for your questions today. I 
have committed to working together in a bipartisan way to look 
at lessons learned to make sure that Officer Hernandez did not 
die in vain, to do what we can as our responsibility as 
representatives of the people to go forward and make this 
country safer for the flying public, to assist the law 
enforcement TSA airport administrators around the country and 
the tough job they do every day. So I thank you for making this 
possible.
    I would point out that Members of the subcommittee may have 
some additional questions for the witnesses, and we ask that 
you respond to these in writing. But without objection, the 
subcommittee stands adjourned.
    Ms. Waters. Mr. Chairman, before you----
    Mr. Hudson. You caught me before I hit the gavel. The 
Chairman recognizes Ms. Waters.
    Ms. Waters. I need unanimous consent just to take care of 
something I did not care of. I just really realized that Mr. 
Tony Grigsby and Mr. James Speer, the officers who were shot, 
are here.
    Mr. Hudson. Yes, ma'am.
    Ms. Waters. I just wanted to thank you so very much. I am 
so pleased that you are getting well and you are back to work. 
Thank you so much. Thank you, Mr. Chairman.
    Mr. Hudson. Yes, ma'am. Without objection----
    [Laughter.]
    Mr. Hudson [continuing]. The subcommittee stands adjourned.
    [Whereupon, at 2:21 p.m., the subcommittee was adjourned.]














                            A P P E N D I X

                              ----------                              

     Questions From Chairman Michael T. McCaul for John S. Pistole
    Question 1. Does TSA consider legislative report language to be 
legally binding?
    Answer. The Government Accountability Office (GAO), in its 
Principles of Federal Appropriations Law, states that legislative 
report language ``will not be used to add requirements that Congress 
did not include in the statute itself.'' The GAO adds that legislative 
report language ordinarily will not be used to controvert clear 
statutory language. In Cherokee Nation v. Leavitt, the Supreme Court 
expressly stated that legislative report language does not bind 
Executive agencies. 543 U.S. 631, 646 (2005) (``(L)anguage contained in 
Committee reports is not legally binding.'') In adhering to the Supreme 
Court ruling and the GAO guidance, the Transportation Security 
Administration (TSA) makes every effort to be responsive to legislative 
report language.
    Question 2. TSA has stated that it is able to perform screening 
operations at ``3 to 9 percent'' greater cost efficiency than Screening 
Partnership Program (SPP) contractors providing the same security 
service. Does the Federal Cost Estimate (FCE) TSA utilizes to set 
maximum allowable price bids in SPP contract solicitations represent 
TSA's costs for providing security screening services or does it 
represent the total cost to the Federal Government?
    Answer. The reference made to 3 percent to 9 percent is from a 
Government Accountability Office (GAO) report update in 2011 (GAO-11-
375R) which included alternative approaches to formulating estimates. 
As reflected in the report, this range was for a point in time and was 
a composite average for all participants in the program. Estimates vary 
from airport to airport and are dependent on security requirements, 
which are known to change as a result of such things as changes to the 
configuration of the airport, passenger throughput, and equipment 
requirements. Although TSA calculates all relevant costs, only those 
that impact TSA's budget are included in the Federal Cost Estimate 
included in the Request For Proposal.
    The Transportation Security Administration (TSA) is currently 
pursuing an independent study of the Screening Partnership Program as 
related to cost and performance comparisons. TSA intends to include, as 
part of this study, a full assessment of the existing methodology, 
proposed changes and potential impacts of implementing those changes. 
This independent report is expected to be provided to GAO for its 
review within 1 year of enactment of the fiscal year 2014 budget.
    Question 3. If a contract is awarded below the FCE then is that 
contract more cost-efficient than using Federal screeners?
    Answer. The Transportation Security Administration awards contracts 
under the Screening Partnership Program that provide the best value to 
the Government and do not compromise security or detrimentally affect 
the cost efficiency or effectiveness of screening passengers or 
property as required by the FAA Modernization and Reform Act of 2012 
(Pub. L. 112-95). Upon conclusion of the evaluation process which 
includes Federal Cost Estimate criteria, the award is made to the 
responsible Offeror whose proposal, conforming to the solicitation, 
will be most advantageous to the Government.
    Question 4. TSA staffs exit lanes at airports that they have deemed 
collocated with the passenger screening checkpoint. At present, there 
is no Nation-wide standard that defines or measures how the TSA 
determines which exit lanes are collocated versus non-collocated with a 
passenger screening checkpoint. What specific criteria does TSA use to 
determine which exit lanes are considered collocated with a passenger 
screening checkpoint?
    Answer. The Bipartisan Budget Act required the Transportation 
Security Administration (TSA) to continue to meet access control 
responsibilities for exit lanes for those lanes where TSA was meeting 
those responsibilities on December 1, 2013. As required by the 
Bipartisan Budget Act, TSA staffs the required exit lanes regardless of 
whether or not the exit lane is collocated.
    Question 5. Is it TSA policy to not staff exit lanes that are 
modified or reconfigured after December 12, 2013?
    Answer. In cases where airport remodeling or reconfiguration of an 
exit lane is such that the location essentially remains the same, exit 
lane access control responsibilities will be staffed in the same manner 
it was staffed on December 1, 2013. If remodeling, reconfiguration, or 
construction significantly changes the location of existing exit lanes, 
requiring additional staffing and resources, TSA is not statutorily 
obligated to monitor those exit lanes. TSA intends to continue to 
assess options for realizing efficiencies and appropriately satisfying 
access control functions.
  Questions From Ranking Member Bennie G. Thompson for John S. Pistole
    Question 1a. The report TSA released on March 26, 2014, titled 
Enhancing TSA Officer Safety and Security: Agency Actions and Path 
Forward, states that the agency will issue ``recommended standards'' 
which call for increased law enforcement presence at passenger 
checkpoints at peak travel times.
    With the majority of airports now using the flexible-response model 
for responding to incidents at passenger checkpoints, why is the agency 
issuing recommended standards rather than mandating that police 
officers be stationed at passenger checkpoints at peak travel times?
    Answer. The Transportation Security Administration (TSA) considered 
a variety of options to enhance law enforcement presence at checkpoints 
during peak travel times, but decided against mandating this 
requirement after receiving significant feedback from airport law 
enforcement and stakeholder groups. While TSA and law enforcement 
stakeholders believe placing police officers at checkpoints during peak 
travel times is a desirable and prudent goal, the stakeholders also 
believe strongly that airport law enforcement entities need the 
flexibility to be able to respond to incidents anywhere on airport 
property. As a result, TSA chose to maintain the existing law 
enforcement requirements codified in the current Security Directive and 
Airport Security Programs, and instead, issued a recommendation via 
Information Circular IC 14-01 to increase law enforcement presence 
during peak travel times at high-traffic locations to provide visible 
deterrence and quicker incident response time.
    Question 1b. Please explain for the subcommittee how and the extent 
to which TSA trains its workforce on how to utilize communications 
equipment so that the workforce can effectively communicate with State, 
local, and Federal partners during an emergency.
    Answer. The Transportation Security Administration (TSA) employees 
are trained to use multiple methods of communication. Transportation 
Security Officers (TSOs) utilize Land Mobile Radios to communicate from 
the checkpoint to the TSA Coordination Center. The TSOs have also been 
provided with local police emergency phone numbers and are encouraged 
to program these numbers into their personal cell phones. At some 
airports, Duress Alarms and Red Phones are available to notify either 
the local law enforcement or airport operations center of an emergency; 
and TSA is working to install these devices at all airports. Training 
on radio communications for the TSOs is conducted on TSA's On-Line 
Learning Center, followed by localized On-the-Job training to address 
nuances due to the different layouts and checkpoint configurations at 
the various airports. The Coordination Centers are responsible for 
communicating with State, local, and Federal partners during an 
emergency utilizing the Voice Over Internet Protocol Phone or cell 
phone. Other forms of communications utilized by the Coordination 
Centers include the High-Frequency Radios and Satellite Phone. The 
Coordination Centers also monitor the Transportation Events Network, a 
24/7 National-level alert network conducted over a teleconference 
bridge which enables the airports to have situational awareness of 
incidents at other airports.
    Question 1c. Please explain for the subcommittee the role of the 
Aviation Security Advisory Committee during TSA's review of the active-
shooter incident at Los Angeles International Airport on November 1, 
2013.
    Answer. The Transportation Security Administration hosted three 
stakeholder meetings throughout the review process (November 7, 2013, 
January 8, 2014, and March 21, 2014) and invited the stakeholders to 
provide input and feedback to the agency review of the Los Angeles 
International Airport shooting and proposed actions. While the Aviation 
Security Advisory Committee (ASAC) was not formally convened, 22 of the 
31 organizations who sent representatives to one or more of these 
sessions are affiliated with the ASAC.
    Question 1d. What protocols are Transportation Security Officers 
trained to follow when they identify a weapon either on a passenger's 
person or in their carry-on bags?
    Answer. If a weapon is identified on a passenger, the protocol for 
the Transportation Security Officers (TSO) is to stop the screening 
process and notify the supervisor. The supervisor will call for a local 
law enforcement officer. If the weapon is identified in the passenger's 
carry-on bag, the TSO will maintain control of the bag and notify the 
supervisor. The supervisor will call for a local law enforcement 
officer.
    Question 2a. The President's budget for fiscal year 2015 proposes a 
decrease in Visible Intermodal Preparedness and Response (VIPR) teams 
from 37 total teams to 33. In the aftermath of the LAX shooting, TSA 
responded by adjusting the ratio of VIPR teams from 30-70 ground-to-
aviation ratio, to 50-50.
    Given the large number of airports that could benefit from the 
deterrence and mitigation factor that VIPR teams are intended to 
provide, how do you envision the proposed reduced number of VIPR teams 
being an effective tool for securing checkpoints going forward?
    Question 2b. What resources are in place to help TSOs in the 
immediate aftermath of tragic events such as the shooting at LAX on 
November 1, 2013, in terms of coping with the stress and other mental 
issues that undoubtedly stem from such a tragedy?
    Answer. To increase the security of Transportation Security 
Administration (TSA) personnel and passengers at checkpoint areas, TSA 
has implemented the use of Visible Intermodal Prevention and Response 
(VIPR) resources at airports Nation-wide to augment current 
transportation security and law enforcement resources at the airports. 
The proposed decrease in VIPR teams in fiscal year 2015 should have 
minimal impact on program effectiveness as TSA will maintain its VIPR 
operations in those areas of highest risk, including at the checkpoint.
    TSA has an Employee Assistance Program (EAP), which is contracted 
through Federal Occupational Health. The EAP includes crisis 
management, personal and group counseling, and referral services for 
all TSA employees and their immediate families. EAP services are 
available to all TSA employees 24 hours a day, 7 days per week, via a 
toll-free number. EAP played an important role in assisting Los Angeles 
International Airport management and staff in the aftermath of this 
tragedy by providing individual and group counseling services 
throughout the months of November and December 2013.
    Question 3a. During an emergency, people look to uniformed 
personnel for direction. In the checkpoint environment the first 
uniformed personnel a passenger is likely to see will be a 
Transportation Security Officer.
    Are Transportation Security Officers trained in crisis management 
and incident management?
    Answer. The Transportation Security Administration's (TSA) 
Transportation Security Officers (TSOs) are trained to respond to a 
variety of emergencies at the airport. The TSOs regularly exercise 
emergency drills that apply to a wide variety of scenarios to include 
fire, natural disaster, and active shooter. Following the LAX shooting, 
TSA incorporated a reminder in shift briefs requiring that supervisors 
conduct briefings for employees regarding evacuation routes and 
rendezvous points identified in the local mitigation plan. As an 
additional measure in the aftermath of November 1 shooting, TSA issued 
an Operations Directive which requires every TSO to participate twice 
per year in an evacuation drill that includes a physical orientation of 
evacuation routes, rally points, and shelter-in-place locations. TSA 
also regularly conducts security breach drills to practice what to do 
when a violation occurs in a sterile area. TSA has also mandated the 
workforce take the Federal Emergency Management Agency Active-Shooter 
Training Course. Local management personnel also conduct tabletop and 
live exercises, often with local stakeholders, to exercise the Tactical 
Response Plans including Continuity of Operations.
    Question 3b. A contract airport service worker first called in the 
shooting and another service worker encountered the shooter and was 
able to describe him and help identify his location in the terminal for 
police personnel. There are some 8,900 service workers at LAX, spread 
throughout the terminals in far greater numbers than TSA employees and 
LAWAPD personnel combined. Given the role these workers played as eye-
witnesses and as the ``first-first responders,'' wouldn't it benefit 
everyone for these workers to receive training aimed at honing their 
observation and communication skills to be able to work effectively 
with authorities and the public in emergency situations?
    Answer. Yes. TSA recently released an Information Circular with 
recommendations to train personnel and airport stakeholders in active-
shooter security measures and exercise active-shooter plans bi-
annually. The Federal Emergency Management Agency offers a free Active-
Shooter Training Course which is accessible to the public. In addition, 
local TSA management invites stakeholders to participate in Tactical 
Response Plans exercises for a multitude of scenarios.
    Question 3c. TSA and FEMA administer the Transit Security Grant 
Program, which funds major costs associated with preparedness training 
for workers on the Nation's public transit systems. There does not 
appear to be a similar program for airport workers. Would you be in 
favor of creating a new program for airports similar to the existing 
program for transit or adapting an existing grant program to serve this 
purpose?
    Answer. The Nation's airport system has sufficient programs and 
structure to provide preparedness training for those who work in the 
Nation's aviation system. Airport operators are required by TSA 
regulations to provide security awareness training or advanced training 
on specific measures that can be applied to mitigate immediate or 
expected threats. Airport operators also conduct annual preparedness 
and response exercises as required by their Airport Security Program. 
Collectively, the aviation industry currently provides training to all 
workers in the aviation environment.
    Question 4a. The report TSA released on March 26, 2014, titled 
Enhancing TSA Officer Safety and Security: Agency Actions and Path 
Forward, states that the agency will expand duress alarm coverage at 
screening locations in airports across the Nation in response to the 
shooting at LAX on November 1, 2013, and subsequent review.
    What procurement vehicle does TSA intend to use to acquire the 
additional 4,500 duress alarms the agency has announced it will install 
across the country?
    Question 4b. What is the anticipated cost of the procurement and 
installation of the new duress alarms?
    Answer. The Transportation Security Administration (TSA) is using 
the Security Equipment Systems Integration Multiple Award Indefinite 
Delivery/Indefinite Quantity contract for the procurement of the duress 
alarms.
    TSA is currently evaluating the proposals received for this effort. 
The Government's estimate is one of many tools utilized to validate 
cost and therefore procurement-sensitive.




LESSONS FROM THE LAX SHOOTING: AIRPORT AND LAW ENFORCEMENT PERSPECTIVES

                              ----------                              


                         Thursday, May 29, 2014

             U.S. House of Representatives,
           Subcommittee on Transportation Security,
                            Committee on Homeland Security,
                                                    Washington, DC.
    The subcommittee met, pursuant to call, at 2:31 p.m., in 
Room 311, Cannon House Office Building, Hon. Richard Hudson 
[Chairman of the subcommittee] presiding.
    Present: Representatives Hudson, Rogers, Brooks, Richmond, 
and Swalwell.
    Mr. Hudson. The Committee on Homeland Security, 
Subcommittee on Transportation Security, will come to order.
    The subcommittee is meeting today to hear testimony 
examining lessons learned and law enforcement perspectives from 
the LAX shooting.
    I recognize myself for an opening statement.
    I will start by saying I apologize for the late start. But 
Congressman Swalwell and I have to live by the bells here and 
vote when we have got to vote and so we apologize to everybody 
who has been waiting, but we really appreciate you being here.
    The subcommittee is meeting today to continue its review of 
lessons learned from the senseless act of violence that 
occurred at Los Angeles International Airport last year and we 
are here to assess how we can better secure our Nation's 
airports and transportation systems.
    On the morning of November 1, 2013, a lone gunman entered 
LAX's Terminal 3 and brutally shot and killed Transportation 
Security Officer Gerardo Hernandez while also shooting and 
wounding one passenger and two other TSOs, who had heroically 
stayed behind to assist an elderly gentleman in evacuating the 
checkpoint.
    The LAX shooting resulted an inspiring display of bravery 
by emergency first responders, law enforcement officers, and 
TSA personnel. In March, I, along with Chairman of the full 
committee Mike McCaul, full committee Ranking Member Thompson, 
and several other Members traveled to LAX and conducted a site 
visit and a field hearing, and we were able to meet with first 
responders who were there that day and to better understand and 
comprehend the complexity and the scope of the response that 
day to the shooting.
    While I remain impressed by the planning and execution of 
the incident response at LAX, it is incumbent upon this 
subcommittee and TSA to ensure that airports of all sizes are 
aware of best practices and security incident response and are 
prepared to work together with law enforcement to mitigate such 
events in the future.
    As our Nation faces an evolving threat landscape that 
focuses in on soft targets, as we have seen in the tragic 
bombings of the Boston Marathon, we all must recognize the 
vulnerabilities airports present and need to be adequately 
prepared to handle such events.
    Indeed, airports around the world have experienced such 
incidents in the past. The Frankfurt airport shooting, the 
Moscow airport bombing in 2011, as well as the Glasgow airport 
car bomb in 2007, show a history of attacks perpetrated against 
the unsecured areas of airport facilities.
    With approximately 450 Federalized airports in the United 
States, effective coordination between law enforcement, airport 
operators, first responders, and TSA is critical to protecting 
the public in an emergency and in mitigating an incident as 
quickly as possible.
    I believe that better interoperable communications, regular 
emergency response and evacuation drills, equipment testing, 
and well-articulated response plans are the basis for 
accomplishing this objective.
    These observations reflect lessons learned from the LAX 
shooting as we saw some confusion and delay in establishing an 
incident command post, communicating effectively between 
responding agencies and keeping the public at LAX informed as 
to what was happening and where they should go for safety.
    The after-action review conducted by LAX admits that normal 
operations could have resumed much sooner had the response 
effort been better coordinated.
    I look forward to hearing from our witnesses, their own 
thoughts on security incident response and how their airports 
are prepared to deal with such events. I also am eager to hear 
your thoughts on TSA's after-action review and recommendations 
for enhanced law enforcement presence at ticket counters and 
security checkpoints during certain peak travel times.
    While TSA is responsible for screening passengers and 
helping to prevent acts of terrorism against the aviation 
sector, the overall security and safety of the airport 
environment primarily lies with airport, local, and State law 
enforcement actions stationed in and around the airport.
    Whether it be an active shooter or an individual breaching 
perimeter security and stowing away in the wheel well of an 
aircraft, it is important for the subcommittee to understand 
the unique challenges facing the airport stakeholders and what 
can be done to detect and respond to perceived and known 
threats.
    I thank the witnesses again for being here and look forward 
to their testimony.
    I now recognize the Ranking Member of the subcommittee, the 
gentleman from Louisiana, Mr. Richmond, for his opening 
statement.
    Mr. Richmond. Thank you, Mr. Chairman. Thank you for 
calling the hearing today.
    Your continued focus on the tragedy events that resulted in 
the death of Transportation Security Officer Hernandez is 
appreciated.
    I would also like to thank our panel of witnesses for being 
here today.
    Mr. Capello and Mr. Landguth will provide the airports' 
perspective on how the tragic events at Los Angeles 
International Airport on November 1, 2013, prompted changes in 
preparedness and response planning for similar events.
    Mr. Murphy, president of the Airport Law Enforcement 
Agencies Network, will share with us the collective sentiment 
and strategies being implemented by airport law enforcement 
agencies across the Nation.
    We learned a great deal about the response on the day of 
the shooting and what can be done to improve upon that response 
from the respective reports released in March by the 
Transportation Security Administration and Los Angeles World 
Airports. Those reports expose several flaws and identified 
viable solutions that can and should be implemented to ensure 
that similar future incidents are mitigated or deterred 
altogether.
    Today, we have the opportunity to understand how the 
airport law enforcement community and individual airports are 
implementing these recommendations and learn about what more 
can be done.
    Having said that, Los Angeles World Airports as well as 
other airports throughout the Nation, cannot implement all of 
the reforms necessary without assistance from local and Federal 
partners. A significant portion of the reports address the need 
for interoperable communications and reliable emergency 
infrastructure and the technology advanced society that we live 
in; it is hard to accept that some panic buttons within 
airports do not work and that we cannot figure out a way to 
ensure first responders can communicate seamlessly during an 
emergency.
    Undoubtedly, Federal funds and resources will be required 
to ensure all of the needed reforms are implemented. That 
places the onus on Congress to provide the funding needed to 
make planned reforms a reality.
    Mr. McClain, thank you for being here today. Your 
perspective is extremely valuable. In your position as 
president of the Los Angeles Airport Peace Officers 
Association, your insight comes from having first-hand 
experience at LAX on that tragic day. I am interested in 
hearing more about the concerns you outline in your prepared 
testimony regarding airport law enforcement's interaction with 
the Transportation Security Administration.
    Given that law enforcement and TSA share a common goal, the 
safety and security of the traveling public, it was troubling 
to read in your testimony that recommendations made to TSA 
prior to the shooting were not acted upon.
    Before yielding back, I would like to emphasize the 
important work Transportation Security Officers do to protect 
our Nation against attack. As Mr. McClain points out in his 
prepared testimony, airplanes and airports remain desired 
targets of terrorists around the world. Unfortunately, there is 
a tendency to marginalize that threat as we become consumed 
with the desire to expedite screening for larger and larger 
segments of the population.
    Officer Hernandez reported to work at LAX on November 1, 
2013, with the goal of ensuring our aviation sector remains 
secure and passengers could travel freely. In a senseless act 
of violence, his life was cut short while working to protect 
the rest of us. Today we will strive to identify ways to better 
safeguard the officers we task with keeping our aviation sector 
secure.
    Mr. Chairman, I am looking forward to working with you on 
legislation derived from the subcommittee's oversight work that 
will enhance preparedness and response capabilities at airports 
when incidents occur.
    Before yielding back, I would ask unanimous consent that a 
collection of news articles regarding the November 1 shooting 
at LAX provided to the committee by the Service Employees 
International Union be inserted into the record.
    Mr. Hudson. Without objection.
    [The information follows:]
       Articles Submitted For the Record by Hon. Cedric Richmond
                              May 29, 2014
           reports depict utter confusion after lax shooting
CBS/Associated Press, March 18, 2014, 7:15 AM
http://www.cbsnews.com/news/reports-depict-utter-confusion-after-lax-
shooting/

    A report on the emergency response to last year's shooting at Los 
Angeles International Airport cites serious shortcomings in 
communication between agencies that left major commanders in the dark 
and a long lag in establishing a coordinated response.
    An early copy of the report to be presented to airport 
commissioners Tuesday was obtained by The Associated Press.
    It cites the ``heroism'' of officers who shot and took suspect Paul 
Ciancia into custody after he'd allegedly killed a Transportation 
Security Administration officer and injured three people Nov. 1.
    But it details lapses in coordination and technology between police 
and fire departments, which set up separate command posts that didn't 
unify for 45 minutes.
    The report says police and fire commanders arrived on the scene 
with no idea where to go or what the others were doing.
    Suspect Paul Ciancia, 24, was shot and quickly subdued by police. 
The Pennsville, N.J., native has pleaded not guilty to 11 federal 
charges, including murder of a federal officer.
    A separate, union report obtained by the AP last week said 
thousands of LAX workers had no idea what to do when the gunman opened 
fire in a terminal--because they were inadequately trained to deal with 
an emergency.
    Members of SEIU United Service Workers West--sky caps, baggage 
handlers, wheelchair attendants and janitors--weren't prepared for an 
evacuation, were hampered by poor communication, and were essentially 
on their own during the chaos, as panicked, fleeing passengers ran onto 
the tarmac and dove onto luggage conveyer belts. In some instances, 
passengers were left alone in wheelchairs during the shooting.
    Many issues outlined in the union report and by the airport itself 
were identified as deficient in 2011 by a special panel of experts 
convened by the former mayor to review public safety at LAX. Los 
Angeles World Airports began revamping emergency plans that were to be 
completed last summer. But in June, the airport commission gave the 
contractor 18 more months.
    LAX spokeswoman Nancy Castles said in an email that the airport's 
review will discuss including the ``airport-wide community'' in 
emergency response efforts.
    Peter Goelz, former managing director of the National 
Transportation Safety Board and an aviation safety and security 
consultant, said a lack of coordinated planning during an emergency can 
be a ``fatal flaw'' that endangers the public and workers.
    ``The airline industry and airports in particular have spent 
hundreds of millions of dollars since 9/11 in emergency response 
preparedness and upgrades, and the reality is that for airport service 
workers, they're always the last ones considered in the planning even 
though they have absolutely the most direct contact with passengers,'' 
said Goelz, who had no role in the report.
    The union conducted the study after the airport declined to include 
its members in a comprehensive review of the emergency response slated 
for release Tuesday.
    ``Passengers are placed at greater risk as a result of a lack of 
effort on the part of the airport authority to include these workers in 
emergency response coordination and communications, as well as a lack 
of training and investment in the contract service workers who provide 
passenger services on behalf of the airlines,'' according to the report 
by the union that represents about 2,500 of the 8,900 service workers 
at LAX.
    The union report, which will be released this week, calls for 
emergency response training, participation in drills, and specialized 
training for people who deal with disabled passengers or security.
    The AP previously reported that the airport investigation found 
several lapses that led to a delayed response. The only two armed 
officers on duty in Terminal 3 were out of position when the shooting 
began; medical help wasn't quickly provided to the TSA Officer who 
died; and an emergency phone system and panic buttons weren't updated 
or, in some cases, even working.
    Airport officials said in a recent hearing that they're creating 
teams to update travelers during emergencies and improve the public 
announcement system, which currently can't broadcast throughout the 
airport. They said the review also looks at providing more evacuation 
training and instruction to employees on how to shelter large numbers 
of people.
    The union report detailed multiple instances where airport service 
workers were critical to the emergency response. One service worker was 
the first to alert airport police dispatch about the shooting. A union 
security worker pointed responding officers toward the gunman. Moments 
earlier, the worker had faced the gunman, who repeatedly asked him, 
``Where is TSA?"
    While TSA Officers followed practiced emergency procedures, union 
officials said workers were given little or no direction during the 
attack and the airport shutdown that lasted more than five hours. More 
than 23,000 travelers were evacuated or held in areas without official 
explanation or information. Much information--even for airport 
workers--was obtained through news reports, social media, and messages 
from family and friends.
    Fanny Fuentes, who rotates between airport jobs and has worked at 
LAX for 14 years, was in Terminal 1 when 15 passengers tried to enter 
the terminal from the tarmac.
    ``They were running right by the planes on the airfield, probably 
about 10 to 15 feet away from them, which is really dangerous, 
especially close to the engines,'' Fuentes said.
    When someone yelled that there was a shooting inside the terminal, 
a crowd of about 100 travelers ran outside toward the runway. Disabled 
and elderly passengers were left unattended as people fled.
    ``They were just sitting there shaking like, `What is going to 
happen to us?' '' Fuentes said.
    The union report, which didn't compare emergency readiness at other 
airports, also cites multiple instances when radios issued to some 
workers failed because of battery or transmission problems. Veteran 
workers said the airport provided inadequate or no training on 
evacuation routes and procedures.
    Multiple employees said they were better prepared for emergencies 
because of training at previous jobs at places such as Taco Bell, 
Disneyland, or Wal-Mart.
                                 ______
                                 
   lax review finds inadequacies in airport's warning systems, mass 
                             communication
Brenda Gazzar, Los Angeles Daily news, March 18, 2014
    http://www.whittierdailynews.com/general-news/20140318/lax-review-
finds-inadequacies-in-airports-warning-systems-mass-communication

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


FILE.--In this Nov. 1, 2013 file photo provided to the AP, which has 
been authenticated based on its contents and other AP reporting, police 
officers stand near a weapon at the Los Angeles International Airport 
after a gunman opened fire in the terminal, killing one person and 
wounding several others. A report on the emergency response to the 
shooting cites serious shortcomings in communication between agencies 
that left major commanders in the dark and a long lag in establishing a 
coordinated response. (AP Photo/File)
    In responding to last year's fatal Terminal 3 shooting, Los Angeles 
International Airport officials had an inadequate emergency alert and 
warning system, failed to focus on incident command basics and fell 
short in communicating to passengers, a report released Tuesday found.
    The 83-page broad internal review, conducted with an outside 
consultant, called the overall response ``successful'' but shed light 
on lessons learned following the Nov. 1, 2013, shooting.
    Los Angeles Mayor Eric Garcetti hailed LAX officers for responding 
``expertly and heroically'' in quickly stopping suspect Paul Ciancia, a 
Sun Valley resident who had allegedly targeted TSA Officers and had 
more than 100 unused rounds of ammunition. The shooting left 
Transportation Security Administration Officer Gerardo Hernandez dead 
and three others, including two TSA Officers, wounded. Ciancia has been 
indicted on 11 counts in relation to the shooting, including murder of 
a federal officer, and is awaiting trial.
    ``I want also be clear that we got lucky out there,'' Garcetti told 
reporters at a news conference at LAX. ``We're lucky the shooting 
didn't take more lives. We're lucky that day the casualty list was not 
higher. I asked for this report to make sure we do everything we can 
not to depend on luck as well as the heroic work of our first 
responders.''
    Among the key recommendations are that emergency alert and warning 
systems, including duress phones or ``red phones,'' need to be updated 
and technologies for 9-1-1 notifications to airport police must be 
better integrated.
    ``The right systems, clear lines of responsibility and well-
documented processes for alert notification are critical to avoiding 
delay in mobilizing a response during the early stages of any 
emergency,'' the report stated.
    The review also found that there needs to be a continuing emphasis 
on incident command basics and that public mass notification at the 
airport ``was lacking.''
    LAX is now developing a centralized public address system to 
facilitate communication around the airport, adding nearly a dozen 
message signs for incoming roadways and finding a way to send emergency 
messages to travelers' cellphones at the airport, Garcetti said.
    ``Our response has to be in this day and age both analog and 
digital, face-to-face and virtual, something we see both actively and 
feel passively,'' he said.
    In addition, all Los Angeles Airport International telephones and 
panic alarms in the terminals will transmit location information to 
dispatch when an emergency call is made. On Nov. 1, a TSA supervisor 
picked up an LAX telephone that rings airport police during the 
incident but she dropped the phone when she had to evacuate 
immediately. Because of a ``glitch'' in the system, officers couldn't 
tell where the call was coming from, said Los Angeles World Airports 
Police Chief Patrick Gannon.
    ``All our phones were designed and developed so caller 
identification would pop up on the screen,'' Gannon told LAWA 
commissioners. ``That had fallen off the grid and was not working 
properly.''
    Garcetti also called on the state officials to upgrade the 9-1-1 
calling system so that calls made from cellphones at the airport aren't 
automatically routed to the California Highway Patrol officials but to 
airport police. In the meantime, airport employees are being urged to 
program the airport police dispatch number into their cellphones, he 
said. Training will also be given to airport employees so they are 
better equipped to help passengers evacuate during a crisis, he said.
    ``While LAX is ahead of most airports nationally and 
internationally, the after-action report is a template for continuing 
evolution at LAX,'' LAWA Executive Director Gina Marie Lindsey said. 
``Our learning will be a catalyst for change at other airports all over 
the world.''
    Meanwhile, members of a union that includes airport workers such as 
baggage handlers, wheelchair attendants and skycaps, asked Los Angeles 
World Airports commissioners to consider the report they released on 
the incident.
    The report by SEIU United Service Workers West found that 
passengers ``were placed at greater risk as a result of a lack of 
effort on the part of the airport authority to include these workers in 
emergency response coordination and communications as well as a lack of 
training and investment into the contract service workers who provide 
passenger services on behalf of the airlines.''
    LAX wheelchair attendant Fanny Fuentes, 41, was praised by Garcetti 
for her efforts in helping to evacuate Terminal 3 and disabled 
passengers during the Nov. 1 shooting. Fuentes, a member of SEIU United 
Service Workers West, said she was encouraged that the mayor promised 
emergency training to the airport's employees and other measures to 
help secure the safety of passengers and others.
    ``I'm excited because I've been with the airport since `96, and I 
haven't seen that happening,'' Fuentes said. ``For the mayor to commit 
himself to do it publicly, I think there is going to be a change.''

    Mr. Richmond. With that, Mr. Chairman, I yield back.
    [The statement of Mr. Richmond follows:]
                  Statement of Hon. Cedric L. Richmond
                              May 29, 2014
    Thank you, Mr. Chairman. Thank you for convening this hearing. Your 
continued focus on the tragic events that resulted in the death of 
Transportation Security Officer Hernandez is appreciated.
    I would also like to thank our panel of witnesses for being here 
today. Mr. Capello and Mr. Landguth will provide the airport's 
perspective on how the tragic events at Los Angeles International 
Airport on November 1, 2013, prompted changes in preparedness and 
response planning for similar incidents. Mr. Murphy, President of the 
Airport Law Enforcement Agencies Network, will share with us the 
collective sentiment and strategies being implemented by airport law 
enforcement agencies across the Nation.
    We learned a great deal about the response on the day of the 
shooting and what can be done to improve upon that response from the 
respective reports released in March by the Transportation Security 
Administration and Los Angeles World Airports. Those reports exposed 
several flaws and identified viable solutions that can and should be 
implemented to ensure that similar future incidents are mitigated or 
deterred altogether.
    Today, we have the opportunity to understand how the airport law 
enforcement community and individual airports are implementing these 
recommendations and to learn about what more can be done. Having said 
that, Los Angeles World Airports, as well as other airports throughout 
the Nation cannot implement all of the reforms necessary without 
assistance from local and Federal partners. A significant portion of 
the reports addressed the need for interoperable communications and 
reliable emergency infrastructure.
    In the technologically-advanced society that we live in, it is hard 
to accept that some panic buttons within airports do not work, and that 
we cannot figure out a way to ensure first responders can communicate 
seamlessly during an emergency. Undoubtedly, Federal funds and 
resources will be required to ensure all of the needed reforms are 
implemented. That places the onus on Congress to provide the funding 
needed to make planned reforms a reality.
    Mr. McClain, thank you for being here today. Your perspective is 
extremely valuable. In your position as president of the Los Angeles 
Airport Peace Officers Association, your insight comes from having 
first-hand experience at LAX on that tragic day. I am interested in 
hearing more about the concerns you outlined in your prepared testimony 
regarding airport law enforcement's interaction with the Transportation 
Security Administration. Given that law enforcement and TSA share a 
common goal, the safety and security of the traveling public, it was 
troubling to read in your testimony that recommendations made to TSA 
prior to the shooting were not acted upon.
    Before yielding back, I would like to emphasize the important work 
Transportation Security Officers do to protect our Nation against 
attack. As Mr. McClain points out in his prepared testimony, airplanes 
and airports remain desired targets of terrorists around the world. 
Unfortunately, there is a tendency to marginalize that threat as we 
become consumed with the desire to expedite screening for larger and 
larger segments of the population.
    Officer Hernandez reported to work at LAX on November 1, 2013, with 
the goal of ensuring our aviation sector remained secure and passengers 
could travel freely. In a senseless act of violence, his life was cut 
short while working to protect the rest of us. Today, we will strive to 
identify ways to better safeguard the Officers we task with keeping our 
aviation sector secure. Mr. Chairman, I am looking forward to working 
with you on legislation derived from this subcommittee's oversight work 
that will enhance preparedness and response capabilities at airports 
when incidents occur.

    Mr. Hudson. Thank the gentleman.
    Other Members of the committee are reminded that opening 
statements may be submitted for the record.
    [The statement of Ranking Member Thompson follows:]
             Statement of Ranking Member Bennie G. Thompson
    The shooting at LAX resulted in the loss of Officer Hernandez's 
life and served as a stark reminder of the dangers the men and women on 
the front lines of securing our aviation sector face. Unarmed and 
exposed, Transportation Security Officers perform the often thankless 
task of screening approximately 1.8 million passengers per day.
    They do so with limited workplace protections and the great 
responsibility of preventing another terrorist attack on the scale of 
9/11. Given their vulnerability and the critical role they play in 
protecting our homeland, it is essential that airports and the law 
enforcement agencies that serve them have the resources, training, and 
plans in place to ensure a swift and effective response when an 
incident that threatens the safety of Transportation Security Officers 
occurs.
    In March, this subcommittee held a site visit and field hearing at 
LAX to better understand the circumstances surrounding the response to 
the shooting. While the response of the individual police officers who 
prevented further loss of life on that tragic day is to be commended, 
the overall response at LAX left much to be desired.
    Panic buttons at the checkpoint were not in working order. The 
emergency phone Transportation Security Officers have been trained to 
use did not display the location of the incident to the command center, 
and the police, firefighters, and emergency medical personnel 
responding could not communicate via interoperable radios.
    In the wake of the shooting, Administrator Pistole initiated a 
Nation-wide review of the preparedness and response capacity of our 
airports so that we can either prevent or mitigate a similar incident 
in the future.
    As was displayed this past weekend in Santa Barbara, California, it 
may not be possible to prevent a disturbed individual from opening fire 
on innocent strangers in a public setting. That reality, however, 
should not stop us from instituting policies that will improve the 
response to such incidents at our Nation's airports.
    I look forward to hearing from Mr. Capello, the director of 
security at Fort Lauderdale International Airport and Mr. Landguth, the 
president and chief executive officer of Raleigh-Durham International 
Airport regarding the lessons their airports learned from the response 
to the shooting at LAX.
    I am also eager to hear the law enforcement officer's perspective 
from Mr. Murphy and Mr. McClain on how the response to an incident at 
an airport can be improved. Given his position with the Los Angeles 
Airport Peace Officers Association, Mr. McClain is in the unique 
position of being able to help us understand how the response to a 
similar incident at LAX would differ today from that on November 1, 
2013.
    Before yielding back Mr. Chairman, I would be remiss if I did not 
point out that the House has still not acted on legislation introduced 
by Representative Brownley of California that would result in Officer 
Hernandez's family receiving death benefits in the amount of $300,000.
    Making a family who lost their husband and father in the line of 
duty whole should not be a partisan issue, yet, to date, not a single 
Republican Member has co-sponsored Representative Brownley's 
legislation.
    I would encourage the Chairman and all of my Republican colleagues 
to consider cosponsoring H.R. 4026 and to urge their leadership to 
allow for consideration of the legislation on the House floor.

    Mr. Hudson. We are pleased to have a distinguished panel of 
witnesses before us here today.
    Mr. Frank Capello is the aviation security director for the 
Broward County Aviation Department, which operates the Fort 
Lauderdale Hollywood International Airport and the North Perry 
General Aviation Airport. Mr. Capello is responsible for 
managing the aviation department security division, which 
includes oversight and coordination over the law enforcement 
services provided by the Broward County Sheriff's Office. Mr. 
Capello is a member of the Airports Council International World 
Security Standing Committee as well as chairman of the Florida 
Airports Council Security Subcommittee. Prior to joining the 
Broward County Aviation Department, he was an FAA special 
agent, a Federal air marshal, and a TSA Federal security 
director.
    Mr. Michael Landguth serves as the president and CEO of 
Raleigh-Durham International Airport. Airport I use rather 
frequently. Mr. Landguth is responsible for RDU's overall 
staffing, budgeting, strategic planning, and operations. Prior 
to joining the Raleigh-Durham Airport Authority, he served as 
CEO and president of the Chattanooga Metropolitan Airport 
Authority. Mr. Landguth is an accredited airport executive and 
a member of the board of directors of the American Association 
of Airport Executives. He also serves as chairman of the 
Airports Council International North America's Medium Hub 
Caucus.
    Does that fit on a business card? That is quite a title.
    Next we have Mr. Kevin Murphy, who the president of the 
Airport Law Enforcement Agencies Network, ALEAN, and chief of 
police for the Cincinnati Northern Kentucky International 
Police Department. ALEAN helps facilitate communication of law 
enforcement intelligence, actively provides input in the 
formulation of public policy concerning civil aviation 
security, and promotes, sponsors, and conducts a regular 
information sharing network for the benefit of airport law 
enforcement officers throughout the world.
    Mr. Marshall McClain is a police officer and current 
president of the Los Angeles Airport Peace Officers 
Association. This association represents the rank-and-file 
police, firefighters protecting the city's airports, including 
LAX. Officer McClain joined the Los Angeles Airport Police in 
2002. He holds the rank of Police Officer 3, and is assigned as 
a senior lead officer to the patrolled services section at LAX. 
He is a co-founder of the American Alliance of Airport Police 
Officers, and serves on the board of directors for the Peace 
Officers Research Association of California.
    Thank you all for being here.
    The witnesses' full written statements will appear in the 
record.
    The Chairman recognizes Mr. Capello to testify.
    Do we have the lights working here? We have got green, 
yellow, red. Okay, can you see green there? I guess we will get 
a signal for when we have got to start cutting you off there. 
But if you will follow, you will have a yellow light is when 
you have a minute left, I believe, and then the time expires at 
5.
    So, Mr. Capello, you are recognized for 5 minutes. Thank 
you.

    STATEMENT OF FRANK CAPELLO, DIRECTOR OF SECURITY, FORT 
           LAUDERDALE-HOLLYWOOD INTERNATIONAL AIRPORT

    Mr. Capello. Thank you.
    Chairman Hudson, Ranking Member Richmond, and Members of 
the subcommittee. Thank you for the opportunity to be with you 
today to discuss aviation security issues.
    Although random shootings are not new at airports, they are 
prevalent in other public areas. As an example, last Friday, a 
crazed gunman went on a shooting rampage in a popular Santa 
Barbara student enclave. Numerous active shootings have 
occurred throughout the country in the past 12 months. They are 
one of a multitude of aviation security challenges airports in 
the United States have implemented measures to address.
    My oral testimony today will contain two recommendations: 
Training and funding. The current threats to airport terminals 
are diffused, complicated, unpredictable, and can occur in 
different areas within the airport. The FBI reports that 
academic studies of active-shooter statistics reveal that 49 
percent of the time the active shooting ended before police 
arrive. Also of interest is that in 10 percent of the cases, 
the shooter stops and walks away. In 20 percent of the cases, 
the shooter goes mobile, moving to another location. The 
average active-shooter incident lasts 12 minutes, while 37 
percent last less than 7 minutes.
    The training I am recommending would have a goal of adding 
a new layer of ingenuity within the airport environment. This 
training must enhance the awareness of not only first 
responders but must be afforded to all those who work in the 
airport environment. In developing this type of training 
program, there must be varying types of knowledge imparted that 
is customized for the actual responsibilities of the workforce. 
Aviation security incident training offered to first responders 
would be different than the aviation security training offered 
to other employees that work at an airport.
    Second. Federal funding for aviation security initiatives 
such as the training I mentioned must be looked at. There is a 
need to specifically fund aviation security initiatives and 
technology, throughout airports in the United States. The 
amount airports are reimbursed by TSA under the Law Enforcement 
Officer Reimbursement Program has decreased significantly over 
the last several years.
    The continued reduction in the amount of these funds comes 
at a time when funding should be increased as a result of the 
strains being placed upon U.S. airports while they comply with 
an increasing amount of Federal mandates and simultaneously 
address an increase in the number of significant incidents 
impacting aviation security.
    Funding for United States airports was made available in 
the 1980s after a terminated employee used his airport 
identification badge to board PSA flight 1771 and crashed as a 
result of a murder-suicide. All 43 people aboard the aircraft 
died. This funding was used to install an automated access 
controls that are installed today, used to deny restricted area 
access immediately if an employee is no longer authorized for 
that access.
    Congress should study the provision of additional funds 
that would be used by airports throughout the United States to 
fund security technologies and increased reimbursement for law 
enforcement officers to further enhance aviation security in 
public areas of airport terminals.
    I do not believe that fixed-post law enforcement officers 
offer a significant countermeasure to respond to an active-
shooter situation. A flexible-post law enforcement officer 
offers a level of unpredictability and an element of surprise.
    Additionally, if provided airport security specific 
funding, airports could increase the tempo of continually 
enhancing the various layer of security technologies and 
increased reimbursement for law enforcement to further support 
aviation security in public areas of terminals.
    Congress should also allow for the additional funding of 
research of airport security technologies, such as the 
evaluation and testing currently being conducted by the 
National Safe Skies Alliance, which is funded by the Federal 
Aviation Administration. For example, this research could 
enable airports to more wisely use limited monetary resources 
to implement projects to better protect airport perimeters 
which help to minimize the impact of an unauthorized entry onto 
an airfield.
    I again thank you for this opportunity and look forward to 
answer your questions.
    [The prepared statement of Mr. Capello follows:]
                  Prepared Statement of Frank Capello
                              May 29, 2014
    Chairman Hudson, Ranking Member Richmond, and Members of the 
subcommittee, thank you for the opportunity to be with you today to 
discuss aviation security issues. These issues impact our Nation in so 
many ways and impacts all those who use our Nation's airports for 
employment, business travel, and leisure travel.
    I am the aviation security director of the Fort Lauderdale 
Hollywood International Airport. My duties include the planning, 
directing, and administering a comprehensive safety and security 
program for the County's Aviation Department to ensure compliance with 
all Federal security regulations. The central core of my duties is to 
ensure the safety and security of the traveling public and employees 
who work at Fort Lauderdale-Hollywood International Airport.
    Fort Lauderdale-Hollywood International Airport averages over 700 
scheduled passenger aircraft flight operations daily. We have more than 
64,000 passengers in our terminals daily. Twenty-five scheduled 
airlines operate from our 4 terminals.
    Mr. Chairman, I want to assure you and the Members of this 
subcommittee that airports across our Nation take recent incidents and 
the potential for future incidents involving terrorism and other 
criminal acts as a very serious matter. Airport executives, including 
the aviation director of the Broward County Aviation Department, Mr. 
Kent George, hold safety and security as our first and foremost 
priority. We work very closely in collaboration with our local 
Transportation Security Administration (TSA) office to reinforce the 
layers of security that currently exist and to work towards continuous 
enhancement of aviation security on a daily basis.
    I would like to add that our department works very closely with our 
local Customs and Border Protection office and also the contingent of 
FBI agents assigned to our airport. In addition to the 93 sworn 
officers assigned as our law enforcement provider, the Broward 
Sheriff's Office, we are also very proud of the work of our Fire 
Department which is a service also provided by the Broward Sheriff's 
Office. Crash Fire and Rescue services are an integral part of any 
response to a critical aviation security incident involving protection 
of property and lives. I would like for you to know that our law 
enforcement services and our Crash Fire and Rescue services are 
provided by the same organization, the Broward Sheriff's Office, as I 
think that the distinction avails our organization a high degree of 
interoperability.
    The nature of many tragic events is unpredictable and therefore 
there is not one way to prevent certain behavior from occurring. 
Unfortunately, many threats can only be mitigated and not eliminated. 
Random shootings are not new to airports. On November 22, 1974 Samuel 
Byck entered BWI Airport, shot Police Officer George Neal Ramsburg in 
the back and proceeded in a hijacking attempt of a Delta DC-9 aircraft. 
During this incident the co-pilot of the flight was shot dead and the 
pilot was shot numerous times.
    I cite this incident as I believe that it is relevant in recent 
discussions regarding the use of law enforcement officers at a fixed 
post near airport passenger screening checkpoints. At Fort Lauderdale 
Hollywood International Airport we use a hybrid of fixed-post officers 
and flexible response officers to handle responsibilities related to 
the safety of those in the vicinity of TSA screening checkpoints. The 
flexible response officers further enhance security as the officer has 
the ability to patrol a greater area and adds a certain degree of 
unpredictability towards someone planning an attack.
    We also use a unique way to provide these law enforcement officers 
in a more cost-effective way. Instead of using a normally scheduled 
officer at a fixed post, we provide a ``detail'' officer. The 
``detail'' officer is usually an officer from the airport district what 
works a detail that is scheduled outside of the officer's normal duty 
hours. Currently we deploy detail officers at each passenger screening 
checkpoint 8 hours daily. This officer is authorized by law, to affect 
an arrest or discharge their firearm for cause while on duty. The 
``loaded'' cost of an officer is approximately $67.00 an hour. The 
``detail'' officer costs $37.00 an hour. The manner in which officers 
are provided to TSA passenger screening checkpoints allow our airport 
to provide additional law enforcement officers as a result of a lower 
cost per hour.
    Unfortunately, random shootings are not new to airports; they are 
also prevalent in other public areas. As an example, last Friday a 
crazed gunman went on a shooting rampage in a popular Santa Barbara 
student enclave. Numerous active shootings have occurred throughout the 
country in the past 12 months. They are one of a multitude of aviation 
security challenges airports in the United States have implemented 
measures to address.
    Since the tragic events of November 1, 2013 at LAX, the airport 
community has been working with the TSA to identify and develop 
security enhancements. We appreciate the TSA's collaborative approach 
of their working with industry to protect all those who work in and 
travel through the airport environment. We concur with recommendations 
put forth by TSA in Information Circular 14-01. We find that the 
recommended enhancements contained in the Information Circular are 
prudent and we plan to follow the recommendations. The current threats 
to airport terminals are diffuse, complicated and unpredictable. The 
FBI reports that academic studies of active-shooter statistics reveal 
that 49% of the time, the active shooting ended before police arrive. 
Also of interest is that in 10% of the cases, the shooter stops and 
walks away. In 20% of the cases the shooter goes mobile, moving to 
another location. The average active-shooter incident lasts 12 minutes, 
while 37% last less than 5 minutes.
    My testimony today contains two recommendations. I would be glad to 
work further with TSA and the subcommittee on matters that can further 
improve aviation safety and security and I look forward to any 
questions you may have.
    First, I believe that training for the most recent threat is 
relevant, but this training should not overcome the need for a training 
program that ultimately makes an airport more secure. The training I am 
suggesting would have a goal to ``add a new layer of ingenuity'' within 
the airport environment. A majority of aviation security training must 
be proactive and well-thought-out with a lesser focus on airport 
security training that is rooted towards reactivity concerning recent 
events. Many airports throughout the United States have already 
implemented some form of this training to a degree. This training must 
enhance the awareness of not only first responders, but must be 
afforded to all those who work in an airport environment.
    In developing this type of training program, there must be varying 
types of knowledge imparted with an amount of training that is 
customized for the actual responsibilities of the workforce. Much of 
this training should be followed by actual on-the-job training (OJT) 
that is actually conducted in the workplace setting. On-line training 
is very useful, table-top exercises do allow for a further 
understanding of training objectives. The use of some form of 
``tactical'' training for all employees with responsibilities in 
airport passenger terminals is a big step forward when considering 
comprehensive training for aviation security.
    In a typical airport setting there would be specific training for 
law enforcement personnel, other specific training for personnel such 
as TSA and airport authority employees, and then another specialized 
curriculum for the other employees working in an airport setting. At 
all layers the training would encompass aviation security awareness and 
how to report security issues to the proper authorities responsible for 
aviation security. Additionally this training would identify how to 
evacuate or escape. This type of training is available today. The two 
major factors that limit the use of this type of training is the 
ability to accept training from an outside entity and the cost. These 
hurdles are easily overcome when logic is used to analyze the cost 
benefit of the training.
    Second, Federal funding for aviation security initiatives, such as 
the training I mentioned, must be considered. There is a need to 
specifically fund aviation security initiatives and technology 
throughout airports in the United States. The amount airports are 
reimbursed by TSA under the Law Enforcement Officer Reimbursement 
Program has decreased significantly over the last several years. The 
decision to reduce the amount of these funds comes at a time when 
funding should be increased as a result of the strains being placed 
upon airports throughout the United States as they comply with an 
increasing amount of Federal mandates and simultaneously work to 
provide an optimal level of aviation safety and security. At the same 
time, airports are challenged by the lack of available funding 
necessary to provide for projects to update infrastructure. Restoring 
sufficient funds to the Law Enforcement Officer Reimbursement Program 
would be instrumental in providing more capability to deter criminal 
activity and is certainly a prudent measure to mitigate an active-
shooter situation.
    I do not believe TSA Transportation Security Officers should be 
armed. Generally speaking, more guns at a TSA passenger screening 
checkpoint are not a solution. TSA Officers have specific duties that 
would be impacted if the same officers were required to be fully 
trained in the laws involving the retention and handling of firearms, 
and the time needed to maintain proficiency in the use of a firearm. 
Additionally, as more and more entities are introduced into a response 
plan, that plan becomes exponentially harder to plan, coordinate, and 
implement. The use of law enforcement officers that have already been 
trained and equipped to respond to active-shooter incidents is the most 
prudent and effective way forward.
    Funding for United States airports was made available in the 1980's 
after a terminated employee used his airport identification badge to 
board PSA Flight 1771 and crashed the aircraft as a result of a murder/
suicide. All 43 people aboard the aircraft died. This funding was used 
to install automated access controls that are used to deny restricted 
area access immediately. Since 9/11 significant Federal funding has 
been provided to TSA to purchase and install hold (checked) baggage 
explosive detection systems to further address the threat of a bomb 
being placed in the baggage which is to be loaded aboard the aircraft 
at airports in the United States.
    Congress should study the provision of additional aviation 
security-specific funds that would be used by airports throughout the 
United States to fund security initiatives, technologies, and increased 
reimbursement for law enforcement officers to further enhance aviation 
security in the public areas of airport terminals. Additionally, if 
provided airport-specific funding, airports could increase the tempo of 
continually improving the various layers of security currently in place 
at airports throughout the United States. Congress should also allow 
for the additional funding of research of airport security technology, 
such as the evaluation and testing currently being conducted by the 
National Safe Skies Alliance which is funded by the Federal Aviation 
Administration. For example, this research could enable airports to 
more wisely use limited monetary resources to implement projects to 
better protect airport perimeters to reduce the amount of unauthorized 
entries onto airfields.
    In closing, I wish to assure you that we are in the process of 
implementing many specific post-LAX shooting enhancements to our 
Airport Emergency Plan and to our Disaster Preparedness Plan. We are 
currently involved in evaluating different types of active-shooter 
training that will improve our ability to better train airport 
employees. We know you understand the importance of the need for 
airports to consider, evaluate, and implement local initiatives to 
enhance our layers of security, and our opportunity to leverage 
available and future technology.

    Mr. Hudson. Thank you, Mr. Capello.
    The Chairman recognizes Mr. Landguth for 5 minutes.

STATEMENT OF MICHAEL J. LANDGUTH, PRESIDENT AND CHIEF EXECUTIVE 
   OFFICER, RALEIGH-DURHAM AIRPORT AUTHORITY, RALEIGH-DURHAM 
                     INTERNATIONAL AIRPORT

    Mr. Landguth. Thank you, Chairman Hudson, Ranking Member 
Richmond, and Members of the subcommittee.
    I appreciate the opportunity to appear before you today to 
participate in this public hearing.
    I would like to commend this subcommittee and the 
Transportation Security Administration for the thoughtful and 
collaborative approach they have taken surrounding the horrific 
events that occurred on November 1, 2013 at LAX. Our thoughts 
and prayers go out to the family of Mr. Hernandez.
    I believe the efforts of this subcommittee and the 
collaborative discussion it has created within the industry 
will provide measurable security improvements for travellers 
and workers at the Nation's airports.
    The Raleigh-Durham International Airport is located in 
North Carolina, and it is the 39th largest airport in the 
United States. We handle over 9 million passengers a year. As a 
commercial service airport, we have the responsibility to 
detect, deter, and prevent both security threats and safety 
concerns that could harm passengers and employees.
    The LAX incident was significant, and airports have 
responded aggressively by looking at emergency responsiveness, 
evacuation strategies, local and Federal coordination, and a 
host of other issues to make sure they are adequately prepared 
if such an incident occurs again.
    Commercial service airports across the country are required 
to develop an airport emergency plan that addresses the 
following: Aircraft, terrorism, hazardous material incidents, 
structure fires, natural disasters, sabotage, highjacking, 
water rescues, and crowd control. Airports are constantly 
evaluating safety and security risks and regularly reviewing 
their emergency and contingency plans to ensure they are 
prepared.
    At RDU, we have added to our emergency plan over time by 
developing a special passenger assistance plan, crisis 
communication plan, baggage handling contingency plan, and a 
communicable disease plan. Also at this time my staff is 
developing a severe weather plan to address the significant 
weather events, such as a hurricane. We also hold annual safety 
and security table-top exercises to practice and test our 
emergency plan.
    With regard to the incident at LAX and its impact on 
airport emergency response, I offer several recommendations 
below on how airports and the Federal Government can work 
together to strengthen the response to these types of 
incidents.
    Encourage the development of active-shooter response 
recovery guidelines by TSA versus a one-size-fits-all 
regulations to ensure that all airports have the basic 
framework to meet the requirements of their individual 
airports.
    The task and actions needed for recovery and return to 
normal operations are best handled in the airport emergency 
plan or a stand-alone plan, not in the airport security plan. 
Enlist TSA to act as a clearing house for lessons learned for 
active-shooter incidents. While RDU sent three of its employees 
to the LAX active shooter and San Francisco aircraft accident 
debriefings, not all airports across the country can afford 
this type of investment. Therefore, a real-time clearing house 
of information of the very best ideas on how to deal with 
active-shooter scenarios would significantly increase the 
overall preparedness of all airports in this country.
    We encourage your recommendation to airports in 
coordination with TSA conduct active-shooter awareness training 
for all of their employees and tenants. In the summer of 2013, 
RDU provided its employees an active-shooter awareness 
training. It was so well-received that employees have requested 
that we provide this training to their families.
    While on the surface this may not seem like a significant 
deterrent, we believe we mitigated a potential act against our 
passengers and employees at our facility after the training was 
conducted.
    Recognizing the layered approach to terminal area security 
around the checkpoint and ticket counters is the most 
effective. One layer includes community policing. At RDU, we 
are developing and expanding our community policing program to 
include the employees of the airlines and other tenants to 
reinforce the importance of immediate action drills and proper 
communication procedures while infusing a mindset of constant 
awareness.
    Additionally, we conduct two active-shooter tactical drills 
each year, have enhanced our armament and weapons training, and 
added two explosive detection dogs and we are exploring ways to 
utilize technology, such as CCTV and facial recognition 
software to act as a force multiplier to assist with the 
detection, prevention of, and recovery from criminal activity.
    Our objective is to build rings and layers to security to 
detect, discourage, mitigate, and react to threats. Airports 
are concerned with how to respond to the ever-changing threats 
while maintaining the common goal of protecting citizens in our 
facilities.
    Finally, I appreciate the leadership of Chairman Hudson, 
Ranking Member Richmond, and Members of the subcommittee on the 
exit lane staffing issue. In light of the tragedy of LAX, we 
encourage the long-term technology solution be considered. The 
solution, would further reduce the potential point of entry by 
individuals wanting to harm our passengers and employees.
    Movement to employee technology solution at the exit lanes 
will require an investment to achieve the security objective. I 
would encourage Members of Congress to make the necessary 
investment by offering a grant to implement technology 
solutions at airports across the country.
    Looking forward, Mr. Chairman, I know the committee is 
interested in seeking actions to ensure that all airports are 
adequately prepared should future active-shooter events 
materialize, which we all hope will not be the case.
    Therefore, I summarize the action recommendations discussed 
above as follows:
    One, plans for response recovery from active-shooter 
scenarios should be handled in the airport emergency plan or 
other emergency planning documents developed by the airport to 
ensure they are tailored to the specific airport.
    Two, TSA should act as a clearing house for the best ideas 
from across the country to address active-shooter scenarios and 
in a timely fashion share this information with airports.
    Three, require active-shooter awareness training for all 
airport employees, including those of airport tenants and the 
TSA.
    Four, airport law enforcement should take a layered 
approach to security around the checkpoint and ticketing 
counter and include testing of these plans as part of the 
annual AVSEC tabletop exercise.
    Finally, five, work towards funding a program for 
implementation of a technology solution at the Nation's airport 
exit lanes.
    Thank you for your leadership on this important issue 
facing our country. The industry appreciates the collaborative 
approach you have chosen to address your concerns.
    Thank you, Mr. Chairman.
    [The prepared statement of Mr. Landguth follows:]
               Prepared Statement of Michael J. Landguth
                              May 29, 2014
    Chairman Hudson, Ranking Member Richmond, and Members of the 
subcommittee, I appreciate the opportunity to appear before you today 
to participate in this public hearing. I would like to commend this 
subcommittee and the Transportation Security Administration (TSA) for 
the thoughtful and collaborative approach they have taken surrounding 
the horrific events that occurred on November 1, 2013 at LAX. Our 
thoughts and prayers go out to the family of Mr. Hernandez. I believe 
the efforts of this subcommittee and the collaborative discussion it 
has created within the industry will provide measurable security 
improvements for travelers and workers at the Nation's airports.
    Raleigh-Durham International Airport is located in North Carolina 
and is the 39th-largest airport in the United States. We handle over 9 
million passengers a year. As a commercial service airport we have the 
responsibility to detect, deter, and prevent both security threats and 
safety concerns that could harm passengers and employees. The LAX 
incident was significant, and airports have responded aggressively by 
looking at emergency responsiveness, evacuation strategies, local/
Federal coordination, and a host of other issues to make sure they are 
adequately prepared if such an incident occurs again.
    Commercial service airports across the country are required to 
develop an airport emergency plan that addresses the following: 
Aircraft, terrorism and hazardous material incidents, structural fires, 
natural disasters, sabotage and hijackings, water rescues, and crowd 
control. Airports are constantly evaluating safety and security risks 
and regularly review their emergency and contingency plans to ensure 
they are prepared. At RDU we have added to our emergency plan over time 
by developing a special passenger assistance plan, crisis 
communications plan, baggage handling contingency plan, and a 
communicable disease plan. Also, at this time, my staff is developing a 
severe weather plan to address a significant weather event such as a 
hurricane. We also hold annual safety and security table-top exercises 
to practice and test our emergency plan.
    With regard to the incident at LAX and its impact on airport 
emergency response, I offer several recommendations below on how 
airports and the Federal Government can work together to strengthen the 
response to these types of incidents.
    Encourage the development of active-shooter response and recovery 
guidelines by TSA versus one-size-fits-all regulations to ensure that 
all airports have the basic framework to meet the requirements of their 
individual airports. The tasks and actions needed for recovery and 
return to normal operations are best handled in the Airport Emergency 
Plan, or a stand-alone plan, not in the Airport Security Plan.
    Enlist TSA to act as a clearing house for lessons learned from 
active-shooter incidents. While RDU sent three of its employees to the 
LAX active shooter and the SFO aircraft accident debriefings, not all 
airports across the country can afford this type of investment. 
Therefore, a real-time clearing house of information of the very best 
ideas on how to deal with active-shooter scenarios would significantly 
increase the overall preparedness of all airports.
    We encourage your recommendation that airports, in coordination 
with TSA, conduct active-shooter awareness training for all of their 
employees and tenants. In the summer of 2013 RDU provided its employees 
with active-shooter awareness training. It was so well-received that 
employees have requested that we provide this training to their 
families. While on the surface that may not seem like a significant 
deterrent, we believe we mitigated a potential act against our 
passengers and employees at our facility after the training was 
conducted.
    Recognize that a layered approach to terminal area security around 
the checkpoint and ticket counters is the most effective. One layer 
includes community policing. At RDU we are developing and expanding our 
community policing program to include the employees of the airlines and 
other tenants to reinforce the importance of immediate action drills 
and proper communication procedures, while infusing a mindset of 
constant awareness.
    Additionally, we conduct two active-shooter tactical drills each 
year; have enhanced our armament and weapons training and added two 
explosive detection dogs; and we are exploring ways to utilize 
technology, such as CCTV and facial recognition software, to act as a 
force multiplier to assist with the detection & prevention of and the 
recovery from criminal activity.
    Our objective is to build rings and layers of security to detect, 
discourage, mitigate, and react to threats. Airports are concerned with 
how to respond to ever-changing threats while maintaining the common 
goal of protecting citizens in our facilities.
    Finally, I appreciate the leadership of Chairman Hudson, Ranking 
Member Richmond, and Members of the subcommittee on the exit lane 
staffing. In light of the tragedy at LAX, we encourage that a long-term 
technology solution be considered. This solution would further reduce 
the potential point of entry by individuals wanting to harm our 
passengers and employees. Movement to employ a technology solution at 
the exit lanes will require an investment to achieve this security 
objective. I would encourage Members of Congress to make the necessary 
investment by offering a grant to implement technology solutions at 
airports across the country.
    Looking forward, Mr. Chairman, I know that the committee is 
interested in seeking actions to ensure that all airports are 
adequately prepared should future active-shooter events materialize, 
which we all hope will not be the case. Therefore, I summarize the 
action recommendations discussed above as follows:
  1. Plans for response and recovery from active-shooter scenarios 
        should be handled in the Airport Emergency Plan or other 
        emergency planning documents developed by the airport to ensure 
        they are tailored to the specific airport.
  2. TSA should act as a clearing house for the best ideas from across 
        the country to address active-shooter scenarios and in a timely 
        fashion share this information with airports.
  3. Require active-shooter awareness training for all airport 
        employees including those of airport tenants and the TSA.
  4. Airport law enforcement should take a layered approach to security 
        around the checkpoint and ticketing counter and include testing 
        of these plans as part of the annual AVSEC table-top exercise.
  5. Work towards funding a program for implementation of a technology 
        solution at the Nation's airport exit lanes.
    Thank you for your leadership on this important issue facing our 
country. The industry appreciates the collaborative approach you have 
chosen to address your concerns.

    Mr. Hudson. Thank you, Mr. Landguth.
    The Chairman recognizes Mr. Murphy to testify.

 STATEMENT OF KEVIN MURPHY, PRESIDENT, AIRPORT LAW ENFORCEMENT 
                        AGENCIES NETWORK

    Mr. Murphy. Chairman Hudson, Ranking Member Richmond, and 
Members of the committee. Thank you for the opportunity to give 
an airport law enforcement perspective.
    I truly appreciate the commitment and concern from this 
committee to ensure the aviation system continues to be a safe 
and secure environment for our traveling public.
    After the LAX shooting, Administrator Pistole immediately 
reacted by setting in motion a comprehensive review of the 
incident and forming a group of aviation experts to look at all 
aspects of the current security programs related to the 
incident. Administrator Pistole should be commended on this 
measured and thorough approach to ensure all entities with ties 
to the aviation system had an opportunity to review, discuss, 
and provide input to any advances or changes to the security 
measures which are in place.
    The Airport Law Enforcement Agencies Network, or ALEAN, was 
involved early on in these discussions and meetings as one of 
the prevailing issues focuses on whether a law enforcement 
officer should be stationed at or near the checkpoints.
    ALEAN is a nonprofit organization formed in 1989 to 
represent those law enforcement agencies whose mission is to 
protect and patrol the Nation's airports. ALEAN was formed to 
facilitate the exchange of information concerning terrorism and 
emerging criminal trends associated with airport operations. 
ALEAN has over 100 U.S. airport police agencies as members, 
ranging from the largest Cat X to the smaller Cat 3 airports. 
Columbia Metropolitan, Huntsville, Indianapolis, Louis 
Armstrong, Dallas-Fort Worth, Atlanta, Chicago, Los Angeles, 
Metropolitan Washington, Cincinnati are but a few of our member 
airports.
    ALEAN has and continues to be opposed to the mandatory 
stationing of law enforcement officers at checkpoints. It 
severely limits the ability of the police chiefs and commanders 
at airports to manage their officers. Law enforcement officers 
are a finite and valuable resource which need to be deployed to 
all areas of the airport, some with much higher risk than the 
checkpoints. Given the fact that all airports are unique, 
forcing a standardized approach to response times for any 
incident may indeed cause law enforcement officers to be pulled 
away from other areas within the airport which are equally as, 
if not more critical.
    Just as Administrator Pistole has used a risk-based 
approach to arrange security measures, airport police chiefs 
and commanders use the same approach for their individual 
airports to position their officers in the best location to 
handle all calls for services and provide security and safety 
to all the airport travellers and staff.
    Airport law enforcement officers are responsible to detect, 
deter, and respond, to criminal and other public safety or 
security-related incidents from the roadway to the runway of 
our Nation's airports. Depending on the ebbs and flows of 
individual airports, the higher risk may be with large number 
of vehicles on the curb dropping off passengers to the long 
lines at ticket counters or the many bags and unattended items 
in the baggage pick-up areas. The airport law enforcement 
officer needs to have the ability to move throughout these 
areas to provide deterrence and response capabilities. 
Assigning an officer to a fixed post tethers him to one 
location and creates an inefficient use of much-needed 
manpower.
    Law enforcement officers are a key element in deterring and 
detecting and responding to a critical incident, such as an 
active shooter. But they are not the only aspect of creating a 
safe and secure environment. There is no one tactic or strategy 
that can be developed to prevent these incidents in the future 
or provide a better security stance.
    The best approach is a multi-layered approach. 
Communication from the airport tenants to the airport emergency 
communications centers, or ECCs, is a vital layer which must be 
clear and direct. Again Administrator Pistole has led this 
charge to ensure there are direct lines of communication to the 
airport ECC from checkpoints and even further to encourage all 
TSA employees to program their individual cell phones with 
direct line to the ECC. This approach has been mirrored by 
airport tenants and employees across the country.
    Another layer is additional enhanced video data systems. 
Video data systems provide immediate eyes on the situation, 
especially if the systems are linked to incoming call or alarm 
locations. Cameras allow the ECC to better direct the 
responding officers to the exact location of the incident, 
facilitating a quick resolution to the incident.
    Administrator Pistole and the TSA are to be commended for 
partnering with many U.S. airports on funding to expand 
existing video data systems, this funding program should be a 
focus for this committee.
    Dynamic incidents, such as active shooters, will continue 
to occur in our Nation and abroad. Only a flexible, layered 
security stance which involves all entities within the airport 
complex will allow for a swift resolution and recovery from 
these incidents. Airport police chiefs and commanders must be 
able to move their officers freely to where the risk is for 
that individual airport.
    Thank you for your continued focus on improving the safety 
and security of our Nation's traveling public. I look forward 
to answering any follow-up questions you may have.
    Mr. Hudson. Thank you, Mr. Murphy.
    [The prepared statement of Mr. Murphy follows:]
                   Prepared Statement of Kevin Murphy
                              May 29, 2014
    Mr. Chairman, Ranking Member Richmond, and Members of the 
committee, thank you for the opportunity to give input and perspective 
on the lessons learned from the LAX shooting as it pertains to airport 
law enforcement. I appreciate the commitment and concern from this 
committee to ensure the aviation system continues to be a safe and 
secure environment for our traveling public.
    The Airport Law Enforcement Agencies Network or ALEAN is a non-
profit organization formed in 1989 to represent those law enforcement 
agencies whose mission is to protect and patrol the Nation's airports. 
ALEAN was formed for the purpose to facilitate the exchange of 
information concerning terrorism and emerging criminal trends 
associated with airport operations. The original charter participating 
agencies were located in the largest Cat X airports, but ALEAN has 
since expanded to over 100 U.S. airport agencies as regular members and 
numerous foreign Associate Membership agencies in Canada. Many 
governmental law enforcement agencies such as the FBI, FAMS, INTERPOL, 
U.S. Secret Service, and federal regulatory agencies from around the 
world also hold Adjunct Membership. ALEAN holds official conferences in 
the Spring and Fall of each year to discuss business, provide training, 
and conducts monthly membership teleconference calls.
    After the LAX shooting and senseless murder of Transportation 
Security Officer Gerardo Hernandez, Administrator Pistole immediately 
reacted by setting in motion a comprehensive review of the incident and 
forming a group of aviation experts to look at all aspects of the 
current security programs as it related to the incident. Administrator 
Pistole should be commended on this measured and thorough approach to 
ensure all entities with ties to the aviation system had an opportunity 
to review, discuss, and provide input into any advances or changes to 
the security measures which are in place.
    ALEAN was involved early on in these discussions and meetings, as 
one of the prevailing issues focuses on whether a law enforcement 
officer should be stationed at or near the checkpoints. ALEAN has and 
continues to be opposed to the mandatory stationing of law enforcement 
officers at checkpoints, because it severely limits the ability of the 
police chiefs and commanders at airport to manage their officers. Law 
enforcement officers are a finite and valuable resource which need to 
be deployed to all areas of the airport, some with much higher risk 
than checkpoints. Given the fact that all airports are unique, forcing 
a standardized approach to response times for any incident, may indeed 
cause law enforcement officers to be pulled away from other areas 
within the airport which are just as critical.
    Just as Administrator Pistole has used a risk-based approach to 
arrange security measures, airport police chiefs and commanders use the 
same approach for their individual airports to position their officers 
in the best location to handle all calls for service and provide 
security and safety to all of the airport travelers and staff, not 
focusing on a single group. Airport law enforcement officers are 
responsible to detect, deter, and respond to criminal and other public 
safety or security-related incidents from the roadway to the runway of 
the Nation's airports. Depending on the ebbs and flows of individual 
airports, the higher risk may be with large number of vehicles on the 
curb dropping off passengers, to the long lines at ticket counters or 
the many bags and unattended items in the baggage pick-up areas. The 
airport law enforcement officer needs to have the ability to move 
throughout these areas to provide deterrence and response capabilities 
to all. Assigning an officer to a fixed post tethers them to one 
location and creates an inefficient use of much-needed manpower.
    Law enforcement officers are a key element in deterring, detecting, 
and responding to a critical incident such as an active shooter, but 
they are not the only aspect of creating a safe and secure environment. 
There is no one tactic or strategy that can been developed to prevent 
these incidents in the future or to provide a better security stance. 
The best approach is a multi-layered approach. Communication from the 
airport tenants to the airport emergency communication centers (ECC) is 
a vital layer which must be clear and direct. Again, Administrator 
Pistole has led this charge to ensure there are direct lines of 
communication to the airport ECC and even further to encourage all TSA 
employees to program their individual cell phones with the direct line 
to the ECC. This approach has been mirrored over to all airport tenants 
and employees. Another layer for the ECC is additional or enhanced 
video data systems. The video data systems provide immediate eyes on 
the situation, especially if the systems are linked to incoming call or 
alarm locations. Cameras allow the ECC to better direct the responding 
officers to the exact location of the incident facilitating a quick 
resolution to the incident. Again, Administrator Pistole and the TSA 
are to be commended for partnering with many U.S. airports on funding 
to expand existing video data systems.
    Los Angeles World Airports conducted an all-encompassing after-
action report of the incident and shared the report with all, so others 
could benefit from what they experienced. This type of coordination and 
information sharing are the key elements of ALEAN. Over the years ALEAN 
has played a significant role in ensuring a successful 1994 World Cup 
Soccer Tournament in the United States, developed a model partnership 
with the Federal Government with the National Explosives Detection 
Canine Program, managed the airport community's post-9/11 law 
enforcement response, initiated a National aviation law enforcement 
benchmarking project, put in place a vital real-time electronic 
intelligence-sharing network for airport criminal investigators and an 
administrative information-sharing network, helped local agencies 
develop and share model best practices programs, and assisted with the 
development and integration of public policy related to aviation law 
enforcement. ALEAN partners with the American Association of Airport 
Executives (AAAE) and Airports Council International (ACI) to address 
issues vital to our industry. ALEAN's partnerships include working with 
local Joint Terrorism Task Forces, the Federal Air Marshall Program, 
and the TSA Federal Intelligence Officer Program to ensure the safety 
on the travelling public.
    Coordination between law enforcement agencies is needed to resolve 
these dynamic incidents and all must be trained to respond as one. 
Active-shooter response training is yet another layer which airports 
must participate in. A lone gunman who is intent on senselessly 
destroying the lives of others may be nearly impossible to deter or 
detect until the first shot is fired. Airport police agencies must 
continue to train to quickly respond and resolve these incidents. The 
training should include mutual aid agencies, Federal law enforcement 
officers, and as important, the fire and EMS agencies which respond to 
the airport. We have continued to improve deterrence and response to 
active-shooter incidents through experience and training. Airport 
police and responding EMS must train to quickly recover, remove, and 
treat those injured persons quickly, even if the incident continues in 
other areas of the airport complex.
    Dynamic incidents, such as active shooters, will continue to occur 
in our Nation and abroad. Only a flexible layered security stance which 
involves all entities within the airport complex will allow for a swift 
resolution and recovery from these incidents. Airport police chiefs and 
managers must be able to move their officers freely to where the risk 
is. ALEAN members continue to be inventive and proactive in creating 
different and unique security layers to deter those who want to do harm 
in our airports and to respond quickly and effectively when those 
incidents do occur. ALEAN provides coordination by sharing best 
practices among its members such as: Airports which have created random 
dynamic force and long gun patrols; active-shooter response bags which 
include first aid items and other tools to resolve an incident; random 
vehicle inspection posts; enhanced security ID checks to ensure all 
those in the security area are authorized to be in the security area. 
These are but a few of the innovative security layers being created by 
airport police across the Nation--all require the ability for airport 
police chiefs and commanders to flexibly deploy their finite assets 
where the risk is for that airport.
    Thank you for your continued focus on improving the safety and 
security for our Nation's traveling public.

    Mr. Hudson. Chairman recognizes Mr. McClain to testify.

STATEMENT OF MARSHALL MC CLAIN, PRESIDENT, LOS ANGELES AIRPORT 
                   PEACE OFFICERS ASSOCIATION

    Mr. McClain. The November 1, 2013 shooting at LAX was a 
tragedy----
    Mr. Hudson. Is your microphone on there?
    Mr. McClain. Just let me make sure.
    Mr. Hudson. Okay.
    Mr. McClain. November 1, 2013 shooting at LAX was a 
tragedy, and I appreciate Chairman McCaul, Chairman Hudson, 
Ranking Member Thompson, and Ranking Member Richmond for 
inviting me to testify before your committee today.
    LAX is staffed by a specialized proprietary police force 
that is explicitly trained to police and secure LAX, which is 
widely considered to be the highest terrorist target on the 
West Coast. Specifically, LAX is the third-busiest airport in 
the United States, serving 165,000 passengers daily. Passenger 
traffic increased 7.3 percent in 2013, and is continuing to 
rise. That same year, LAX opened its new Tom Bradley 
International Terminal, which includes a total of 18 new 
boarding gates, serving many airlines from countries with long-
standing histories of conflicts.
    The nature of airport policing in airports like ours is 
intertwined with our Federal law enforcement partners, 
including the FBI, Customs and Border Protection, and airplane-
based Federal Air Marshals. All of which we have had a long, 
productive history. A key factor to our ability to effectively 
work together are clear delineations of responsibility and 
mutual underlying respect and strong trust in the abilities of 
our partners to follow protocols and do their jobs.
    LAX has been the focus of some of our country's most high-
profile airport events, including an attack by an Egyptian limo 
driver that killed 2 people and injured 4 at Israel's El Al 
ticket counter, a terrorist plot in which a car filed with 
explosives was stopped at the Canadian border with the 
intentions of detonating at LAX, an airport bombing that killed 
4 and wounded another 36, and the most recent shooting.
    On the general policing side, crime at the airport ranges 
from stolen property to arrest of fugitives. As a frame of 
reference, in 2013, the number of reported crimes at LAX 
increased by 10 percent to 1,569, with an average rate of 
nearly 24 arrests per week. During the same time period, the 
LAX permanently expanded physically and increased passenger 
levels, the number of Los Angeles World Airport police sworn 
officers steadily declined to its lowest level since 2008. For 
context and of significant importance to this hearing today, 
when November 1 shooting took place, there were only 2 officers 
assigned to the entire Terminal 3 at LAX, which is typically on 
any given day.
    In September 2012, the American Alliance of Airport Police 
Officers, which is comprised of rank-and-file law enforcement 
officers representing the airports of LAX, JFK, La Guardia, 
Newark, and Dallas-Fort Worth, met with Administrator Pistole 
to have a frank discussion about local law enforcement 
interactions with TSA, the only Federal agency with which our 
officers experienced consistent and on-going lack of 
coordination and communication.
    We made five specific recommendations for Cat X airports to 
the administrator. None of these recommendations were acted 
upon. Four of these recommendations, which include, No. 1, 
requiring a law enforcement officer presence within 300 feet of 
a TSA screening station, police access to closed circuit TVs, 
definitive standards of operating procedures between law 
enforcement officers and TSA, and, No. 4, providing the tools, 
equipment, and resources for both TSA and law enforcement 
officers to better do their jobs.
    This most likely would have had a better impact on November 
1. I am concerned that TSA has not moved on basic low-tech, 
low-cost, and low-effort solutions that are necessary to 
mitigate and perhaps prevent future acts of violence.
    Furthermore, I am concerned with our own airport management 
at LAX is not balancing policing and security with their 
ambitions to physically expand the airport and market it as a 
destination for world travelers. In fact, the U.S. Department 
of Transportation Inspector General recently released the 
Federal audit reporting policing funds have been illegally 
diverted at LAX in an astronomical amount of $49 million and 
irregularities associated with an additional $7.9 million.
    Many of our officers are fully aware of the illegal misuse 
of these funds, and we are hopeful that the Federal Government 
will force termination of these activities and require 
renumerations to our department for the funding that has been 
lost so it can be applied to the various policing deficiencies 
that have come into focus this last fall.
    Our officers did not fail LAX when it was our time, when it 
mattered. We should expect the same in return by our management 
and the Federal agencies who impact what we do. We are hopeful 
that circumstances do not find us back here again or at a 
hearing at another airport in our country after another 
incident that could have been mitigated or prevented by common-
sense solutions with high-end returns on investment.
    As law enforcement officers at LAX, we want our airports to 
be the gold standard, not just for marketing and economic 
standpoint, but also functionally with safety being almost the 
top priority--among the top priorities.
    In closing, most importantly, my fellow officers and I do 
mourn the death and tragic loss of life, and our heart does go 
out to the Hernandez family. We would also express our hopes 
that those who were injured on that day will recover well and 
with speed, and we solemnly commit to ensuring that we will 
continue our best effort to protect our airports and its 
occupants.
    Thank you for convening this very important hearing today.
    [The prepared statement of Mr. McClain follows:]
                 Prepared Statement of Marshall McClain
                              May 29, 2014
    The November 1, 2013 shooting at LAX was a tragedy and I appreciate 
Chairman McCaul, Chairman Hudson, Ranking Member Thompson, and Ranking 
Member Richmond for inviting me to testify before your committee on 
lessons learned to prepare for future incidences at our Nation's 
airports.
    As a precursor, I would like to lay out why airport policing is 
unique and multifaceted and why it is becoming increasingly necessary 
to focus attention on how the Federal Government guides local and 
National security at our airports.
    LAX and many large American airports are their own cities. 
Specifically, LAX spans 3,425 square miles and is the 3rd-busiest 
airport in the United States serving 165,000 passengers daily, meaning 
that over 1 million people pass through our airport weekly, which is 
roughly the entire population of the city of Dallas. In 2013, LAX 
served 66.7 million passengers--a 7.3 percent increase from the 
previous year. That same year, LAX opened its new Tom Bradley 
International Terminal which includes a total of 18 new boarding gates 
servicing many airlines from countries with long-standing histories of 
conflicts in neighboring gates within a confined and highly-trafficked 
area.
    LAX is staffed by a specialized proprietary police force that is 
explicitly trained to police and secure LAX which is widely considered 
to be the highest terrorist target on the West Coast. The work and 
training we do is critical to ensuring that if an incident happens, 
like the shooting attack in November, we are prepared to protect our 
airports and the traveling public quickly, precisely, and orderly to 
curtail and minimize damage. Airplane and airports have an indisputable 
association to terrorism and impactful acts of crime in our world today 
and airport policing has had to adjust to address the evolution of 
airlines moving from targets of hijackings to airplanes being used as 
weapons of mass destruction and airports serving as symbols to those 
wishing to do harm as a high-profile way to make a statement.
    As such, the nature of airport policing is intertwined with our 
Federal law enforcement partners including the FBI, Customs and Border 
Protection, and airplane-based Federal Air Marshals, all of with which 
we have a long and productive history. A key factor to our ability to 
effectively work together are clear delineations of responsibilities, a 
mutual underlying respect, and a strong trust in the abilities of our 
partners to follow protocol and do their jobs.
    LAX has been the focus of some of our country's most high-profile 
airport events including: An attack by an Egyptian limo driver that 
killed two people and injured four others at Israel's El Al Airlines 
ticket counter; a terrorist plot in which a car filled with explosives 
was stopped in Canada with the intention of detonating at LAX; an 
airport bombing that killed 4 and wounded 36; and the most recent 
shooting. On the general policing side, crimes at the airport range 
from stolen property, arrests of fugitives, aggravated assaults, and 
felonies for narcotics and weapons violations. As a frame of reference, 
in 2013, the number of reported crimes at LAX increased 10% to 1,569, 
with an average weekly arrest rate of nearly 24 per week.
    During the same time period that LAX permanently expanded 
physically and increased passenger levels, the number of LAWAPD sworn 
officers has steadily declined to its lowest level since 2008 (see 
attached California Commission on Peace Officer Standards and Training 
study). For context, and of significant importance for the purposes of 
this hearing, when the November 1 shooting took place, there were only 
2 officers assigned to the entire Terminal 3 at LAX, which is typical.
    In September, 2012, the American Alliance of Airport Police 
Officers, which is comprised of rank-and-file law enforcement officers 
representing the airports of LAX, JFK, La Guardia, Newark, and Dallas-
Ft. Worth, met with Administrator Pistole to have a frank discussion on 
our concerns about law enforcement interaction with TSA--the only 
Federal agency with which our officers experience consistent and on-
going lack of coordination and communication. We made specific 
recommendations to the administrator including: Fortifying security 
screening points with visible law enforcement officer (LEO) presence; 
real-time police access to airport CCTV cameras; mandatory screening of 
all airport employees; definitive standard operating procedures between 
LEOs and TSA; and providing the tools for TSA and LEOs to do our jobs 
(see attached letter). None of these recommendations were acted upon. 
Four of these recommendations--LEOs at TSA screening, CCTV access, 
definitive standard operating procedures between LEOs and TSA, and 
providing the tools for TSA and LEOs--most likely would have had an 
impact on November 1. In its report following the shooting, the TSA has 
since issued recommended standards for law enforcement presence at 
checkpoints and ticket counters during peak travel times and has 
encouraged the linking of notification/duress alarms to CCTV systems 
but we are still awaiting implementation.
    We also met with and communicated with the House Homeland Security 
Committee staff and you, Mr. Chairman, post-November 2013 and discussed 
issues relating to fortifying security clearance areas, CCTV, panic 
buttons, 9-1-1 systems and airport phone caller identification. While 
some would make the case that these are complex, highly-expensive 
endeavors, they are not and they should be undertaken. I am hopeful 
that this committee will strongly encourage support of our 
recommendations with the airports who receive substantial Federal 
funding in areas your committee authorizes.
    I am concerned that airport management at LAX is not balancing 
policing and security with their ambitions to physically expand the 
airport and market it as a destination for world travelers. In fact, 
the Department of Transportation's (DOT) Office of the Inspector 
General (OIG) recently issued findings of a DOT IG Audit of LAX that 
found diversion of airport policing funds and other citations for 
diverting airport funds at LAX in the amount of $49 million, as well as 
numerous irregularities relating to an additional $7.9 million in 
undocumented policing monies. Furthermore, I am concerned that TSA has 
not moved on basic, low-tech, low-cost, and low-effort solutions that 
are necessary to mitigate and perhaps prevent future acts of violence 
at our airports. My comments expressed in this testimony are to enhance 
and promote safety at our airports. It is my singular goal. 
Individually, we respect and admire all of our co-workers.
    We are well aware that the November 1 shooting could have gone in a 
very different direction had the shooter been on a different mission. 
We are aware that had he been less methodical; had he been running 
instead of walking; had he been non-discriminating in targeting the 
general public and not just TSA; and had his intension been to get to a 
plane, many more people could have been killed.
    My officers did not fail LAX when it was our time--when it 
mattered. We should expect the same in return and are hopeful that 
circumstances do not find us back here again or at a hearing at another 
airport in our country after another incident that could have been 
mitigated or prevented by common-sense solutions with high-end returns 
on investments. As law enforcement officers at LAX, we want our airport 
to be the gold standard, not just from a marketing and economic 
standpoint, but also functionally, with safety being among the top 
priorities.
    In closing, and most importantly, my fellow officers and I mourn 
for the Hernandez family. We also express our hopes that those who were 
injured will recover well and with speed and we solemnly commit to 
ensuring that we will continue our best efforts to protect our airport 
and its occupants.
    Thank you for convening this very important hearing.

    Mr. Hudson. Thank you, Mr. McClain.
    We appreciate all of you being here and appreciate your 
testimony.
    Now I'm going to recognize myself for 5 minutes to ask 
questions.
    One of the issues that Mr. Capello and Mr. Landguth both 
touched on, I guess, is the--it was brought up in TSA's own 
after-action review, was that there needs to be more training, 
active-shooter training. They recommended the airport operators 
conduct this training on a biannual basis, and also in addition 
to mandatory evacuation drills, that sort of thing.
    How important do you think it is that these be jointly 
conducted between TSA and airport--you both sort-of touched on 
the other stakeholders who it might be necessary. But maybe you 
could expand on that a little more, the need to do the joint 
training. I will open up to either one of you.
    Mr. Capello. I think there is a lot of issues to address in 
your question, sir.
    One of the biggest concerns is that if there are many 
individual plans, somebody like myself, my airport, would have 
to ensure that those individual plans mesh up together so that 
the outcome is very positive at the end.
    So I think it is important that at some point that those 
plans have to be vetted against each other to make sure they 
will be successful in their entirety.
    On the other side of the coin is that the more entities you 
introduce into some type of emergency plan, the more 
complicated it becomes exponentially. So we need to be careful 
of that.
    I happen to think the best approach is an individual 
airport approach to this type of planning, exercising, even 
training and then maybe some type of approval by TSA, review by 
TSA----
    Mr. Hudson. Let each airport sort-of come up with its own 
game plan and then TSA review it.
    Mr. Capello. Exactly. I do believe that there is so much 
benefit to that. It is sort of the reason why I believe I am 
here today is that you are looking for some subject-matter 
expertise and I believe I could provide that.
    I think airports should be allowed to provide that in the 
airport setting. If there is some required Federal oversight, 
it would be in some type of framework or a template or some 
approval of the plan that is in place.
    Mr. Hudson. Sir.
    Mr. Landguth. Mr. Chairman, I have to agree.
    I think training everybody concessionaires, tenants, TSA, 
all of our employees, everybody needs to be trained in this. 
Because detection is identifying these things as quickly as you 
possibly can and then knowing how to communicate that 
information.
    There are lots of these kinds of plans out there. TSA has 
gone through and done some training with their staff. I will 
tell you as they did the training for their staff I asked some 
of their employees to try to describe that for me, and one 
thing that I thought was quite interesting is what was silent, 
and what was silent is: How are we going to take care of the 
passengers?
    There is a lot about how we deal with the employees, which 
is important, don't lose--I am not trying to downplay that. But 
we also need to take care of the passengers. We have 9 million 
people that come through that facility. I am responsible for 
all 9 million, plus the tenants, plus the employees.
    So the airport have an overarching kind of plan to make 
sure everybody is coordinated, everybody knows what is going 
on, how we are going to communicate, how we are going for 
evacuate, how we are going to have our tactical plans coming 
forward is extremely important I think moving forward.
    Mr. Hudson. I will agree and that sort of dovetails on my 
next question, which is, one of the concerns we had at LAX, I 
alluded to in my opening statement, is that there was no way to 
communicate with the passengers in the terminal, even in other 
terminals that were on lockdown.
    How do you at your airports communicate, how would you 
communicate in an incident like this with the general public?
    Mr. Capello. So we have a couple different methods. The 
first one is, we are fortunate, we made some recent upgrades to 
our infrastructure at Fort Lauderdale-Hollywood International 
Airport. We do have the ability to talk to every terminal, 
either individually or together all at once, what we call a 
group page, a group message.
    So if something was to happen today, our central 
communication center could start talking to the terminals right 
away. We also have plenty of boots on the ground and we would 
start talking either through voice or through bullhorns that we 
have equipped in our vehicles and with our personnel. So we 
have that also.
    We have a, I think it is called social media honcho at my 
airport, a public affairs guy, and he is very proficient as 
starting social media very quickly and getting the word out and 
we practice it often at our airport in messaging to our 
travellers different bits of information.
    We are going through a lot of construction, and we enjoy 
messaging to all the travellers about the status of our 
construction and the challenges that we are facing. So I feel 
like we are prepared and we do have quite an ability to talk to 
our traveling public.
    Mr. Hudson. My time has expired, but I will let you, Mr. 
Landguth, very quickly.
    Mr. Landguth. Very quickly, we have kind-of what I call 
current plan. A current plan deals with kind of an all page on 
our all page system. The LEs and TSA both are listening on each 
other's radios. So if something is going on, we can communicate 
and they can start their terminal evacuation program. We can 
get the message out through an all page to our tenants, they 
can begin their program to kind of get people out at the end of 
the day and we provided training to everybody regarding 
terminal evacuation.
    In the future, we are looking for a mass communication 
system because we have what we call a common-use system. So 
every single flight information display, the ticket counter, at 
the check-in counter, flight information display, baggage 
information display, we can broadcast that information telling 
the passengers and telling the tenants exactly what needs to be 
done in the future.
    That is our future that will help everybody move very 
rapidly if there is a dangerous situation.
    Mr. Hudson. Thank you.
    My time has expired.
    At this point I will recognize the Ranking Member of the 
committee, gentleman from Louisiana, Mr. Richmond, for any 
questions you may have.
    Mr. Richmond. Thank you, Mr. Chairman.
    I will start with you, Mr. McClain. You mentioned in your 
testimony that you all met with Administrator Pistole and gave 
four recommendations in I believe you said September about 
closed circuit TV, about law enforcement presence at that 
passenger checkpoints and so forth.
    How has your working relationship with TSA changed since 
the shooting?
    Mr. McClain. Well thank you, sir.
    First off, our relationship with TSA, it is a mutual 
respect. We respect what they do in terms of screening 
passengers and cargo. What you have to realize is there are not 
clear lines of delineation and that still hasn't changed today, 
in terms of everybody has a role to do, whether it be the 
baggage handlers, whether it be TSA screeners, TSOs, whether it 
be the airline attendants. Everyone has their role. But it is 
not very clearly laid out where TSA's job begins and where it 
ends.
    So when it becomes a law enforcement matter, it should be a 
law enforcement matter and not be in a tug of war, and some of 
that continues today.
    Mr. Richmond. How do we help create those clear lines and a 
better working relationship to where you all come together to 
find an understanding?
    Mr. McClain. Well, I agree with my fellow Members on the 
committee here that each airport does have its own different 
needs and different rules that go into play specifically.
    But in terms of TSA, that needs to come directly from the 
administrator down to his troops that when it is an airport 
police matter or a law enforcement matter, the LEOs are in 
charge and let them do their job.
    Mr. Richmond. The next question, I will let you start off 
with it, but I also wanted to get Mr. Capello's viewpoint, and 
Mr. Landguth.
    You also mentioned that as airports continue to try to grow 
and try to expand their market share and all of those things, 
which I believe you all are about 9 million passengers a year; 
in New Orleans airport, we are about 9 million a year. I know I 
just met with my airport director a couple months ago, but he 
wants to build a new airport. But at no time did he discuss 
security and I'm not saying that he left it out; maybe I didn't 
ask.
    But there is clearly a move to increase passenger travel 
and all the things because the economic development that goes 
with it.
    Do you think that we are sacrificing safety in pursuit of 
market share? I will start with Mr. McClain and then I will 
give both of you all a chance to answer.
    Mr. McClain. Yes, sir. I do agree that we are sacrificing 
it. Whenever you have a plan for expansion or capital 
improvement project and it does not include public safety, 
there is a problem. When you have a situation like LAX where it 
clearly is expanding, everyone knows that that is their goal to 
expand. But over the last 4 years, our officers' numbers have 
been declining. All of us will agree here it typically takes 
about 2 years to get someone hired through the academy and 
being a solo officer. So we--the officers that we need now we 
should have had 4 years ago.
    So you are going to have these general managers of airports 
who are looking at bringing in the dollars for that airport and 
that expansion not always looking at public safety.
    So it should be part of a capital improvement project. 
Whenever that comes forward to you here or when it comes to 
appropriations in terms of funding for that, part of that plan 
should have some inclusion of where law enforcement is in that 
plan.
    Mr. Richmond. Got it.
    Mr. Capello.
    Mr. Capello. Two things on that. First thing on police 
staffing or law enforcement officer staffing. That is a 
decision that is made by myself and my chief of police and up 
to this point, we are both very satisfied that we are 
adequately staffed for the amount of traffic that we have 
today, even considering the possible myriad of contingencies 
that could occur on airport property. If that was not the case, 
then I certainly have an avenue to go to the airport director, 
whether is at the budget cycle or in the middle of a budget 
cycle, and articulate my concerns; and I am confident that 
anything the chief of police or I needed in the area of law 
enforcement would be satisfied through that venue.
    On the second note, airport expansion, if you came to my 
airport today, it just looks like a construction site and I 
have been at Fort Lauderdale-Hollywood Airport, International 
Airport just a little over 3 years, and from the day I walked 
in the door till yesterday when I left, I am involved in the 
design and planning of all projects. From the security side, I 
handle the security side. It is not to say I get everything I 
want all the time. But at the end of the day, I am satisfied 
that I have a safe and secure facility.
    Mr. Richmond. You are included. I was saying you are 
included in the process.
    Mr. Capello. Oh, absolutely.
    Mr. Richmond. Okay.
    Mr. Capello. It is a major part of my day, actually.
    Mr. Richmond. Mr. Landguth, if you could answer quickly. I 
see my time has expired.
    Mr. Landguth. I will tell you that airport directors across 
the country, safety and security is paramount and I know Mr. 
Iftikhar, and I will tell you that it is his top of his radar 
too from a safety and security standpoint.
    We made investments in active-shooter drills. We have got 
an investment for mass communication. We bought additional 
weapons. We have added two explosive detection canines. We are 
looking at new technology solutions from a CCTV standpoint. We 
are making that investment. Safety and security is paramount. 
Airport managers across the country get that. It is a 
challenging revenue environment out there, but we are not going 
to sacrifice safety and security. It is not going to happen.
    Mr. Hudson. Thank you.
    Thank the gentleman.
    At this point, Chairman will recognize gentleman from 
California, Mr. Swalwell, for any questions you may have.
    Mr. Swalwell. Thank you, Mr. Chairman.
    Wanted to thank each and every one of our witnesses. This 
of course is important.
    I think in just the last year, whether it is the LAX 
shooting or some of the perimeter challenges that we have seen, 
or even the Oceanic crash at SFO, which is near my district, we 
have certainly seen the challenges that aviation can pose for 
us. For me, aviation security is so important because if we do 
not have public confidence in aviation security, the economy we 
know will greatly, greatly suffer.
    I wanted to first ask Mr. Capello, you mentioned in your 
testimony calling for pilot testing of technology and you noted 
that research could enable airports to more wisely use limited 
monetary resources to implement projects to better protect 
airport perimeters.
    In San Jose about 2 months ago, we had a teenager breach 
the perimeter by going over the fence, which was not seen or 
detected by human eyes or video surveillance and he boarded a 
flight that took him to Hawaii as a stowaway.
    What that illustrated to me was that we don't have TSA 
guidelines right now that require airports to be alerted when 
any person or thing crosses an airport perimeter and these 
perimeters are vast. At San Jose, it is a thousand acres, which 
is approximately 10 football fields that you could put within--
I'm sorry, more than--which is 100 football fields that you 
could put in this airport ground, bigger than many small 
cities.
    So, do you think the guidelines that TSA has should require 
every airline or every airport to be alerted if the perimeter 
is crossed in a way that it doesn't get in the way of your goal 
of allowing each airport to individually have their own 
security plan?
    Mr. Capello. No, I don't. I believe again that the experts 
who are tasked with that on the ground, people like myself, are 
more than able to handle that.
    So a couple things with that. At Fort Lauderdale, we had a 
fence jumper. Didn't make the National news. It was within the 
last couple months. I don't have a perimeter detection, 
intrusion detection. I don't have a lot of things. I do want, 
do need some things. But there is a way to go about that.
    The outcome of the story at Fort Lauderdale is that while 
the gentleman was going up the fence, the community policing 
part already had kicked in and we were receiving calls through 
three different numbers. We publish a--of course, 9-1-1. We 
also on the back of our badges have a number you can call to 
immediately talk to our control center, and then we have a 
police non-emergency number.
    So as this individual is climbing the fence, we were 
already receiving calls.
    Mr. Swalwell. Don't you think, Mr. Capello, that for 
perimeters that are so vast that it is impossible for human 
eyes to detect these, especially at night?
    Mr. Capello. Sure. Yeah, absolutely. I was thinking about a 
simple way to present my testimony to you about this particular 
issue and the only thing I can come up with, and I apologize, 
but it is some time ago, I used to carry a cell phone and now I 
carry a smart phone. I can still make phone calls with both of 
them. But I am much more productive with the smart phone.
    So if my airport director came to me and said, hey, we just 
found $25 million and we are going to put in this elaborate 
CCTV system, intrusion detection system, I would be the 
happiest guy in the room. But the bottom line is that is not 
the only area we are responsible for. You heard testimony today 
that we have roadways, we have buildings, we have commercial 
crimes, we have assaults, we have everything. We also have 
fence jumpers, unfortunately.
    I think we all need to devote attention to it. I am not an 
alarmist about it just yet. Of course, I would like to have 
technology that would make my workforce more productive, my 
police and my security people.
    Mr. Swalwell. Do you think that $5 million, which the Safe 
Skies Alliance has right now, is enough to study the 
technologies? Or do you think expanding that program would 
benefit perimeter security?
    Mr. Capello. I think it is a great question, and it is an 
easy one for me. I think it needs to be expanded. Why? Why? 
When I became aware of what the work that Safe Skies was doing, 
the gentleman was trying to explain to me exactly what they do, 
and he knew I wasn't getting it. He said, listen, just think of 
Consumer Reports.
    He said, we are the Consumer Reports of airport security. 
After thinking about it, it is the best way to convey any 
testimony to you.
    I don't have the resources nor the time to evaluate if this 
system will work in the rain, the snow, the heat, the fog, the 
sand, animals. They have experts to do that.
    They will tell you what the system can do and what the 
system can't do. We at airports----
    Mr. Swalwell. I'm sorry, Mr. Capello. I think my time has 
expired. But it looks like we may have----
    Mr. Hudson. We will do a second round.
    Mr. Swalwell. A second round, yeah. If you don't mind, Mr. 
Chairman. I yield back.
    Mr. Hudson. If all the Members agree.
    Mr. Swalwell. Thank you, Mr. Capello.
    Mr. Hudson. Thank you.
    At this point, I will recognize myself for a second round 
of questions.
    So address this to Mr. McClain, Mr. Murphy, either one, if 
you both want to sort-of chime in on this. One of the issues, 
one of the key findings in LAWA's after-action report was the 
issue of sort-of the command-and-control, having a unified 
command-and-control system where, you know, all the different 
agencies that were responding could coordinate in one place. 
That seemed to be one of the big deficiencies.
    Could you maybe expound on that and explain from your 
perspective exactly why it is so important to have that one 
unified command-and-control at each airport?
    Mr. McClain. Well, for starters, I would like to start with 
the 9-1-1 system. Because to start there----
    Mr. Hudson. That is where I was going next. But if you want 
to go there first.
    Mr. McClain. I'm sorry. Well, I will encompass it in both.
    Mr. Hudson. Sure.
    Mr. McClain. In terms of unified command and lines of 
communication, if you don't have that, it delays the process 
and that is what we saw that day. You had four different 
command posts set up, which everyone at this table say that 
that is not done. That is not the way we train, that is not the 
way we do it; but on that day, it happened.
    But when you touch on things like the 9-1-1 system, 
currently, if you dial 9-1-1 at the airport at LAX, it does not 
go to airport police. So that is not even streamlined.
    So, that is a situation that we brought up for the last 4 
years, and it still hasn't been addressed today.
    So simple low-tech things like having a caller ID system in 
place. When we talk about revenue and the revenue issue has 
come up, we still have to circle back to the fact that $49 
million of Federal dollars was diverted instead of being used 
where it was supposed to be. The other 7.9, DOT is not even 
sure what that was about.
    So there is revenue there. But it is not going to the right 
places to make sure that it is being done properly. So if you 
went to LAX, you saw LAX, there is billions of dollars being 
spent on beautification. Let's call what it is. Beautification 
rather than public safety.
    So I still don't see public safety being paramount because 
you look at what is being spent on public safety as opposed to 
what is being spent on beautification, it is dramatically 
different.
    Thank you.
    Mr. Hudson. Mr. Murphy, you want to chime in on the 9-1-1 
issue or the issue of the unified control?
    Mr. Murphy. Unified command is the most basic principles in 
our NIM system. Our compadres on the fire department are way 
more advanced than what the police departments have been doing 
and they have been using unified command for years 
successfully.
    Many of their fires need mutual aid. So any time you are 
bringing in other areas for mutual aid, especially if they are 
on a different radio system, when they have different tactics, 
the command has to be channeled from one location.
    Before you even do that, you have to get back to the 
training of it. Is that, you know, you can put unified command 
in, but do you have to train on it as well as a group as mutual 
aid partners come in?
    As for the 9-1-1, obviously, it is a best practice--9-1-1, 
it does--if you don't have the ability to receive those in your 
PSAPs, in your ECCs, then it does take time to transfer that 
from one place to another, 30 seconds or so to transfer those 
calls. Obviously, the more efficient way is to have them all 
ring in to directly who is directing those emergency services 
at the time.
    Mr. Hudson. Absolutely. One of the things that really 
struck me on our site visit to LAX was how quickly that first 
officer made it into Terminal 3 and when he hit that front 
door, he was up the escalator and, I mean, there was no 
hesitation. It is pretty incredible the amount of time, but, so 
30 seconds here and there really matters. So it really 
impressed upon me just, you know, in that quick amount of time, 
how far the shooter advanced, but also how quickly they got 
there.
    I am running out of time, but maybe if I could throw it to 
Mr. Landguth and Mr. Capello, if you could just quickly. The 
issue at LAX was if you call from your cell phone 9-1-1 while 
you are in the terminal, it went to, I believe, the sheriff 
department, if you called from a land line in the terminal, it 
went to LAPD, and so what would happen in the case of your 
airport if someone called from their cell phone? Do you have 
land lines or others ways to contact 9-1-1 from your airports?
    Mr. Landguth. Yeah. I think that is one of the lessons 
learned that we have is, of all of our telephone systems or 
telephones that we have at Terminal 2, we should have an 
automatic button that we can actually hit that goes directly to 
the equivalent of our 
9-1-1 center at the airport itself, but right now if people are 
dialing 9-1-1, it is going to the emergency operations, Wade 
County emergency operations 9-1-1 center, and so there is a 
little bit of challenge there.
    So proper training, immediate buttons that people can 
actually touch. I think TSA's got a program across the country, 
I think it is 8-8-8 that they will hit no matter what airport 
they are at across the country, so it goes immediately to the 
airport's communication center. So I think we have recognized 
that that is probably an area that needs some improvement, and 
we are working on it.
    Mr. Hudson. I am glad they picked 8-8-8 and not 6-6-6 or 
some other number.
    Mr. Capello, very briefly, my time's expired and I want to 
give my--if you have anything to add, just do it very quickly.
    Mr. Capello. The only thing I will add is if you dial 9-1-1 
in my area, you will be connected to the dispatcher that 
actually does dispatch of the deputy that will show up at your 
scene, so it is all integrated.
    Mr. Hudson. Gotcha. Thank you.
    Well, I appreciate that. At this point I recognize our 
Ranking Member, Mr. Richmond, for a second round of questions.
    Mr. Richmond. Thank you.
    Mr. Murphy, I am sure after the LAX shooting, you received 
tremendous response from various airport law enforcement 
entities and representatives that you represent. From your 
perspective, the law enforcement perspective, what was the 
recurring take-away that you noticed from the airport law 
enforcement community?
    Mr. Murphy. Yes, sir. The active shooter has been on our 
radar for a long time with ALEAN. We have been training on that 
over the last several of our conferences, and our members, most 
of our members, if not all of our members, have an active-
shooter plan or are putting an active-shooter plan in process 
when the LAX shooting occurred.
    We had a conference shortly after that in Los Angeles, and 
we talked with our members, and there were several themes. 
First and foremost, comparing the LAX shooting with other 
active-shooter incidents across the Nation, they solved that 
problem very fast. It was obvious that Los Angeles had a good 
plan, and we were reaching out to say: Hey, what does your plan 
look like?
    No. 2 was the training, for our officers, as well as our 
airport staff and the training needed to not only go on 
resolving the incident, but recovery and recovery of victim 
extraction. That came up very, very obvious that, hey, we need 
to make sure that we are able to get victims out very quickly 
and work with our fire departments so they are able to come 
into a warm zone. It may not be totally secure, but we have got 
to get those folks in so we can get victims out and save lives 
much faster.
    Then the last part is to handle all the mutual aid. It was 
obvious that if someone puts out a call for help, you are going 
to get a lot of help, but then how do you manage those folks 
and how do you get them to where you need them so they can 
truly help you and not bind up the system.
    Mr. Richmond. Thank you.
    Mr. Chairman, with that, I yield back.
    Mr. Hudson. Thank the gentleman.
    I will recognize my colleague from California, Mr. 
Swalwell, for a second round of questions.
    Mr. Swalwell. Thank you.
    First I would like to correct my math. That would be almost 
1,000 football fields. Okay.
    But, Mr. McClain, when I toured San Jose Airport, I was 
stunned to hear how few sworn law enforcement officers the city 
of San Jose gives to the airport in coordination and I don't 
think the number needs to be divulged, but it is pretty low. Do 
you have a recommended formula for number of officers per acre 
or per number of travelers daily at an airport?
    Mr. McClain. Well, thank you, sir. That still varies from 
airport to airport and county to county. I will say that having 
a proprietary law enforcement agency there as opposed to a 
municipal agency or, with all due respect to my colleague here, 
a county agency, sometimes that varies in terms of the 
dedicated force there and typically, it is the agencies that 
are not proprietary that allocate less resources. That is just 
my opinion, that is what I have seen.
    I believe that as airports grow, as they expand, they have 
to reassess what officers they have allocated. If you are 
making the responsibility larger, you can't just say, hey, we 
got by with it 5 years ago when we had less area of 
responsibility. I know it was talked about earlier about 
whether you should have officers dedicated at a screening 
station or not. You also have to look at if you have an officer 
dedicated to that screening post, that is one less officer to 
rotate around.
    But when you look at embassies or when you look at, when we 
came in here today, there were police officers dedicated there 
as you came in. I don't know how you on this panel would be if 
you came in one day and those guys were just roving around, or 
if you went into an embassy and you didn't see a marine there, 
he was just roving around. So those are real things that we 
have to look at and whether that revenue is being allocated to 
those public safety resources in conjunction with the expansion 
of those airports.
    Mr. Swalwell. There is perception, value, right, to having 
someone at the checkpoint? Because I actually agree with you 
about giving them more latitude to rove around, but I imagine 
the other side of the argument would be the perception value of 
an armed officer at a checkpoint.
    Another question, and actually I would open it up to anyone 
who wishes to answer, and I think our airport security 
directors may have some thoughts on this. One of our local 
airports, I learned and observed that at the general aviation 
entrance point, folks can enter, who have their planes at the 
airport can fob their way in with a badge without any security 
personnel watching them come in or verifying that their fob or 
badge is for that person, and leaving the risk of someone 
tailgating in behind or somebody who isn't the pass holder 
badging in to the area.
    At this particular airport, the general aviation area will 
get, can get you to the commercial part of the airport, and I 
had concerns about that, about whether even on the general 
aviation side if we should have human eyes, whether it is 
someone on the ground looking at the pass or remotely having 
someone, you know, hold up their pass to a camera and so we are 
at least verifying people that are coming in and out.
    Any thoughts on that? Everyone's looking at you, Mr. 
Capello.
    Mr. Capello. I will take it. I do have thoughts about it. 
At the airport I am stationed, we don't use a fob, but we do 
use an airport-issued identification badge for that type of 
access and there is an awful lot of vetting and security 
checks, security threat assessments, fingerprint-based criminal 
history checks that go on before that credential is issued.
    So, yes, at the airport I am at, you can use that 
credential to access the general aviation or fixed-based 
operator area of the airport, and, yes, you could eventually go 
from that area to a more secure area of the airport.
    At my airport, to go to that small secure area of the 
airport, you have to go through another type of staffed 
credential check, because the two levels of security are 
different. So it acts like a lock, and you will eventually 
balance it out, that if you are going from a, let's just call 
it a restricted area to a more secure area, you yet have 
another check.
    At that gate where that credential was first used where 
there was not a guard, there is generally CCTV, and if there is 
any issues at that gate, we start watching that gate very 
closely. There is also equipment hooked to that gate that 
generates alarms if a gate is manipulated with or kept open too 
long and things like that.
    What I find generally is that when you evaluate the risks 
and the threats and the consequences and whatnot, that to me it 
is very low risk at this point because of the set-up I 
currently have. I am very comfortable with the set-up I have. 
There may be other airports, though, that don't have such an 
elaborate set-up, but at least where I am at, I do.
    So I am very--it is low on my radar right now compared to 
other things that go on in an aviation security setting.
    Mr. Swalwell. Great. Thank you.
    Mr. Chairman, I yield back the balance of my time.
    Mr. Hudson. Thank the gentleman.
    I now recognize my colleague from Alabama, Mr. Rogers, for 
any questions he may have.
    Mr. Rogers. Thank you, Mr. Chairman.
    Mr. Murphy, based on your knowledge, are the majority of 
airports in America equipped with effective interoperable 
communications equipment that will allow them to talk with 
first responders in the community in the event of an active-
shooter incident?
    Mr. Murphy. To be quite honest with you, I don't know that 
answer. I know that where I police in Cincinnati, we have had 
an 800-megahertz system for 20 years and our responding mutual 
aid partners have a 400-megahertz system. So for 20 years we 
have been on a different radio system, but we have put 
technology patches or unified command-type procedures in place 
to make sure that we are able to talk to those in case we do 
ask them to come in and help, but I do not know if there are--
what percentage have interoperability or not.
    Something we should consider is as we move to the digital 
platform, most agencies are moving to a P25 or some kind of 
digital platform, that we are going to experience more of these 
instances where areas are moving up to new radio systems, and 
we expect that those are going to continue to have 
interoperable problems until all P25 is fully converted.
    Mr. Rogers. Anybody else know the answer to that question?
    Mr. Capello. I would like just a clarification. Were you 
asking about gunfire detection or interoperability of radios?
    Mr. Rogers. No, no, no. Just in the event there is an 
active shooter in the airport, do the airport police have 
interoperable communications that will allow them to talk to 
fire and emergency responders in the community?
    Mr. Capello. At the airport I am at, Fort Lauderdale, the 
answer is yes. The police services and the fire services are 
provided by the same provider, which in this case would be the 
Broward County Sheriff's Office.
    Mr. Rogers. But does anybody know if that is true among the 
majority of airports in the country? If you don't know, you 
don't know. I just----
    Mr. Capello. I don't know.
    Mr. Rogers. It is a big frustration to me. Several years 
ago on this committee, I was in charge of the--I was chairing 
the subcommittee that dealt with that, and we have spent 
enormous sums of money trying to assure interoperability, and 
it just doesn't seem like we are getting anywhere.
    There seems to be a lot of resistance among various first 
responders that they have their system of communications, and 
it doesn't always talk with their counterparts in the area. I 
would like to see us mandate that if we are going to spend 
Federal dollars, it has to be equipment that will talk with the 
areas around it.
    Mr. Capello, and Mr., is it Land----
    Mr. Landguth. Landguth.
    Mr. Rogers. Landguth. One of TSA's after-actions in 
response to the shooting at LAX was the increase in its VIPR 
Team presence in the airport environment. Have you noticed an 
increase in VIPR Team presence at your airports and do you feel 
that the VIPR Teams are a beneficial deterrent?
    I will start with you, Mr. Landguth, and then we will go to 
Mr. Capello.
    Mr. Landguth. I am not quite sure. I don't know what the 
activity of the VIPR Team is. That is typically handled down 
at, my chief of police would handle that type of activity. So I 
am sorry. I don't know.
    Mr. Rogers. Okay. Mr. Capello.
    Mr. Capello. We have had VIPR Teams at the airport and we 
welcome them. As far as any noticeable increase, I would have 
to say I have not noticed that, but I must say that we do get 
what I consider adequate coverage from those teams.
    One of the other things that occurs at my airport, and we 
just had one over the weekend, specialized enforcement where we 
invite the same components of a VIPR Team to set up shop on our 
roadways and in various parts of the airport itself to be that 
visible deterrent and actually pull over vehicles and search 
vehicles and things like that. So I say that, I confidently say 
that between the actual, ``the VIPR Team'' and the special 
enhancement or enforcement that we do set up on a regular basis 
due to certain situations, such as holidays or whatever, the 
coverage there is adequate.
    Mr. Rogers. Great. Thank you.
    Last question, and this is backing up to the previous 
subject matter, interoperable communications. Do you know, Mr. 
Murphy or Mr. Capello, if the police equipment, communication 
equipment that is in your airport was purchased with Federal 
money in full or in part?
    Mr. Murphy. I believe ours was probably purchased with AIP 
funding, but I would have to verify that.
    Mr. Rogers. Okay. Mr. Capello.
    Mr. Capello. I don't know the exact answer to that, but I 
know since I have been there, anytime equipment is purchased, I 
wind up eventually paying the bill for it, and I don't believe 
that any of that incurred any Federal funding or reimbursement.
    Mr. Rogers. Thank you very much.
    I yield back, Mr. Chairman.
    Mr. Hudson. I thank the gentleman.
    I thank the witnesses for your testimony and Members for 
their questions.
    You know, this LAX tragedy is one that I hope we can all 
learn from. You know, I continue to insist that the indelible 
image from that day in my mind will not be the horrific 
shooting of Officer Hernandez, but it will be that vision of 
that police officer hitting the front door and rushing up that 
escalator without--looked like Batman, without any hesitation. 
That to me is the image of that day.
    I just thank the witnesses for their time and helping us to 
look at lessons learned, to look at how we move forward to make 
the flying public safer.
    So with that, I will just ask the Members that--the 
witnesses that Members may have additional questions. If they 
submit those, we ask that you answer those in writing.
    Mr. Hudson. Without objection, the subcommittee stands 
adjourned. Thank you.
    [Whereupon, at 3:44 p.m., the subcommittee was adjourned.]

                                 [all]
</pre></body></html>
